<html>
<title> - CONFRONTING THE RISE OF DOMESTIC TERRORISM IN THE HOMELAND</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


       CONFRONTING THE RISE OF DOMESTIC TERRORISM IN THE HOMELAND

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 8, 2019

                               __________

                           Serial No. 116-17

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
                                   

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                             
                  

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-474 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="99e9f6d9faeceaedf1fcf5e9b7faf6f4b7">[email&#160;protected]</a>                   
                                  
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                           
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Mike Rogers, a Representative in Congress From the 
  State of North Carolina, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     7

                               Witnesses

Mr. Brad Wiegmann, Deputy Assistant Attorney General for National 
  Security, U.S. Department of Justice:
  Oral Statement.................................................    10
  Prepared Statement.............................................    11
Mr. Michael C. McGarrity, Assistant Director for the 
  Counterterrorism Division, Federal Bureau of Investigation, 
  U.S. Department of Justice:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Mr. Brian Murphy, Principal Deputy Under Secretary for the Office 
  of Intelligence and Analysis, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21

                             For the Record

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Compendium of Letters, 2011-2018...............................    69
  Letter to Honorable Christopher Wray...........................    77

                                Appendix

Questions From Honorable Peter T. King for Brad Wiegmann.........    79
Question From Honorable Van Taylor for Brad Wiegmann.............    79
Questions From Chairman Bennie G. Thompson for Michael McGarrity.    79
Questions From Honorable Peter T. King for Michael McGarrity.....    80
Questions From Chairman Bennie G. Thompson for Brian Murphy......    81

 
       CONFRONTING THE RISE OF DOMESTIC TERRORISM IN THE HOMELAND

                              ----------                              


                         Wednesday, May 8, 2019

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
room 310, Cannon House Office Building, Hon. Bennie G. Thompson 
(Chairman of the committee) presiding.
    Present: Representatives Thompson, Jackson Lee, Langevin, 
Payne, Jr., Rice, Correa, Torres Small, Rose, Underwood, 
Slotkin, Cleaver, Green of Texas, Clarke, Titus, Demings, 
Rogers, King, McCaul, Katko, Walker, Higgins, Green of 
Tennessee, Taylor, Joyce, and Crenshaw.
    Chairman Thompson. The Committee on Homeland Security will 
come to order. The committee is meeting today to receive 
testimony on confronting the rise of domestic terrorism in the 
homeland.
    Good morning. This issue of domestic terrorism is not new. 
In fact, Democrats on the committee have been following this 
issue for years. Over the last 8 years, Democratic Members of 
this committee have sent request after request asking for then-
Republican Majority to hold hearings on domestic terrorism in 
the homeland. Each and every request was either ignored or 
denied.
    I am looking forward under my leadership and the Ranking 
Member's leadership to address any problem that we might see in 
the homeland or internationally, so we want to address 
terrorism wherever we find it. Instead, the victims and 
survivors of domestic terrorist attacks time and time again 
have been offered moments of silence and prayers rather than 
Congressional actions.
    For those of you in the hearing room, when you see the 
monitor screens, the images and headlines of the domestic 
terrorist attacks that have been torn through our Nation while 
the Republicans were in charge of this committee and the House 
of Representatives. To all the victims, survivors, and 
communities who have felt like the terror you suffered was 
ignored or minimized, know that it ends with today's hearing.
    Today is a new day and this committee's silence on domestic 
terrorism now ends because in recent years we have seen a 
dramatic and disturbing rise in domestic terrorism, 
particularly far right extremists, violence tied to White 
supremacist extremism, and White nationalism. The few pieces of 
Government data that we have seen confirmed that domestic 
terrorism is an urgent and growing threat to the homeland.
    In the last 2 years, there have been more domestic 
terrorism-related arrests than international terrorist-related 
arrests. Last year, nearly all extremism-related murders in the 
United States were committed by right-wing domestic terrorists.
    Of course, we only need to look at the news to know that 
this is a serious problem. Just 2 weeks ago, a domestic 
terrorist attacked Jewish worshippers at a synagogue near San 
Diego, killing one woman. In February, a former Coast Guard 
Lieutenant was indicted after stockpiling weapons and drugs, 
planning attacks targeting prominent Democratic politicians 
including a Member of this committee, Congresswoman Jackson 
Lee. Last October, a domestic terrorist killed 11 Jewish 
worshippers at a synagogue in Pittsburgh. That same month, a 
domestic terrorist sent pipe bombs to domestic politicians all 
across the country, and that is just in the last few months.
    From Charleston to Oak Creek to Charlottesville to Garden 
City, we have seen these violent ideologies rear their ugly 
heads over and over. Unfortunately, President Trump has tried 
to play both sides with domestic terrorism. On April 26, 2019, 
President Trump doubled down on his stance that there were fine 
people on both sides of the August 2017 Unite the Right Rally 
in Charlottesville, Virginia. His unwillingness to denounce and 
distance himself from these extremists has been taken by many 
as tacit support.
    The President and all of us must be willing to stand up to 
all ideologically-motivated violence in America. Unfortunately, 
far right extremism is not limited to the United States. It is 
evolving into a global phenomenon. Earlier this year, the 
terrorist who killed 50 people and wounded 50 more at two 
mosques in New Zealand wrote that he was inspired by American 
and European far-right extremists. It is well past time to take 
action.
    But in order to really get a handle on this evolving 
threat, we need to understand it. The lack of public 
information on domestic terrorism coming out of the Federal 
agencies is nothing short of alarming. What is the nature of 
the threat, and what is the Government doing about it? This 
hearing is the first step toward transparency, but there is 
much more information we need. That is why I am developing 
legislation to require the Federal Government to regularly and 
publicly report data on domestic terrorism. I am optimistic 
that it will become a bipartisan effort.
    Finally, I want to welcome our witnesses from the 
Department of Justice, Federal Bureau of Investigation, and 
Department of Homeland Security. I look forward to your 
testimony, but I want to be clear about my frustration with 
your agencies. After the attack on mosques in New Zealand, I 
asked to speak to Director Wray about domestic terrorism. To 
date, the FBI director has not made himself available for a 
conversation.
    In early April during a Classified briefing on domestic 
terrorism, Members of this committee asked you for several 
follow-up items and get-backs. My staff followed up many times 
over the last month. We only received get-backs from the FBI on 
Monday night. We received incomplete get-backs from I&A last 
night. It has been more than a month. In fact, while all of the 
witnesses have known about this hearing and topic since April 
3, more than a month ago, we received all your testimony late 
yesterday evening, mere hours before this hearing.
    Further, despite a decade-long history of bipartisan 
briefing on threats to our Nation including domestic threats, 
threats from international terrorist organizations, and 
counterintelligence threats, the FBI decided to stop briefing 
this committee on a monthly basis after the Democrats took the 
Majority. Stonewalling this committee in our efforts to carry 
out our Constitutional oversight duties is unacceptable.
    I urge the Justice Department, the FBI, and the Department 
of Homeland Security to recommit to working with this committee 
on behalf of the American people.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                              May 8, 2019
    The issue of domestic terrorism is not new. In fact, Democrats on 
our committee have been following this issue for years. Over the last 8 
years, Democratic Members of this committee sent request after request 
asking the then-Republican majority to hold hearings on domestic 
terrorism in the homeland. Each and every request was either ignored or 
denied. Instead, the victims and survivors of domestic terrorist 
attacks time and time again have been offered moments of silence and 
prayers, rather than Congressional action.
    For those of you in the hearing room, what you see on the monitor 
screens are the images and headlines of the domestic terrorist attacks 
that have torn through our Nation while the Republicans were in charge 
of this committee and the House of Representatives. To all of the 
victims, survivors, and communities who have felt like the terror you 
suffered was ignored or minimized, know that it ends today. Today is a 
new day--and this committee's silence on domestic terrorism ends now. 
Because in recent years, we have seen a dramatic and disturbing rise in 
domestic terrorism--particularly far-right extremist violence tied to 
White supremacist extremism and White nationalism.
    The few pieces of Government data we have seen confirm that 
domestic terrorism is an urgent and growing threat to the homeland. In 
the last 2 years, there have been more domestic terrorism-related 
arrests than international-terrorism-related arrests. Last year, nearly 
all extremism-related murders in the United States were committed by 
right-wing domestic terrorists.
    Of course, we only need to look at the news to know that this is a 
serious problem. Just 2 weeks ago, a domestic terrorist attacked Jewish 
worshipers at a synagogue near San Diego, killing 1 woman. In February, 
a former Coast Guard lieutenant was indicted after stockpiling weapons 
and drugs and planning attacks targeting prominent Democratic 
politicians, including a Member of this committee, Ms. Jackson Lee. 
Last October, a domestic terrorist killed 11 Jewish worshipers at a 
synagogue in Pittsburgh. The same month, a domestic terrorist sent pipe 
bombs to Democratic politicians all across the country. That is just in 
the last few months.
    From Charleston to Oak Creek to Charlottesville to Garden City, we 
have seen these violent ideologies rear their ugly heads over and over. 
Unfortunately, President Trump has tried to play ``both sides'' with 
domestic terrorism. On April 26, 2019, President Trump doubled down on 
his stance that there were ``fine people'' on both sides of the August 
2017 Unite the Right Rally in Charlottesville, Virginia. His 
unwillingness to denounce and distance himself from these extremists 
has been taken by many as tacit support. The President, and all of us, 
must be willing to stand up to all ideologically motivated violence in 
America.
    Unfortunately, far-right violent extremism is not limited to the 
United States. It is evolving into a global phenomenon. Earlier this 
year, the terrorist who killed 50 people and wounded 50 more at two 
mosques in New Zealand wrote that he was inspired by American and 
European far-right extremists. It is well past time to take action. But 
in order to really get a handle on this evolving threat, we need to 
understand it. The lack of public information on domestic terrorism 
coming out of the Federal agencies is nothing short of alarming. What 
is the nature of the threat? What is the Government doing about it?
    This hearing is the first step toward transparency, but there is 
much more information we need. That is why I am developing legislation 
to require the Federal Government to regularly and publicly report data 
on domestic terrorism. I am optimistic that it will be a bipartisan 
effort.
    Finally, I want to welcome our witnesses from the Department of 
Justice, Federal Bureau of Investigation, and Department of Homeland 
Security. I look forward to your testimony, but I want to be clear 
about my frustration with your agencies. After the attacks on mosques 
in New Zealand, I asked to speak with FBI Director Wray about domestic 
terrorism. To date, the FBI director has not made himself available for 
a conversation. In early April, during a Classified briefing on 
domestic terrorism, Members of this committee asked you for several 
follow-up items and get-backs. My staff followed up many times over the 
last month. We only received get-backs from FBI on Monday night. We 
received incomplete get-backs from I&A last night. It has been more 
than a month. In fact, while all of the witnesses have known about this 
hearing and topic since April 3--more than a month ago--we received all 
of your testimony late yesterday evening, mere hours before today's 
hearing.
    Further, despite a decade-long history of bipartisan briefings on 
threats to our Nation, including domestic threats, threats from 
international terrorist organizations, and counterintelligence threats, 
the FBI decided to stop briefing this committee on a monthly basis 
after the Democrats took the majority. Stonewalling this committee in 
our efforts to carry out our Constitutional oversight duties is 
unacceptable. I urge the Justice Department, the FBI, and the 
Department of Homeland to recommit to working with this committee on 
behalf of the American people.

    Chairman Thompson. With that, I now recognize the Ranking 
Member of the full committee, the gentleman from Alabama, Mr. 
Rogers, for an opening statement.
    Mr. Rogers. Thank you, Mr. Chairman. I thank the Chairman 
for calling this important hearing today.
    I condemn all acts of violence. I condemn all acts of 
violence done in the name of disturbed political, racial, or 
religious ideologies. I know every Member of this committee 
agrees with me, and to imply otherwise is inaccurate.
    Today's hearing is important. We must use this opportunity 
to have a meaningful discussion and learn how we as Congress 
can help root out evil in our society. I sincerely hope this 
hearing isn't used for political grandstanding. A YouTube clip 
won't solve these problems but a serious discussion with 
serious people can help inform how Congress and this committee 
can act.
    As Members of this committee know, acts of domestic 
terrorism are not a new phenomenon. Throughout our history, 
deeply disturbed individuals have resorted to violence to 
avenge real or imagined grievances. What has changed is that 
almost 20 years ago, terrorists attacked 4 planes and murdered 
nearly 3,000 Americans. Since then, Americans have awoken to 
the threat of foreign terror organizations but have not fully 
understood the influence they have on our society.
    Bad actors in our country have adopted strategies from 
foreign terrorist organizations. Terrorists at home are 
learning from terrorists abroad. The pervasiveness of the 
internet and social media have made connecting extremists fast, 
free, and anonymous. Movements preaching violence have found 
new homes and broader audiences on-line. The same tools that 
allow us to communicate globally are allowing networks of 
radicals to connect once-isolated fringe groups. The recent 
wave of attacks targeting religious institutions is inspired 
and amplified by social media and fringe websites. Fringe 
websites have become havens for the most abhorrent behavior in 
our society.
    A quick search yields hundreds of results from the most 
disturbing and hateful ideologies ever written. These searches 
lead to communities built around hate, conspiracy theories, and 
most worryingly, images of graphic murder and suicide. These 
are not Facebook or Twitter. These fringe sites house videos of 
terrorist propaganda, shooter manifestos, and gory content 
alongside fresh calls for violence.
    Many posts are dares to commit violence or suicide. Others 
respond with ideas of how to carry out violence. This image, 
which has been edited, and you can see on the TV monitors, 
promoting the killers was recently shared in response to a post 
by the terrorist attack. It lists the attackers, alleged 
ideology, photo, and name. The list then awards points to mass 
shooters, terrorists, and murderers. Points are provided for 
each killer, each person killed, a killer's mental status, 
killing cops, and if the attacker killed himself.
    These images and their vile call to action create a vortex 
of despair and viciousness. The sinister force is clearly 
capturing the minds of troubled people at a greater rate than 
ever before. This is not a single, sure-fire way to stop 
violence before it occurs, but there are steps that we can take 
to reduce future violence.
    Working with industry and law enforcement, we can build a 
comprehensive strategy to detect, monitor, and disrupt on-line 
fronts for terror and violence. We must expand outreach to 
communities and educate them about the radicalization process 
and find ways to help troubled individuals early enough to stop 
their attacks. We must continue to encourage individuals to say 
something to law enforcement if they ever see or hear something 
suspicious.
    Finally, we must encourage the State and local law 
enforcement to continue their participation in the FBI's Joint 
Terrorism Task Force program and State and local fusion 
centers. Both initiatives bring State and local law enforcement 
together with Federal law enforcement to share intelligence and 
leverage authorities to counter threats including domestic 
terrorism. Now is not the time for cities to withdraw from the 
programs to score pity political points.
    I look forward to working with the Chairman and our 
colleagues on the Judiciary Committee on ways to end the 
scourge of domestic terrorism, and I yield back.
    [The statement of Ranking Member Rogers follows:]
                Statement of Ranking Member Mike Rogers
                              May 8, 2019
    I condemn all acts of violence. I condemn all acts of violence done 
in the name of disturbed political, racial, or religious ideologies.
    I know every Member on this committee agrees with me. To imply 
otherwise is inappropriate.
    Today's hearing is important. We must use this opportunity to have 
a meaningful discussion and learn how we as Congress can help root out 
evil in our society.
    I sincerely hope this hearing isn't used for political 
grandstanding; a YouTube clip won't solve these problems. But a serious 
discussion with serious people can help inform how Congress and this 
committee can act.
    As Members of this committee know, acts of domestic terrorism are 
not a new phenomenon. Throughout our history, deeply disturbed 
individuals have resorted to violence to avenge real or imagined 
grievances.
    What has changed is that almost 20 years ago, terrorists hijacked 4 
planes and murdered nearly 3,000 Americans.
    Since then, Americans have awoken to the threat of foreign terror 
organizations, but have not fully understood the influence they have on 
our society.
    Bad actors in our country have adopted strategies from foreign 
terror organizations. Terrorists at home are learning from terrorists 
abroad.
    The pervasiveness of the internet and social media has made 
connecting extremists fast, free, and anonymous. Movements preaching 
violence have found new homes and broader audiences on-line.
    The same tools that allow us to communicate globally are allowing 
networks of radicals to connect once isolated fringe groups.
    The recent wave of attacks targeting religious institutions was 
inspired and amplified by social media and fringe websites.
    Fringe websites have become havens for the most abhorrent behavior 
in our societies.
    A quick search yields hundreds of results for the most disgusting 
and hateful ideologies ever written.
    Those searches lead to communities built around hate, conspiracy 
theories, and, most worryingly, images of graphic murder and suicide.
    They are not Facebook or Twitter.
    These fringe sites house videos of terrorist propaganda, shooter 
manifestos, and gory content alongside fresh calls for violence.
    Many posts are dares to commit violence or suicide. Others respond 
with ideas of how to carry out violence.
    This image, which we have edited to avoid promoting the killers, 
was recently shared in response to a post about a terrorist attack.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    It lists the attacker's alleged ideology, photo, and name.
    The list then awards points to mass shooters, terrorists, and 
murderers.
    Points are provided for each person killed, a killer's mental 
status, killing cops, and if the attacker killed himself.
    These images and their vile call to action create a vortex of 
despair and viciousness.
    This sinister force is clearly capturing the minds of troubled 
people at a greater rate than ever before.
    There is not a single sure-fire way to stop violence before it 
occurs. But there are steps we can take to reduce future violence.
    Working with industry and law enforcement, we must build a 
comprehensive strategy to detect, monitor, and disrupt on-line fronts 
for terror and violence.
    We must expand outreach to communities and educate them about the 
radicalization process and find ways to help troubled individuals early 
enough to stop attacks.
    We must continue to encourage individuals to say something to law 
enforcement if they see or hear something suspicious.
    Finally, we must encourage State and local law enforcement to 
continue their participation in the FBI's Joint Terrorism Taskforce 
program and State and local Fusion Centers.
    Both initiatives bring State and local law enforcement together 
with Federal law enforcement to share intelligence and leverage 
authorities to counter threats, including domestic terrorism.
    Now is not the time for cities to withdraw from these programs to 
score petty political points.
    I look forward to working with the Chairman and our colleagues on 
the Judiciary Committee on ways to end the scourge of domestic 
terrorism.

    Chairman Thompson. Thank you. Other Members of the 
committee are reminded under the committee rules, opening 
statements may be submitted for the record.
    [The statement of Honorable Jackson Lee follows:]
               Statement of Honorable Sheila Jackson Lee
                              May 8, 2019
    Thank you, Chairman Thompson, for holding today's hearing on 
``Confronting the Rise of Domestic Terrorism in the Homeland.''
    It is a well-known fact that before you can begin to address any 
problem, you must first recognize the symptoms.
    I want to note that only through your leadership on the issue of 
domestic terrorism is this committee holding this hearing today.
    I look forward to the testimony of today's witnesses:
  <bullet> Mr. Brad Wiegmann, deputy assistant attorney general, 
        National Security Division, Department of Justice (DOJ);
  <bullet> Mr. Michael McGarrity, assistant director for 
        counterterrorism, Federal Bureau of Investigation (FBI); and
  <bullet> Mr. Brian Murphy, principal deputy under secretary for 
        intelligence & analysis (I&A), Department of Homeland Security 
        (DHS).
    Despite the escalation in violent attacks over the last two 
Congresses the leadership of this committee refused to acknowledge that 
our Nation had a domestic terrorism problem.
    The problem is further complicated by a President who thinks that 
Neo-Nazis, White Nationalist and White Supremist are fine people.
    And worst he makes an equivalence argument between hate groups and 
protestors opposing hate and racism.
    President Trump has tried to play ``both sides'' with White 
nationalism and domestic terrorism.
    On April 26, 2019, President Trump doubled down on his stance that 
there were ``fine people'' on both sides of the August 2017 Unite the 
Right Rally in Charlottesville, Virginia.
    His unwillingness to denounce and distance himself from these 
extremists has been taken by many as tacit support.
    The President must be willing to stand up to all ideologically-
motivated violence in America.
    Committee Democrats asked the then-Republican Majority for hearings 
on domestic terrorism 8 times since 2011.
    Five requests were outright denied by the Republicans, and 3 
requests went unanswered.
    As a senior Member of the House Committee on Homeland Security and 
Ranking Member of the Judiciary Subcommittee on Crime, Terrorism, and 
Homeland Security this topic has significance due to the number of 
violent acts committed in the United States since November 2011.
    Attacks include:
  <bullet> Wisconsin Sikh temple shooting (2012)
  <bullet> Boston Marathon bombing (2013)
  <bullet> Charleston Church Shooting (2015)
  <bullet> San Bernardino shooting (2015)
  <bullet> Orlando nightclub shooting (2016)
  <bullet> Las Vegas Shooting (2017)
  <bullet> Pittsburgh synagogue shooting (2018)
  <bullet> Austin Bombings (2018)
  <bullet> Poway synagogue shooting (2019)
  <bullet> St. Landry Parish, Louisiana Church Fires that destroyed 
        Mount Pleasant Baptist Church in Opelousas, St. Mary Baptist 
        Church in Port Barre, and Greater Union Baptist Church in 
        Opelousas (March-April 2019).
    According to the Southern Poverty Law Center (SPLC), in the 
immediate aftermath of Election Day, a wave of hate crimes and lesser 
hate incidents swept the country--1,094 bias incidents in the first 34 
days following November 8, 2016.
    SPLC reports that anti-immigrant incidents (315) remain the most 
reported, followed by anti-Black (221), anti-Muslim (112), and anti-
LGBT (109). Anti-Trump incidents numbered 26 (6 of which were also 
anti-White in nature, with 2 non-Trump related anti-White incidents 
reported).
    The purpose of this hearing is to receive testimony from the 
witnesses about efforts to address the threat of domestic terrorism.
    Prior to September 11, 2001, the Federal Government had a wide 
range of law enforcement, National security, and benefits management 
agencies that collected information, but jealously guarded this 
information from other agencies.
    The 9/11 Commission Report allowed an in-depth assessment of the 
failures that led to the horrific terrorist attacks against the United 
States that cost the lives of nearly 3,000 people.
    The House Committee on Homeland Security was created to implement 
the recommendations of the 9/11 Commission Report and ensure that 
resources were provided to support the mission of homeland security.
    The most significant task of the committee was guiding the 
establishment of the Department of Homeland Security and making sure 
that it had all that it would need to carry out its mission.
    I, along with other Members who have served on this committee since 
its inception, made a commitment that a terrorist attack of the 
magnitude that occurred on September 11, 2001 would never happen again.
    An essential component of our ability to keep this commitment was 
the establishment and sustainment of information sharing among Federal 
agencies and extending the network of data collection, retention, and 
sharing with local and State law enforcement partners.
    Issues of domestic terrorism of greatest concern are:
  <bullet> The number of incidents, although small in number, that have 
        involed Government employees or contractors;
  <bullet> The targeting of places of worship;
  <bullet> Politically-motivated attacks or attempted attacks; and
  <bullet> Use of social media for domestic and international hate 
        groups to collaborate and stoke hate.
                  government contractors and employees
    Last year, I offered an amendment during Full Committee Markup of 
H.R. 6374, the ``Fitness Information Transparency Act of 2018'' or the 
``FIT Act,'' after it came to my attention that a National security 
clearance holder was part of a White supremist group and had traveled 
to Charlottesville to participate in violent acts against others.
    On July 6, 2018, by PBS Frontline about Michael Miselis, an active 
member of the California-based Rise Above Movement (RAM), a well-known 
violent White supremacist group.
    Mr. Miselis has a security clearance and worked for Northrup 
Grumman, a major defense contractor, at the time he engaged in physical 
violence against persons protesting racism and White supremacy in 
Charlottesville, Virginia.
    In May 2018, Northrup Grumman was informed of Mr. Miselis 
membership in RAM and the violent assaults he initiated while he was in 
Charlottesville participating in activities in support of White 
supremacy, which were captured on video and in photos.
    Mr. Miselis worked for a Government contractor and held a security 
clearance authorizing him to work on projects that were of vital 
interest to our Nation and its defense.
    Northrup Grumman did not dismiss him until the story broke that Mr. 
Miselis engaged in at the White supremacists' rally held in 
Charlottesville, Virginia.
    The violence of RAM members has been a hallmark of the group and 
its members.
    The Anti-Defamation League describes RAM as a White supremacist 
group whose members believe they are fighting against a ``modern 
world'' corrupted by the ``destructive cultural influences'' of 
liberals, Jews, Muslims, and non-White immigrants.
    For this reason, I offered a Jackson Lee Amendment establishing an 
``Exigent Circumstances Fitness Determination Review'' process for this 
bill.
    The [sic] stated that ``The Chief Security Officer may conduct an 
immediate review of a contractor employee's fitness determination when 
a contractor employee has engaged in violent acts against individuals, 
property, or public spaces based on the contractor employee's 
association with persons or organizations that advocate, threaten, or 
use force or violence, or any other illegal or unconstitutional means, 
in an effort to prevent others from exercising their rights under the 
Constitution or laws of the United States or of any State, based on 
factors including, at a minimum, race, religion, National origin, or 
disability.''
    The United States is a Nation of laws, which gives us the freedom 
to agree and most importantly disagree with not only each other, but 
with our Government.
    But the limitations to the right to disagree can be best described 
by the ancient wisdom: ``Your right to swing your arms ends just where 
the other person's nose begins.''
    There is a limit to the expression of free speech and the freedom 
to assemble and that limit is violence.
    The awarding of security clearances to contractors must be better 
managed and the consequences for involvement in activities that would 
be cause for dismissal from the armed services or any Federal agency 
should not go unnoticed.
    Most recently, a Coast Guard lieutenant was accused of stockpiling 
firearms and drafting a hit list of prominent Democrats and 
journalists.
                            austin bombings
    On March 2, 2018, the first of 7 bombs were detonated in what 
became a terrorizing series of attacks that killed Anthony Stephan 
House, 39, and Draylen Mason, 17.
    We can focus our efforts on a range of topics that impact homeland 
security, but we should not ignore how policies and public acts by 
individuals can contribute to the threat of home-grown terrorists or 
lone wolves as well as contribute to the recruitment efforts of ISIL, 
al-Qaeda, or other terrorist groups.
    There seems to be an implied if not expressed belief that violent 
acts carried out against certain persons living within the United 
States can be carried out without fear of a Justice Department led by 
Jeff Sessions or a White House with senior staff known to hold bias 
views toward minorities, immigrants, and others.
    The United States cannot make more enemies than we are making 
friends--we cannot afford to turn our friends into enemies or absent 
allies when we need them to fight terrorist threats.
    In the last decade, domestic terrorism has become an increasing 
concern in the United States.
    In 2018, domestic extremists killed at least 50 people in the 
United States, a sharp increase from the 37 extremist-related murders 
documented in 2017, though still lower than the totals for 2015 (70) 
and 2016 (72).
    The 50 deaths made 2018 the fourth-deadliest year on record for 
domestic extremist-related killings since 1970.
    According to an analysis by the Washington Post, between 2010 and 
2017, right-wing terrorists committed a third of all acts of domestic 
terrorism in the United States (92 out of 263), more than Islamist 
terrorists (38 out of 263) and left-wing terrorists (34 out of 263) put 
together.
    Recent unpublished FBI data leaked to the Washington Post in early 
March 2019 reveal that there were more domestic terrorism-related 
arrests than international terrorism-related arrests in both fiscal 
year 2017 and fiscal year 2018.
    From 2009 to 2018 there were 427 extremist-related killings in the 
United States. Of those, 73.3 percent were committed by right-wing 
extremists, 23.4 percent by Islamist extremists, and 3.2 percent by 
left-wing extremists.
    In short, 3 out of 4 killings committed by right-wing extremists in 
the United States were committed by White supremacists (313 from 2009 
to 2018).
    The culmination of the 2016 mid-term election was consumed by bombs 
placed in the mail addressed to Democrats.
    The list of incidents continues to grow and this committee cannot 
continue to turn a blind eye.
    I thank the Chairman, and I look forward to the testimony of 
today's witnesses.
    Thank you.

    Chairman Thompson. I now welcome the first panel of 
witnesses and our only panel to this hearing. Without 
objection, the witnesses' full statements will be inserted in 
the record, and let me introduce, for the committee Members, 
our panel.
    Our first witness is Mr. Brad Wiegmann who currently serves 
as deputy assistant attorney general for the National 
Department of Justice. Prior to joining the Department of 
Justice, Mr. Wiegmann has had a career as a Government attorney 
for the past 20 years.
    Our next witness is Mr. Michael McGarrity who currently 
serves as the assistant director of counterterrorism for the 
Federal Bureau of Investigation. Prior to joining the 
Counterterrorism Division, Mr. McGarrity most recently served 
as a special agent in charge of the Criminal Division of the 
New York field office.
    Finally, we are joined by Mr. Brian Murphy who currently 
serves as the principal deputy under secretary for intelligence 
and analysis with the Department of Homeland Security. Prior to 
this selection, Mr. Murphy served as the acting principal 
deputy for intelligence and analysis.
    I thank you gentlemen for agreeing, and I remind each 
witness that you have 5 minutes for your statement.
    Mr. Wiegmann.

 STATEMENT OF BRAD WIEGMANN, DEPUTY ASSISTANT ATTORNEY GENERAL 
       FOR NATIONAL SECURITY, U.S. DEPARTMENT OF JUSTICE

    Mr. Wiegmann. Thank you, Chairman Thompson, Ranking Member 
Rogers, Members of the committee. Thanks for the opportunity to 
testify on behalf of the Department of Justice.
    Protecting the American people from terrorism and other 
National security threats has long been a top priority of the 
Department. Domestic terrorism continues to pose a serious 
threat to the public as the number of recent attacks and plots 
demonstrate. We have seen individuals conduct attacks far too 
many times, whether motivated by anti-Government animus, 
racism, or other ideologies. Regardless of the motivation, our 
goals at DOJ are to prevent such attacks and to bring those 
responsible to justice.
    This morning I would like to give you just a brief overview 
of how the Department of Justice is organized to handle 
domestic terrorism cases and the legal authorities on which we 
rely. On the front lines are our 94 U.S. Attorneys' Offices. 
Each office coordinates a group of Federal, State, and law 
enforcement in the district called the Anti-Terrorism Advisory 
Council or ATAC.
    The ATAC works in close partnership with its corresponding 
FBI Joint Terrorism Task Force. The ATACs promote training and 
information sharing among Federal, State, and local law 
enforcement. Each U.S. Attorney's Office also has designated a 
senior prosecutor to serve as the ATAC coordinator. This 
designee is specially trained and serves as the lead 
counterterrorism prosecutor for the district.
    Many offices have also designated National security 
sections that focus on counterterrorism and other National 
security threats. At main Justice here in Washington, the 
National Security Division was created in 2006 to integrate the 
Department's counterterrorism and other National security work 
Nation-wide. We have a counterterrorism section with more than 
40 attorneys, all of whom are equipped to work on both domestic 
and international terrorism. We also have a counsel for 
domestic terrorism and two domestic terrorism coordinators. NSD 
attorneys are notified and available to provide assistance when 
any domestic terrorism investigation or prosecution is 
initiated.
    In addition, other divisions of the Department play an 
important role. For example, the Civil Rights Division is 
responsible for overseeing the prosecution of hate crimes, some 
of which may also qualify as acts of domestic terrorism.
    Finally, we have the Domestic Terrorism Executive Committee 
which reports to the Attorney General. This committee is not 
operational but provides a National-level forum for information 
sharing on domestic terrorism matters.
    Turning quickly to our legal authorities, we have 
prosecuted domestic terrorists using a wide range of criminal 
statutes. These include weapons and explosive charges, threat, 
hoax, or riot charges, and charges proscribing attacks on 
Federal officials and facilities.
    As I mentioned, hate crimes charges may also be appropriate 
where conduct is motivated by bias against a race, religion, or 
ethnicity. It is also a crime to knowingly provide material 
support or resources in support of certain offenses designated 
as terrorism-related.
    We also work closely with our State and local partners to 
confront domestic terrorism. Some cases don't involve 
violations of Federal law but are prosecuted under State law. 
Other cases may involve violations of both Federal and State 
law, and the State charge may, in some cases, be the most 
effective way to prosecute. In those circumstances, we support 
our State and local partners where we can.
    Now, the criminal code also includes a definition of 
domestic terrorism and the Federal crime of terrorism. These 
definitions provide us with an array of expanded investigative 
tools and sentencing enhancements in domestic terrorism 
matters. For example, judges can issue Nation-wide search 
warrants. Government attorneys have additional authority to 
share Grand Jury information. Congress has also created a 
rebuttable presumption of pretrial detention for offenses that 
are listed as Federal crimes of terrorism, and then the 
sentencing guidelines then provide a significant sentencing 
enhancement for these offenses.
    In my written testimony, I have provided a number of 
examples of recent domestic terrorism cases that we have 
brought. In many of these cases, we work with FBI to arrest and 
charge the individuals before violence occurred. Consistent 
with long-standing Department policy, our practice is always to 
charge and pursue the most serious, readily-provable offense 
available based on the facts of the case.
    It is important to emphasize that we prosecute domestic 
terrorists for their criminal acts, not for their beliefs or 
based on their associations. In fighting domestic terrorism, we 
respect the Constitutional rights of freedom of speech, 
association, and assembly of all Americans. The FBI may not 
investigate solely on the basis of First Amendment protected 
activity.
    With that, I will close, and I appreciate the opportunity 
to discuss these issues today, and I look forward to answering 
your questions.
    [The prepared statement of Mr. Wiegmann follows:]
                  Prepared Statement of Brad Wiegmann
                              May 8, 2019
    Good morning Chairman Thompson, Ranking Member Rogers, and 
distinguished Members of the committee, and thank you for the 
opportunity to testify on behalf of the Department of Justice. 
Protecting the American people from terrorism and other National 
security threats has long been the top priority of the Department. This 
includes protecting against both international and domestic terrorism.
    Domestic terrorism continues to pose a significant threat to the 
public, as a number of recent attacks and plots amply demonstrate. In 
the United States, espousing an extremist ideology is not a crime, nor 
is expressing hateful views or associating with hateful groups. But 
where an individual tries to impose or promote an ideology through acts 
of violence, often on a mass scale, those acts can be among the most 
serious crimes we confront as a society. We have seen individuals 
conduct domestic terror attacks too many times, whether motivated by 
anti-government animus, racism, or other ideologies. At the Department 
of Justice, we are committed to protecting all Americans from such 
attacks, regardless of the motivation. No matter who is behind the 
violence and intimidation, we will use every tool at our disposal to 
deter and disrupt domestic terrorists and bring them to justice.
    The FBI is the lead Federal agency for investigating domestic 
terrorist threats. In my testimony today, I will focus first on how the 
Department of Justice is organized to handle domestic terrorism cases, 
working in close collaboration with the FBI. I will then describe the 
legal authorities we rely on in prosecuting domestic terrorists. Last, 
I will explain how we have used those authorities in some of our recent 
cases.
                                   i.
    On the front lines of our efforts to prosecute domestic terrorism 
as well as international terrorism are our 94 U.S. Attorney's Offices. 
Each U.S. Attorney's Office coordinates a group of Federal, State, and 
local law enforcement in the district, called the Anti-Terrorism 
Advisory Council (``ATAC''). The ATAC works in close partnership with 
its corresponding FBI Joint Terrorism Task Force (``JTTF'') in each FBI 
field office across the country. The ATACs, in conjunction with the 
JTTFs, promote training and information sharing among Federal, State, 
and local law enforcement, as well as private-sector partners, in 
matters relating to terrorism, both international and domestic. This 
training and information sharing is critical because there are many 
more local law enforcement officers on the ground than there are 
Federal agents and they may be the first to come across individuals 
planning terrorist acts within their communities. We thus often have 
Federal, State, and local officials evaluating the same threats, 
including assessing whether Federal or State charges are available to 
disrupt them, with the goal being prevention of terrorist attacks 
before they occur. Each U.S. Attorney's Office has also designated a 
senior prosecutor to serve as the National Security/ATAC Coordinator. 
The National Security/ATAC Coordinator serves as the lead 
counterterrorism prosecutor for the district as well as the primary 
Point of Contact for the Department on terrorism matters. Many U.S. 
Attorneys' Offices have also designated National Security Sections or 
Units within the office that are specifically focused on 
counterterrorism and other National security matters. The National 
Security/ATAC Coordinator and other National security prosecutors in 
the U.S. Attorney's Offices are specially trained in domestic and 
international terrorism matters and work closely with the JTTFs to 
investigate and prosecute terrorism matters.
    At Main Justice here in Washington, the National Security Division 
(``NSD'') was created in 2006 to integrate, coordinate, and advance the 
Department's counterterrorism and other National security work Nation-
wide. The National Security Division has a Counterterrorism Section 
with more than 40 attorneys, all of whom are equipped to work on both 
domestic and international terrorism cases in concert with U.S. 
Attorney's Offices. Those NSD attorneys include a Counsel for Domestic 
Terrorism and two domestic terrorism coordinators who focus on domestic 
terrorism cases. Our National Security Division is closely connected 
with the U.S. Attorney's Offices around the country for purposes of all 
terrorism matters. For example, NSD attorneys are notified and 
available to provide assistance when any domestic terrorism 
investigation or prosecution is initiated and when significant 
developments in those cases occur. They serve as important resources 
and partners in litigating legal issues and can also participate 
actively as co-prosecutors. Domestic terrorism cases share a core of 
practice, including common motions and defenses, which makes these 
attorneys' experience invaluable.
    In addition, other divisions of the Department play an important 
role in countering domestic terrorism. The Civil Rights Division, for 
example, is responsible for overseeing the prosecution of hate crimes, 
some of which may also qualify as acts of domestic terrorism. Anti-
Government extremists who are engaged in domestic terrorism sometimes 
refuse to pay taxes. The Tax Division is responsible for overseeing 
prosecution of tax offenses committed by such individuals.
    Finally, a Domestic Terrorism Executive Committee (DTEC) reports to 
the Attorney General. The DTEC includes representatives of the U.S. 
Attorney's Offices, the National Security Division, other divisions of 
Main Justice, the FBI, DHS, and other law enforcement agencies. The 
DTEC provides a National-level forum for information sharing at the 
leadership level on domestic terrorism matters. Extensive collaboration 
within the Department, the whole Federal Government, and the Nation-
wide law enforcement community is vital to addressing the threat from 
domestic terrorism.
                                  ii.
                                   a.
    The Department of Justice has prosecuted individuals whose conduct 
involves domestic terrorism or a threat thereof using a range of 
criminal statutes. These include weapons charges, e.g., 18 U.S.C.   
922, 924; charges relating to use or possession of explosives, e.g., 26 
U.S.C.   5845, 5861; threat, hoax, or riot charges, e.g., 18 U.S.C.  
 871, 875, 876, 1038, 2101; and charges proscribing attacks on Federal 
officials or facilities, e.g., id.  111, 115, 351, 844, 930, 1114, 
1361, 1751. Hate crimes charges, e.g., id.  249, may be appropriate 
where individuals engage in domestic terrorism that is motivated by 
biases against a race, religion, ethnicity, or other specified factors. 
Arson, id.  844, or specific charges relating to violence against 
animal enterprises, id.  43, may apply to eco-terrorists or animal 
rights terrorists. Moreover, several statutes reach conduct that may be 
associated with terrorism, without regard to whether the offense itself 
involves domestic or international terrorism. These include statutes 
relating to aircraft sabotage, id.  32; weapons of mass destruction, 
e.g., id.   175, 175b, 175c, 229, 831, 832, 2332a, 2332h, 2332i; 
arson and bombing of Federal property, e.g., id.   844, 2332a, 2332f; 
and causing injury or death to a Federal official, e.g. id.   111, 
115, 351, 1114, 1751; among others. And it is a crime to provide 
material support or resources to another knowing or intending that they 
be used in preparation for or carrying out certain terrorism-related 
offenses. Id.  2339A.
    We also work closely with our State and local partners to confront 
domestic terrorism. Some cases of domestic terrorism do not involve 
violations of Federal law, but are prosecuted by State and local 
authorities under State law. Other cases may involve violations of both 
Federal law and State law, and the State charge, in some circumstances, 
may be the most effective way to prosecute an individual. In those 
circumstances, we support our State and local partners where we can.
    It is important to emphasize that we prosecute domestic terrorists 
for their criminal acts, not for their beliefs or based on their 
associations. In fighting domestic terrorism, we respect the 
Constitutional rights of freedom of speech, association, and assembly 
of all Americans. The FBI opens cases on suspected criminal violations, 
not ideologies. The FBI may not investigate solely on the basis of 
First Amendment-protected activity.
                                   b.
    The criminal code also includes a definition of ``domestic 
terrorism'' that enhances our authority in cases involving this 
conduct. The definition covers activities that----
    (A) involve acts dangerous to human life that are a violation of 
        the criminal laws of the United States or of any State;
    (B) appear to be intended----
        (i) to intimidate or coerce a civilian population;
        (ii) to influence the policy of a government by intimidation or 
        coercion; or
        (iii) to affect the conduct of a government by mass 
        destruction, assassination, or kidnapping; and
    (C) occur primarily within the territorial jurisdiction of the 
        United States[.]
18 U.S.C.  2331(5).
    Where incorporated into other authorities, this definition provides 
us with an array of expanded investigative tools and sentencing 
enhancements in domestic terrorism matters:
  <bullet> Judges can issue Nation-wide search warrants in cases 
        involving domestic terrorism, just as they are authorized to do 
        in cases involving international terrorism. Typically, judges 
        can only issue warrants pertaining to their districts. This 
        expanded authority reduces delays and burdens on investigations 
        with regional or national scope. Fed. R. Crim. P. 41(b)(3).
  <bullet> Judges may grant orders giving investigators greater access 
        to certain educational and taxpayer records in domestic and 
        international terrorism investigations. 20 U.S.C.   
        1232g(j)(1)(A), 9573(e); 26 U.S.C.  6103(i)(7)(C).
  <bullet> Investigative and law enforcement officers have additional 
        authority to share intercepted communications and derivative 
        evidence, including with appropriate Federal, State, local, or 
        foreign officials, when disclosing information revealing a 
        threat of terrorism, including domestic terrorism. See 18 
        U.S.C.  2517(8).
  <bullet> Government attorneys also have additional authority to share 
        grand-jury matter, including with those same officials, when 
        disclosing information to prevent or respond to a threat of 
        terrorism, including domestic terrorism. See Fed. R. Crim. P. 
        6(e)(3)(D).
  <bullet> Some statutes, particularly ones relating to conduct that 
        impedes our investigations, carry enhanced statutory maximums 
        if the offense involves or is intended to facilitate domestic 
        or international terrorism. See id.  1001 (material false 
        statements); id.  1505 (obstruction of justice); see also id. 
         1028 (fraudulent identification); cf. id.  226 (including 
        definition within an element of the offense for bribery 
        affecting port security).
    In addition, the criminal code contains a definition of ``Federal 
crime of terrorism,'' which means an offense that ``is calculated to 
influence or affect the conduct of government by intimidation or 
coercion, or to retaliate against government conduct,'' and violates 
one of the enumerated statutes prohibiting terrorism-related offenses, 
such as statutes related to weapons of mass destruction. 18 U.S.C.  
2332b(g)(5). That definition includes domestic as well as international 
terrorism. It enhances our authority with respect to investigations, 
detention, sentencing, and supervised release. Congress has extended 
the statute of limitations, id.  3286, and created a rebuttable 
presumption of pretrial detention for the offenses listed in the 
definition of ``Federal crime of terrorism,'' id.  3142(e)(3). The 
Sentencing Guidelines then provide a significant sentencing enhancement 
for offenses that involve, or are intended to promote, a ``Federal 
crime of terrorism''--often increasing the guideline range to the 
statutory maximum. See USSG  3A1.4. The Sentencing Guidelines also 
provide for a similar upward departure for other offenses that were 
calculated to influence or affect the conduct of government by 
intimidation or coercion, to retaliate against government conduct, or 
to intimidate or coerce a civilian population. See id. cmt. n.4. 
Further, once a sentence has been served, Congress has authorized 
lifetime supervised release for the offenses listed in the definition 
of ``Federal crime of terrorism,'' see 18 U.S.C.  3583(j), which helps 
to prevent recidivism.
                                  iii.
    As noted above, the Department's goal is to stop terrorist attacks 
before they occur, and to bring the perpetrators of such attacks to 
justice. While we do not always succeed in preventing attacks, we will 
use whatever legal authorities are available in support of this 
objective.
    Our U.S. Attorney's Offices and National Security Division have 
worked together in recent cases to bring charges under a variety of 
terrorism-related statutes, including ones prohibiting weapons of mass 
destruction. In several, we have disrupted, prosecuted, and convicted 
domestic terrorists before violence occurred:
  <bullet> David Ansberry was arrested in October 2016 after placing an 
        improvised explosive device (IED) in the parking lot of the 
        Nederland, Colorado Police Department, believing that law 
        enforcement had murdered a member of a 1960's-1970's 
        counterculture group of which he had also been a member. He was 
        indicted for use and attempted use of a weapon of mass 
        destruction, in violation of 18 U.S.C.  2332a. Ansberry 
        pleaded guilty and, in January 2019, was sentenced to 27 years.
  <bullet> Jerry Varnell was arrested in August 2017 after trying to 
        detonate an inoperable Vehicle-Borne Explosive Device at the 
        BancFirst building in downtown Oklahoma City to send an anti-
        government message. He was indicted for attempting to use a 
        weapon of mass destruction, in violation of 18 U.S.C.  2332a, 
        and attempting to destroy by fire or explosive a property used 
        in interstate commerce, in violation of 18 U.S.C.  844(i). 
        Varnell was convicted on both counts in February 2019.
  <bullet> Cesar Sayoc was arrested in October 2018 for mailing 16 IEDs 
        to 13 victims throughout the United States, including 
        Democratic politicians and a media outlet. He was charged in 
        the Southern District of New York with use of a weapon of mass 
        destruction, in violation of 18 U.S.C.  2332a; interstate 
        transportation of explosives, in violation of 18 U.S.C.  
        844(d); threatening interstate communications, in violation of 
        18 U.S.C.  875(c); illegal mailing of explosives, in violation 
        of 18 U.S.C.  1716(j)(2); and use of explosives to commit a 
        felony, in violation of 18 U.S.C.  844(h). Sayoc pleaded 
        guilty in March 2019.
    We continue to work on pending domestic terrorism cases as well:
  <bullet> William Allen was arrested in October 2018 for allegedly 
        sending threatening letters to the President, Secretary of 
        Defense, director of the CIA, director of the FBI, Secretary of 
        the Air Force, and chief of Naval Operations. He was indicted 
        in Utah for threatening to use a biological toxin, ricin, as a 
        weapon, in violation of 18 U.S.C.  175(a); mailing a threat 
        against the President, in violation of 18 U.S.C.  871(a), and 
        mailing threatening communications to an officer or an employee 
        of the United States, in violation of 18 U.S.C.  876(c).
  <bullet> In late 2018, Robert Rundo, Robert Boman, Tyler Laube, and 
        Aaron Eason were indicted in the Central District of California 
        for rioting, in violation of 18 U.S.C.  2101, and conspiring 
        to riot, in violation of 18 U.S.C.  371. Benjamin Daley, 
        Thomas Gillen, Michael Miselis, and Cole White were indicted in 
        the Western District of Virginia in connection with the same 
        conduct. They are purported members of the White supremacist 
        group Rise Above Movement, and are alleged to have assaulted 
        multiple people at political rallies, including at the Unite 
        the Right rally in Charlottesville, Virginia. Some have pleaded 
        guilty.
  <bullet> Joseph Dibee, an alleged environmental extremist and member 
        of a group known as ``The Family,'' was indicted in 2006, along 
        with 12 co-conspirators in California, Oregon, and Washington. 
        ``The Family'' has been linked to over 40 criminal acts and $45 
        million in property damage. Dibee was charged with arson, 
        conspiracy to commit arson, conspiracy to destroy an energy 
        facility, and other offenses, in violation of 18 U.S.C.   
        371, 844(f), (i), (n), 924(c), and 1366. He was returned from 
        Cuba to the United States in August 2018, and his trial is set 
        for October 2019.
    In addition, the Department's Civil Rights Division has worked with 
U.S. Attorney's Offices and the National Security Division to pursue 
domestic terrorism cases involving hate crimes or violations of civil 
rights statutes. In 2016, Curtis Allen, Patrick Stein, and Gavin Wright 
were arrested for plotting to attack an apartment complex and mosque 
used by Somali immigrants in Kansas. Last year, they were convicted of 
conspiracy to use a weapon of mass destruction, in violation of 18 
U.S.C.  2332a--a terrorism-related offense--as well as conspiracy to 
violate the housing rights of their victims, in violation of 18 U.S.C. 
 241. They received sentences between 25 and 30 years.
    The Civil Rights Division has led other domestic terrorism cases 
involving civil rights charges too, including some of the most serious 
attacks in recent years:
  <bullet> In June 2015, Dylann Roof killed 9 African-American 
        parishioners engaged in religious worship and Bible study at 
        Emmanuel African Methodist Episcopal Church in Charleston, 
        South Carolina. In December 2016, he was convicted of 33 counts 
        of Federal hate crimes, civil rights, and firearms charges, 
        including 9 capital counts of obstruction of exercise of 
        religion resulting in death, in violation of 18 U.S.C.  247, 
        and 9 capital counts of use of a firearm to commit murder 
        during and in relation to a Federal crime of violence, in 
        violation of 18 U.S.C.  924. In January 2017, the jury 
        sentenced Roof to death on all 18 capital counts. The sentence 
        of death has been imposed by the court but not yet carried out.
  <bullet> In August 2017, James Fields Jr. intentionally drove a car 
        into a diverse crowd of counter-protestors at the Unite the 
        Right rally in Charlottesville, Virginia, killing 1 woman and 
        injuring dozens. In March 2019, he pleaded guilty to 1 count of 
        a hate crime act that resulted in death and 28 other hate 
        crimes charges, all in violation of 18 U.S.C.  249. He has not 
        yet been sentenced, but each of the 29 counts carries a maximum 
        sentence of life imprisonment.
  <bullet> In October 2018, Robert Bowers killed 11 Jewish congregants 
        gathered to engage in religious worship at the Tree of Life 
        Synagogue in Pittsburgh, Pennsylvania, according to the 
        indictment. Bowers has been indicted with 63 counts of hate 
        crimes and firearm offenses, including 11 counts of obstruction 
        of free exercise of religious beliefs resulting in death, in 
        violation of 18 U.S.C.  247, and 11 counts of use and 
        discharge of a firearm to commit murder during and in relation 
        to a crime of violence, in violation of 18 U.S.C.  924.
    The Department also supports efforts to prosecute domestic 
terrorists under State and local laws. For example, in 2013, the 
Department secured the first conviction under the District of 
Columbia's Anti-Terrorism Act. Floyd Corkins was charged for an 
attempted shooting at the Family Research Council. He was motivated 
based on disagreement with the organization's stance against gay 
marriage. He was sentenced to 25 years. Our State and local partners 
have been successful in prosecuting domestic terrorism cases too. For 
example, in January 2019, James Jackson pleaded guilty to New York 
State offenses of murder, terrorism, hate crimes, and weapons offenses 
relating to a racially-motivated stabbing of an African-American man. 
In February, he was sentenced to life in prison.
    Some domestic terrorists never get prosecuted because they die in 
the course of their attack. In July 2016, Micah Johnson killed 5 police 
officers in Dallas, Texas, out of racial animus in the deadliest 
incident for U.S. law enforcement since 9/11. Later that month, Gavin 
Long shot 6 police officers in Baton Rouge, Louisiana, killing 3. In 
June 2017, James Hodgkinson wounded 4 people at a Congressional 
baseball practice, including House Majority Whip Steve Scalise. The 
perpetrators died in those cases, but the Department's role continued. 
When domestic terrorists are killed during their attacks, the 
Department's Main Justice divisions and U.S. Attorney's Offices will 
assist the FBI and other law enforcement to run down possible leads, 
including any domestic conspirators or copycats.
    In recent weeks, we have been seeing a disturbing trend, set off by 
the mass shooting in Christchurch, New Zealand, in which religiously 
motivated or racially-motivated violent extremists seek to outdo one 
another by targeting innocent people, purportedly inspired by or 
retaliating for prior attacks. The tragic attack at the Chabad of Poway 
synagogue and the planned bombing in Southern California are two 
examples. The Department's Main Justice Divisions and U.S. Attorney's 
Offices have been assisting the FBI and local law enforcement with 
those cases and will continue to do so. Domestic terrorismcases are top 
priorities.
    The Department is committed to using every tool, and working with 
every partner, to fight domestic terrorism. I appreciate the 
opportunity to discuss these issues with you, and I would be pleased to 
answer your questions.

    Chairman Thompson. Thank you very much.
    The Chair now recognizes Mr. McGarrity.

STATEMENT OF MICHAEL C. MC GARRITY, ASSISTANT DIRECTOR FOR THE 
  COUNTERTERRORISM DIVISION, FEDERAL BUREAU OF INVESTIGATION, 
                   U.S. DEPARTMENT OF JUSTICE

    Mr. McGarrity. Good morning, Chairman Thompson, Ranking 
Member Rogers, and Members of the committee. Thank you for the 
opportunity to appear before you today.
    As Chairman Thompson mentioned earlier, my name is Mike 
McGarrity. I am the assistant director of the FBI's 
Counterterrorism Division. I have the unique honor and 
privilege to represent all the men and women that work 
counterterrorism with the FBI on our Joint Terrorism Task 
Forces around the Nation. I will be providing an overview of 
the FBI's efforts to counter domestic terrorism by explaining 
what we do and how we do it.
    The FBI is the lead Federal agency for investigating 
terrorism. The FBI categorizes terrorism investigations into 
two main categories, international terrorism, and domestic 
terrorism. International terrorism includes members of 
designated foreign terrorist organizations, FTOs, state 
sponsors of terrorism, and home-grown violent extremists or 
HVEs.
    Domestic terrorists are individuals who commit violent 
criminal acts in furtherance of ideological goals, stemming 
from domestic influences such as racial bias and anti-
Government sentiment. Despite the many similarities, the FBI 
distinguishes domestic terrorism extremists from home-grown 
violent extremists in that the latter are global Jihad-inspired 
while domestic terrorists' inspiration emanates from domestic 
influences like racial bias or anti-authority.
    The FBI organizes domestic terrorism into four categories. 
First, racially-motivated violent extremism is defined by the 
FBI as threats derived from bias related to race held by the 
actor against others. These threats are often directed at 
religious or racial minorities. Anti-government, anti-authority 
extremism is defined as threats advocating for ideology 
contrary to established government systems such as anarchistic 
extremism, militia extremism, and sovereign citizen extremism.
    Third, animal rights and environmental extremism is defined 
as threats derived from a belief that criminal actions are 
necessary to end cruelty and exploitation of animals and the 
environment. The fourth, abortion extremism is defined as 
threats derived from both pro-life and pro-choice individuals 
who seek to advance their social and political agenda wholly or 
in part through the force of violence or in violation of 
Federal law.
    While domestic terrorism activity may fall outside of these 
four categories, the vast majority of our investigations can be 
characterized as one of the above. Domestic terrorism, as 
previously stated, is defined by Federal statute 18 USC 2331, 
Section 5. It is important to note that no investigation can be 
open based solely on First Amendment-protected activity. This 
includes hateful rhetoric and participation in rallies and 
protests.
    The FBI assesses domestic terrorists collectively posing 
persistent and evolving threat of violence and economic harm to 
the United States. In fact, there have been more arrests and 
deaths in the United States caused by domestic terrorists than 
international terrorists in recent years. Individuals 
affiliated with racially-motivated violent extremism are 
responsible for the most lethal and violent activity.
    Racially-motivated violent extremists are responsible for 
the majority of lethal attacks and fatalities perpetrated by 
domestic terrorists since 2000. Tactics and trends within 
individual movements continue to evolve, but most drivers for 
domestic terrorists remain constant. These include perceptions 
of Government or law enforcement overreach, racial tensions, 
socio-political conditions, and reactions to legislation.
    Radicalization of domestic terrorists primarily occurs 
through self-radicalization on-line which can sometimes present 
mitigation difficulties for law enforcement to identify, 
detect, and disrupt. The internet and social media enables 
individuals to engage other domestic terrorists without face-
to-face meetings.
    We have seen devastating attacks committed by domestic 
terrorists in recent months, most recently, the shootings in 
the synagogue in California, and the synagogue in Pennsylvania. 
In 2018, domestic violence extremists conducted 6 lethal 
attacks, killing 17 victims. In 2017, domestic violent 
extremists conducted 5 lethal attacks, killing 8 victims.
    Central to our effort to combat terror attacks is the Joint 
Terrorism Task Force model. We work hand-in-hand with Federal, 
State, and local agencies to effectively combat the threat. In 
fact, 50 percent of our domestic terrorism investigations are 
open based upon information received from either the public or 
from referrals from our partners on the Federal, State, and 
local side.
    Despite successes that result from the hard work of men and 
women of the FBI, our JTTFs and our partners across the 
Government, domestic terrorism continues to pose a persistent 
threat to the homeland. We currently have 850 predicated 
domestic terrorism investigations. As we just saw a few weeks 
ago in California, the threat of domestic terrorism exists in 
every region of the United States and affects all walks of 
life.
    Our commitment to you and to our fellow citizens is that we 
will continue to confront the threat posed by domestic 
terrorists with determination and dedication to our mission to 
protect the American people and uphold the constitution of the 
United States.
    Thank you again for the opportunity to appear before you 
today. The men and women of the FBI are grateful for the 
support that you have provided us and continue to provide. I 
look forward to answering any questions you might have.
    Thank you.
    [The prepared statement of Mr. McGarrity follows:]
               Prepared Statement of Michael C. McGarrity
                              May 8, 2019
    Good morning, Chairman Thompson, Ranking Member Rogers, and Members 
of the committee. Thank you for the opportunity to appear before you 
today. I welcome the opportunity to discuss the FBI's efforts to combat 
the threat posed by domestic terrorism. While the threat posed by 
terrorism has evolved significantly since 9/11, preventing terrorist 
attacks from foreign and domestic actors remains the FBI's top 
priority. We face persistent threats to the homeland and to United 
States interests abroad from foreign terrorist organizations (``FTO''), 
home-grown violent extremists (``HVE''), and domestic terrorists, also 
referred to as domestic violent extremists. The threat posed to the 
United States has expanded from sophisticated, externally-directed 
plots to include individual attacks carried out by HVEs, who are 
inspired by FTOs to take action within the United States. We now see 
similar insular, self-radicalized actors in the domestic terrorism 
realm.
    The FBI categorizes terrorism investigations into two main 
programs: International terrorism and domestic terrorism. International 
terrorism includes cases in which subjects are members of designated 
FTOs, state sponsors of terrorism, and HVEs. The latter are individuals 
inside the United States who frequently are inspired by what we refer 
to as global jihad, who have been radicalized primarily in the United 
States, and who are not receiving individualized direction from FTOs. 
Domestic terrorists are individuals who commit violent criminal acts in 
furtherance of ideological goals stemming from domestic influences, 
such as racial bias and anti-government sentiment.
    Our operational tempo has risen significantly in the last few years 
and has remained high. Still, we, along with our law enforcement 
partners, face significant challenges in identifying and disrupting 
HVEs and domestic terrorists who seek to perform terrorist attacks 
within the United States. This is due, in part, to the ease of on-line 
self-radicalization to violence and the corresponding lack of direct 
connections between unknown radicalized violent extremists and known 
terrorists or FTOs, which shortens the window of opportunity for our 
investigative teams to identify and disrupt an individual before that 
individual decides to act.
    Domestic terrorism is defined by statute as any act dangerous to 
human life that violates U.S. criminal laws and appears to be intended 
to intimidate or coerce a civilian population, influence the policy of 
a government by intimidation or coercion, or affect the conduct of a 
government by mass destruction, assassination, or kidnapping. The act 
in question must occur primarily within the jurisdiction of the United 
States. We believe domestic terrorists pose a present and persistent 
threat of violence and economic harm to the United States; in fact, 
there have been more arrests and deaths caused by domestic terrorists 
than international terrorists in recent years. We are most concerned 
about lone offenders, primarily using firearms, as these lone offenders 
represent the dominant trend for lethal domestic terrorists. 
Frequently, these individuals act without a clear group affiliation or 
guidance, making them challenging to identify, investigate, and 
disrupt.
    The FBI classifies domestic terrorism threats into four main 
categories: Racially Motivated Violent Extremism; Anti-Government/Anti-
Authority Extremism; Animal Rights/Environmental Extremism; and 
Abortion Extremism. The drivers of these domestic violent extremists 
include perceptions of government or law enforcement overreach, socio-
political conditions, and reactions to legislative actions, and they 
remain constant. Although domestic terrorism activity may fall outside 
of these four categories, the vast majority of our investigations can 
be characterized as one of the above. We anticipate racial minorities, 
the U.S. Government, and law enforcement will continue to be 
significant targets for many domestic terrorists. Domestic terrorists 
have targeted law enforcement officers both proactively and directly as 
primary targets, as well as reactively, within the context of routine 
duties or other law enforcement encounters. Individuals adhering to 
Racially Motivated Violent Extremism ideology have been responsible for 
the most lethal incidents, however, and the FBI assesses the threat of 
violence and lethality posed by Racially Motivated Violent Extremists 
will continue.
    Radicalization to violence of domestic terrorists is increasingly 
taking place on-line, where violent extremists can use social media for 
the distribution of propaganda, recruitment, target selection, and 
incitement to violence. Through the internet, violent extremists around 
the world have access to our local communities to target and recruit 
and spread their messages of hate on a global scale, as we saw in the 
recent attack in Christchurch, New Zealand. In recent years, we 
increasingly have seen domestic terrorists communicating with like-
minded individuals overseas and the domestic terrorists traveling to 
meet with these individuals. The increasingly global nature of the 
threat has enabled violent extremists to engage other like-minded 
individuals without having to join organized groups. We are working 
with our foreign partners to investigate subjects in their countries 
who may be radicalizing Americans to take violent action inside this 
country.
    In line with our mission to protect the American people and uphold 
the Constitution of the United States, no FBI investigation can be 
opened solely on the basis of First Amendment-protected activity. Thus, 
the FBI does not investigate mere association with groups or movements. 
In order to predicate a domestic terrorism investigation of an 
individual, the FBI must have information that the individual is 
perpetuating violent, criminal actions in furtherance of an ideology.
    As the threat to harm the United States and United States' 
interests evolves, we must adapt to and confront these challenges, 
relying heavily on the strength of our Federal, State, local, Tribal, 
territorial, and international partnerships. Along with our domestic 
and foreign partners, we constantly collect and analyze intelligence 
concerning the on-going threats posed by FTOs, HVEs, and domestic 
terrorists. We also continue to emphasize the importance of information 
sharing with Federal, State, local, Tribal, and territorial agencies 
assigned to our Joint Terrorism Task Forces around the country, and 
with our military and international partners.
    Chairman Thompson, Ranking Member Rogers, and Members of the 
committee, thank you for the opportunity to testify concerning the 
evolving terrorism threat to the homeland. Be assured the FBI continues 
to strive to work and share information more efficiently, and to 
utilize all lawful investigative techniques and methods to combat these 
terrorist threats to the United States. We are grateful for the support 
that you and this committee have provided to the FBI. I look forward to 
answering any questions you might have on this topic.

    Chairman Thompson. Thank you very much.
    The Chair now recognizes for 5 minutes Mr. Murphy.

STATEMENT OF BRIAN MURPHY, PRINCIPAL DEPUTY UNDER SECRETARY FOR 
  THE OFFICE OF INTELLIGENCE AND ANALYSIS, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Murphy. Thank you, Chairman Thompson, Ranking Member 
Rogers, and Members of the committee, thank you for the 
opportunity to present to you today the DHS intelligence 
enterprise efforts to ensure that all forms of violence, that 
are threats to the Homeland Security, are being addressed.
    I can assure the committee and the American public that 
throughout the careful calculus of balancing resources and 
adapting to an ever-changing threat landscape, DHS remains 
acutely focused on the threat from domestic terrorism.
    Domestic terrorism threat to the homeland may come from a 
diverse range of movements. As you have heard from my FBI 
colleagues, and as described before, the lone actors from those 
movements subscribing to these ideologies pose the greatest 
threat to the homeland due to their ability, in many instances, 
to remain undetected by law enforcement and to operational and 
their general willingness to attack soft targets with simple 
weapons.
    The DHS intelligence enterprise constantly evaluates how to 
improve our ability to provide information and intelligence to 
a wide array of partners as fast as we can, and I compliment 
the U.S. Government efforts to combat all threats to the 
homeland, ensuring at the same time that our finite resources 
are best aligned and not being applied in a manner that 
duplicates the efforts of our partners.
    To that end, in 2018, the Department established mission 
centers to drive the integration of intelligence across the DHS 
enterprise and look at threat streams as they come at us, and 
this includes counterterrorism.
    My testimony today will outline the holistic and agile 
manner in which we continue to apply resources against the 
serious threat of domestic terrorism while avoiding unnecessary 
duplications.
    The importance of an integrated and collaborative approach 
cannot be understated in today's CT environment as we enter the 
post-September 11 era, and CT investments across the Government 
are being reconsidered, and in some cases, reallocated against 
developing threat streams such as foreign influence, 
cybersecurity, and transnational organized crime.
    Of note, CT practitioners across the Government recognize 
that the threat from CT is not going away. The ability to 
execute this demanding mission remains the same, and the future 
of CT efforts are based on efficient interagency modelling.
    Historically, as noted by the FBI and the Department of 
Justice, the FBI has been well-positioned to produce 
intelligence on domestic terrorism and hate crimes. They lead 
for the U.S. Government domestic terrorism and hate crimes 
investigations, and the FBI owns a preponderance of the 
information and resources to support these investigations and 
analysis.
    For that reason, DHS domestic terrorism-related 
intelligence production was sometimes used as duplicative as we 
relied on the data from our colleagues. We have now 
transitioned to a more active intelligence phase and are 
producing more original and unique reporting. As part of our 
establishment of mission centers, we now have a 24/7 open-
source collection team which was established to identify 
potential threats to intelligence.
    Due to this shift, the DHS intelligence enterprise 
increased open-source collection and reporting on domestic 
terrorism. As a result, our increase in production has risen by 
40 percent on this issue since last fiscal year. We have done 
this and still kept our finished intelligence products 
consistent since 2014.
    Overall, I believe fiscal year 2018 represents the highest 
level of production ever achieved by the Department in the 
domestic terrorism context. Additionally, the number of 
personnel assigned and supporting the domestic terrorism 
portfolio has substantially increased. For example, we maintain 
a robust presence in the field that engage with all our State 
and local partners. They are forward deployed at fusion centers 
and among our police colleagues and work on JTTFs throughout 
the country.
    Additionally, through the Homeland Security Information 
Exchange, or as I will call HSIN-Intel, we enable the sharing 
of products and information between all levels of government. 
HSIN-Intel is utilized by over 4,000 professionals across the 
country and includes over 40,000 products on a range of 
Homeland Security threat issues, and that includes domestic 
terrorism.
    Since 2016, we have increased that number of products by 
approximately 64 percent of the number of products shared. We 
measure the effectiveness of these products. In fiscal years 
2017 and 2018, we saw a 325 percent increase in terms of how 
these products and how often they are being viewed. 
Additionally, feedback from the products we post receive above 
90 percent in terms of how they are viewed in their usefulness 
to our partners.
    Last, we have recently announced internal to our internal 
intelligence enterprise to realign our efforts, and we are 
introducing a new program to enhance reporting of tips and 
leads to partnerships with our colleagues here regarding 
potential mass shooting casualty events, links to terrorism, 
and other incidents.
    Last, I appreciate the opportunity to appear before you 
today and represent the men and women of DHS pending your 
questions. Thank you.
    [The prepared statement of Mr. Murphy follows:]
                   Prepared Statement of Brian Murphy
    Chairman Thompson, Ranking Member Rogers, Members of the committee, 
thank you for the opportunity to present to you the U.S. Department of 
Homeland Security (DHS) Intelligence Enterprise efforts to ensure that 
all forms of violence that are a threat to homeland security are being 
addressed regardless of ideological motivation. I am pleased to be here 
today with my colleague, Mr. Michael McGarrity, assistant director for 
counterterrorism from the Federal Bureau of Investigation (FBI), to 
discuss our coordinated efforts to combat the threat from domestic 
terrorism. Alongside its interagency partners, DHS remains committed to 
preventing all forms of terrorism, both international and domestic, as 
well as preventing acts of targeted violence that threaten homeland 
security.
    Before detailing our efforts against the threat, I would like to 
begin by responding directly to recent inaccurate press reporting that 
DHS has dramatically reduced its efforts on domestic terrorism.
    I can assure the committee and the American public that throughout 
the careful calculus of balancing resources and adapting to an ever-
changing threat landscape, DHS remains acutely focused on the threat 
from domestic terrorism.
    The domestic terrorism threat to the homeland may come from a 
diverse range of movements--including, but not limited to, racially 
motivated extremism, militia extremism, anarchist extremism, sovereign 
citizen extremism, environmental and animal rights extremism, anti-
abortion extremism, and anti-government extremism. Lone actors 
subscribing to these ideologies pose the greatest threat to the 
homeland due to their ability, in many instances, to remain undetected 
by law enforcement until operational and their general willingness to 
attack soft targets with simple weapons, as in the October 2018 White 
supremacist extremist shooting at a Pittsburgh, Pennsylvania synagogue 
and the most recent synagogue attack in Poway, California.
    The DHS Intelligence Enterprise constantly evaluates how to improve 
our ability to provide information and intelligence to a wide array of 
partners that compliment U.S. Government (USG) efforts to combat all 
threats to the homeland, ensuring that our finite resources are best 
aligned and not being applied in a manner that duplicates the efforts 
of our partners. To that end, in 2018 the Department established 
Mission Centers to drive the integration of intelligence across align 
to threat streams affecting the homeland--including counterterrorism 
(CT).
    My testimony today will outline the holistic and agile manner in 
which we continue to apply resources against the serious threat of 
domestic terrorism while avoiding unnecessary duplication.
    The importance of an integrated and collaborative approach cannot 
be understated in today's CT environment as post-September 11 CT 
investments across the USG are being re-considered and in some cases 
re-allocated against developing threat streams such as foreign 
influence, cybersecurity, and transnational crime. Of note, CT 
practitioners across the Government recognize that the CT threat is not 
going away, as much as the other threat streams are gaining pace. The 
ability to execute the demanding CT mission of the future will be based 
on efficient interagency/departmental models more so than new 
resources.
    Historically, the FBI has been well-positioned to produce 
intelligence on domestic terrorism. As the USG lead for domestic 
terrorism investigations, the FBI owns the preponderance of domestic 
terrorism information and had the requisite resources to support 
analyzing that data. For that reason, DHS domestic terrorism related 
intelligence production was sometimes viewed as duplicative as we 
relied on that data for our analysis.
    DHS decided that it should pivot to reporting on domestic terrorism 
to better support the National Strategy for Counterterrorism, enable 
DHS to more effectively coordinate our resources and capabilities, and 
better serve the needs of States and local communities that rely on the 
rapid production of information to combat this threat. The change in 
approach was also coordinated with a wide range of interagency and 
State and local law enforcement partners.
    DHS and the FBI have improved collaborative efforts, increased our 
effectiveness, and even increased in several instances, the resources 
DHS utilizes to produce effective intelligence that anticipates threats 
in the pursuit of preventing these types of attacks on the American 
people. Specifically, we have significantly increased our open-source 
collection against domestic violent extremist groups. We have also been 
working with our partners in the FBI to provide context on the domestic 
terrorism threat with particular attention to tactics and techniques 
domestic violent extremists utilize to conduct their attacks. For 
example, in the wake of the horrific shootings in San Diego we 
supported the DHS Office for Civil Rights/Civil Liberties on an 
unclassified conference call with members of the faith-based community 
Nation-wide to provide them information and context on the threats to 
religious facilities and best practices for securing their facilities.
    The DHS Intelligence Enterprise recognizes the importance of 
executing its mission against domestic terrorism and has allocated 
resources appropriately to lead and support efforts against this threat 
stream. In order to meet the CT requirements of today and tomorrow, the 
Department's Counterterrorism Mission Center (CTMC) uses a plan based 
upon interagency relationships, personnel deployments, and de-
confliction. To that end, the CTMC has, or plans to deploy personnel to 
the National Counterterrorism Center, the FBI, and the DHS components 
within the DHS Intelligence Enterprise with CT equities to better meet 
customer requirements.
    As noted, the Office of Intelligence and Analysis (I&A) previously 
produced domestic terrorism analytic intelligence products primarily 
based off information from other agencies for consumption by our State 
and local partners. While I&A still facilitates information sharing 
with those partners, we have focused on continued collaboration with 
the FBI and other CT partners at the Federal level on these finished 
intelligence products. Additionally, we have now transitioned to a more 
active intelligence phase and are producing more original and unique 
reporting. As part of the establishment of Mission Centers, a 24/7 
open-source collection team was established to identify potential 
threat intelligence. Due to this shift, the DHS Intelligence Enterprise 
has increased open source collection and reporting on domestic 
terrorism. As a result, I&A has produced over 250 analytic and tactical 
intelligence products related to domestic terrorism last fiscal year 
and is on pace for similar production this fiscal year.
    In addition to this enhanced open-source collection effort, we 
maintain a robust presence in the field that engages with our State, 
local, Tribal, territorial, and private sector (SLTTP) partners and 
continues to expand reporting on domestic terrorism. The DHS 
Intelligence Enterprise executes this mission through its Field 
Operations Division (FOD), which is comprised of over a hundred 
intelligence operations specialists forward deployed to State and major 
urban area fusion centers and other strategic locations Nation-wide. 
Through continued engagement and integration with SLTTP partners in the 
field, FOD personnel work tirelessly to execute the intelligence cycle 
at the local level. This effort includes conducting intelligence 
collection and reporting, strategic intelligence analysis, and 
intelligence dissemination in an effort to further strengthen local 
information sharing.
    We are actively engaged with partners throughout the public and 
private sectors.
    Through the Homeland Security Information Network--Intelligence 
(HSIN-Intel), I&A enables the sharing of products and information 
between all levels of government. HSIN-Intel is utilized by over 4,000 
professionals across the country, and includes over 40,000 products on 
a range of homeland security threats to include domestic terrorism.
    In addition, we have recently announced plans to utilize existing 
resources to develop a National Threat Evaluation and Reporting (NTER) 
program to enhance the reporting of tips and leads associated with 
potential mass casualty events linked to terrorism and mass casualty 
incidents involving targeted violence threatening homeland security in 
the United States. The effort advances our partners' abilities to 
identify, evaluate, and report certain violent behaviors, and builds on 
the success of the Nation-wide Suspicious Activity Reporting Initiative 
(NSI). As currently envisioned, the NTER Program will train partners to 
identify and evaluate homeland security threats where victims in mass 
casualty events are chosen because of their race, religion, or 
ethnicity. We believe NTER could prove a valuable tool for our partners 
across both the public and private sectors in preventing domestic 
terrorism.
    CTMC also plays an integral role in terrorism prevention efforts 
across DHS, and will expand upon current opportunities with the newly-
established Office for Targeted Violence and Terrorism Prevention in 
the DHS Office of Strategy, Policy, and Plans. Information requirements 
from the DHS prevention office routinely are ingested directly by CTMC, 
which serves as the conduit to produce and/or procure and provide 
requested information. DHS intelligence recently assigned a liaison 
officer to the Office of Strategy, Policy, and Plans to enhance the 
identification of DHS and interagency intelligence information 
necessary to inform policy, including on domestic terrorism.
    The DHS Office for Civil Rights and Civil Liberties (CRCL) leads 
the execution of Incident Community Coordination Team (ICCT) National 
calls in response to incidents of National significance. The focus is 
to provide information about available Federal resources including 
infrastructure protection, non-profit security grant programs, active-
shooter training, and mechanisms to communicate and coordinate with the 
appropriate Federal agencies. These calls are open to stakeholder 
organizations and agencies nationally, includes Federal, State, and 
local partners, as well as faith-based community partners. CRCL has 
recently activated ICCT calls following the attack on the Tree of Life 
Synagogue in Pittsburgh, PA, the attacks on Mosques in Christchurch, 
New Zealand, and the attacks in Sri Lanka.
    Through the Department's Cybersecurity and Infrastructure Security 
Agency (CISA), participants on these calls receive information on risk 
mitigation solutions that are available to address a wide range of 
attack methods. CISA Protective Security Advisors also engage directly 
with owners and operators of facilities, including places of worship, 
schools, commercial facilities, and others to conduct vulnerability 
assessments and support the enhancement of security procedures to 
better position facilities to mitigate the impacts of an attack, or 
prevent them altogether.
    I would like to conclude by again assuring the committee that DHS 
remains focused on protecting the American people against the threat 
from domestic terrorism and violence in all forms. I am proud of the 
work that is performed by DHS intelligence professionals in this space, 
and the contribution we make every day to the difficult work our 
Federal, State, local, Tribal, and territorial partners perform in 
combatting this threat. Thank you for your time, and I look forward to 
our discussion on this critical topic.

    Chairman Thompson. Thank you very much.
    I thank the witnesses for their testimony. I remind each 
Member that he or she will have 5 minutes to question the 
panel. I now recognize myself for questions.
    One of the reasons for having this hearing is since 2005, 
we have not had the production of domestic terrorism data 
available, not just to this committee but to the public. So 
what we are trying to do is get from an informational 
standpoint what is out here. From what I have heard from the 
witnesses today, it has been very good in terms of what you 
know.
    One of the things I want to do as a takeaway from this 
hearing, as I indicated in my opening statement, is to make 
sure that if it is a resource issue for the Department that you 
can't produce this information, then we need to make those 
resources--and I am talking to Mr. McGarrity in terms of the 
FBI providing that data because for Members of this committee, 
we need to understand what the threat is, if it is changing, 
and those kind of things. So I thank you for that information.
    One of the more looming comments you made is that there is 
some 850 investigations under way. You know, that tells me you 
are doing your job. But as important in the history of this 
committee is we have always had access to this information, 
some of it in a Classified setting for over 10 years, and the 
Department now has pulled back on that. I am indicating that we 
would still like to have the briefings on a monthly basis from 
the Department on these and any other areas that you think 
might be beneficial to us, but not to have this information 
doesn't allow us the full breadth of what we need.
    Some of the Members have been on the committee and have 
participated in the briefings, and they have been very helpful, 
and so we are going to renew that effort to try to get you to 
the briefings to share that information with the committee.
    Now, the last briefing we did have, we asked for certain 
information. It was over 5 weeks ago, and we just got it 
yesterday. That is too long, and we need to work out a process 
that when there are get-backs relative to whatever, those get-
backs come within a reasonable period of time. We are not 
asking for information that's not currently available.
    So if you can assure the committee to the extent 
practicable, Mr. McGarrity, that on that kind of data you will 
make it available to us, I would appreciate it.
    Mr. McGarrity. Chairman, just first, as far as what we did 
provide that you received on Monday, please take a look at it. 
We are certainly open to a conversation as to the details that 
we are giving if that is helpful or not, so certainly my 
commitment is to make that product and see if there is anything 
else that would be beneficial.
    As far as the monthly briefings, certainly working with our 
Congressional Affairs Office in the Department of Justice to 
have that dialog. We will continue to do that and see if that 
is appropriate.
    Chairman Thompson. Thank you very much.
    Mr. Wiegmann, thank you for the prosecutions that you all 
have generated over time. Are there any resources identified or 
you lack to continue to pursue those prosecutions?
    Mr. Wiegmann. No, sir. Not at this time.
    Chairman Thompson. Can you share the demographics of the 
prosecutions with the committee?
    Mr. Wiegmann. Share information concerning the cases that 
we bring? Is that what you mean?
    Chairman Thompson. Yes.
    Mr. Wiegmann. Sure. Yes, we can. Consistent with, you know, 
if there are cases under seal and obviously there can be 
exceptions about what type of information we can share, but 
absolutely we can share information about the cases that we 
have brought.
    Chairman Thompson. So I am really talking about the cases 
that you have prosecuted, not the ones that you are looking to 
prosecute.
    Mr. Wiegmann. That is right. Our charges are public, and so 
we can make those----
    Chairman Thompson. Can you make that available to us?
    Mr. Wiegmann. We can.
    Chairman Thompson. So Mr. McGarrity, let me again 
compliment what you do on providing this information, but one 
of the challenges we have is the changing of the threat 
landscape. When we first started as a committee, we were 
focused on the international terrorist threat to the homeland. 
Over time, it appears that that threat, based on testimony, is 
changing to a different threat. Nonetheless, it is still the 
homeland. I would reaffirm the committee's interest in having 
access to that kind of information so if there are some policy 
changes we need to implement, we could have access to that data 
in a reasonable period of time.
    Again, I am going to do the legislation to provide the 
resources to help the Department produce that legislation, that 
information that you used to do up until 2005. But I just--it 
is just a comment.
    I yield back to the Ranking Member for 5 minutes.
    Mr. Rogers. Thank you, Mr. Chairman.
    The Trump administration released an updated National 
strategy for counterterrorism in October of last year, and for 
the first time, the strategy includes domestic terrorism. How 
significant is the inclusion of domestic terrorism in the 
National strategy for counterterrorism?
    Mr. McGarrity.
    Mr. McGarrity. Sure. I have been working this obviously 
since 9/11, and it is the first time I am aware that domestic 
terrorism is included in the National security tragedy.
    Mr. Rogers. What does that mean for you?
    Mr. McGarrity. What does that--so from that point, first, 
it is in there, so whatever we talk about, I think everyone 
would agree it is what we are focused on, right, so we are 
highlighting that there is a domestic terrorism threat, that it 
is persistent. In fact, the strategy actually calls out that 
domestic terrorism notably is on the rise. What we are seeing 
and we see now in the international terrorism side and we are 
seeing it on the domestic terrorism side, we are seeing an 
evolution of the threat from what we perceive the threat used 
to be.
    What I mean by that, on the international terrorism side, 
we certainly still have al-Qaeda, AQAP, ISIS. What we have and 
what we have seen in the last 4 to 5 years is the home-grown 
violent extremist threat where someone can get on the internet 
and self-radicalize. We are seeing that same type of threat in 
the domestic terrorism world where individual actors, lone 
wolves, insular-type people can find their ideology to justify 
their violence and their actions on line. So we are actually 
seeing similar-type threats within the homeland that we, 
frankly, have not seen in this regard if you look 20 years ago, 
and part of that is due to the internet to be able to become 
radicalized fairly quickly and then mobilize to that violence 
quickly. We are seeing it both on the international terrorism 
side where there are HVEs and our domestic terrorism, lone 
actors.
    Mr. Rogers. You made that point that you weren't seeing it 
20 years ago. When did you start seeing this phenomenon occur 
where they were adopting--domestic terrorists were adopting the 
techniques of international terrorist to radicalize people? Was 
it 5 years ago, 10 years ago? When do you think it started 
occurring because it is a relatively recent phenomenon, or it 
seems to me.
    Mr. McGarrity. I just would put it with the internet, sir, 
and social media, the ability of people all over to communicate 
without doing face-to-face meetings, so that same that we saw 
on the HVE side, we are seeing on the domestic terrorism side. 
I wouldn't say they are necessarily copying international 
terrorists and HVEs. I think they are just seeing the same 
platform and the medium that they can use to exploit and gain 
information that fits their ideology to pursue violence.
    Mr. Rogers. OK. Do you have any recommendations for what 
could be done to address the viral hate speech and incitement 
of violence found on fringe sites like 8chan and Gab, and that 
is for any of you?
    You all don't have any suggestions for us? That is scary. 
We can't make policy without good advisement.
    Mr. McGarrity. Sir. Sir, I would just add within the 
Department, we actively pursue forums that are available to the 
public where we see central acts of violence, and we are 
continuing to refine that and get better at it. We operate 
obviously within the corners of our civil rights, civil 
liberty, and privacy efforts, but those efforts are increasing. 
That was one of the things I think in the written statements 
that we provided as well as in my testimony today. Our numbers 
bear that out.
    We continue to look at those areas where the domestic 
terrorism and other forms of violence aggregate and talk among 
themselves and spot and identify those, and we in the 
Department then provide that to the JTTF State and locals for 
enforcement, if appropriate.
    Mr. Rogers. Well, there has to be some point at which your 
right to free speech ends when you start threatening violence, 
particularly in a mass setting, so I think there is a place for 
policy to be implemented that can be helpful, and I do the job 
thinking about we can to do help you do your job more 
effectively.
    I yield back, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentlelady from New Mexico, Ms. 
Torres Small.
    Ms. Torres Small. Thank you, Mr. Chair. Thank you all for 
being here. As you know, recently there has been an uptick in 
attacks against non-profit institutions, specifically faith-
based organizations. These types of institutions are eligible 
for Federal funding to improve their physical security through 
FEMA's non-profit security grant program, and that is 
important.
    For example, my church back home recently did a safety and 
security assessment only to find there were a lot of needs and 
no money to help fill those needs. The problem exists, however, 
where institutions located outside of urban area security 
initiative jurisdictions which traditionally have less 
resources and are unprepared for an attack usually have less 
access to Federal funds. That is why I was proud to support 
Chairman Thompson's recently introduced bipartisan legislation 
that would increase Federal funding for organizations outside 
of the WASI jurisdictions like many of the rural non-profit 
organizations in New Mexico.
    Aside from Federal funding, information sharing between 
intelligence agencies and local law enforcement is essential to 
keep our communities safe. Can you all please speak on how your 
respective agencies share information with law enforcement, 
houses of worship, and community centers, specifically in rural 
locations?
    Mr. McGarrity. Thank you. Good questions. Certainly 
something we have been actively engaged on certainly over the 
last couple of years. We rely on the Joint Terrorism Task Force 
model obviously to work with our State, local, Federal partners 
and our Tribal partners as well. That mechanism, when you have 
two officers, task force officers and agents sitting with our 
analysts in the field in the local community is the best way to 
move the information quickly, and we will also do the same with 
our fusion cells.
    How we move information now to the State and local 
partners, specifically threats or after an attack occurs, is 
through our joint intelligence bulletins. These are bulletins. 
When we go out from the FBI, we do it jointly, dual-sealed with 
the Department of Homeland Security, and we push them out.
    So in the last year, in fiscal year 2018, we had an 
increase certainly from the year before, and in 2019, we are 
certainly well above where we were in 2018 in putting out these 
joint intelligence bulletins that go to State and local 
partners and fusion cells.
    Specifically as to the faith-based organizations, I can 
tell you Mr. Murphy and I have been on several calls with our 
religious security officials set up either through DHS, where 
they are sponsoring the call, or the FBI where we get on the 
call specifically after an attack, and we will walk through 
different things on what we have seen, if there is any 
intelligence that is out there, and we have done that.
    We rely on our partnerships. We at the FBI send both 
locally and through our Special Agent in Charge on the Joint 
Terrorism Task Force working with our local police, State 
locals to go out to the religious community and make sure we 
are engaged with them at the local level because even though 
there are National threats, the local threat on a lot from 
domestic terrorism is where it is going to percolate, and we 
will have to address that.
    Then just in a more broad sense, where we hit the chiefs of 
police, the International Association of Chiefs of Police, the 
major city sheriffs, I personally have briefed them and will 
continue to do that every year through our FBI partner 
engagement which when we do that and we set that up, they all 
come, and we give them threat briefings on domestic terrorism, 
on international terrorism. We talk about specific threats and 
cases, and we absolutely have talked about domestic terrorism 
in the last year with the major city chiefs.
    Ms. Torres Small. If anyone else is going to contribute, 
can you also just specifically address anything different that 
you do in rural communities who are sometimes harder to reach?
    Mr. Murphy. Yes, ma'am. As we speak right now, we have an 
effort on-going to complement the intelligence networks of 
rural sheriffs to combat the threats. New Mexico is a part of 
that campaign. It is not specifically designed to combat 
domestic terrorism but rather look at all threats that the 
rural counties are facing, so we have several efforts like that 
that we traditionally do, and we just happen to be in the 
middle of one of them.
    Ms. Torres Small. My last question. How can we improve the 
security of rural non-profit organizations which often don't 
have the extensive resources for robust security systems?
    Mr. McGarrity. Well, I am not going to speak to grant money 
or anything, but certainly engagement with our Joint Terrorism 
Task Forces wherever. When I said that, I said State and local 
as well as Tribal partners. So when we do that, obviously 
engagement with the Joint Terrorism Task Force to make sure 
there is a dialog going on.
    We push threat information out to our 56 field offices 
through the over 200 Joint Terrorism Task Forces across the 
United States to push that information out. We just have got to 
make sure there is a dialog at the local level.
    Mr. Murphy. Yes, ma'am. I would add one other thing. The 
Department does a lot of effort as well as DOJ does with the 
faith-based community. One thing that I would bring out as a 
possibility is connecting with these groups, rural, urban, 
whatever, is always an on-going effort and challenge, so 
anything we can do to partner with Members of Congress to 
improve that, we are happy to engage in.
    Ms. Torres Small. Thank you.
    Chairman Thompson. Thank you.
    The Chair now recognizes the gentleman from New York, Mr. 
King.
    Mr. King. Thank you, Mr. Chairman.
    At the outset, let me take strong exception to your opening 
statement. The inference that there was somehow Members of this 
committee were not concerned about terror attacks carried out 
by groups like wHite nationalists, Nazis, whatever. That really 
is rewriting history.
    First of all, I will just put on the record that my 
recollection is during the 4 years you were Chairman, you never 
had one of those hearings either. Second, all the hearings, and 
I was the Chairman for 2 years and then 4 years later on, there 
was--every year there is at least one hearing on terror 
threats. I don't recall you bringing any witnesses at all to 
talk about domestic terrorism.
    Let's go back to the start of this. This committee was 
formed after the Department of Homeland Security was formed 
because we have always had terror groups in this country, Ku 
Klux Klan, American Nazi Party, Weather Underground, Animal 
Rights League. In the early 1970's, we had more than 65 NYPD 
cops killed in the line of duty. There has always been a form 
of domestic terrorism.
    This Department of Homeland Security was formed and 
probably the greatest and largest reorganization of our 
Government in history because of the magnitude of the attack on 
9/11 and because we struggled. We were unprepared, and we had 
to bring Departments together, and this was the first time we 
had threats that were being directed from overseas with 
supporters here in this country, and that was the reason.
    Again, that 3,000 killed--there is no domestic terror 
attack that I know that comes close to 3,000 people being 
killed. We have to worry about issues like chemical plant 
security. I am not aware of domestic terror groups going after 
chemical plants. That took us--to get legislation through on 
that alone in the year that I was--or the 15 months that I was 
Chairman--that must have taken 6, 7, 8 months alone to get that 
done.
    Because not only do we have to fight off industry, we have 
to fight off the other committees in the Congress who are 
trying to restrict our jurisdiction and that was implemented. 
After a long tough fight. The same with port security. The same 
with airline security. The same with rail and mass transit 
security.
    This was a new phenomenon in our country, and we did all we 
could do address it. We had to set up a system of grants to 
make sure that the funding was sent to the cities and States 
and local governments that needed that funding. For instance, 
in New York alone, we set up to Secure the Cities program over 
the objections of the Obama administration. This was $26 
million that was put in to protect us against dirty bomb 
attacks. I am not aware right now of domestic groups being 
trained overseas how to use nuclear dirty bombs against our 
cities.
    This is all the things we were doing at that time. We had 
plots, and we had to adapt to plots as they came along. There 
was an attempt to blow up John F. Kennedy Airport with 
installing gasoline pipes below the airport. There was the 
Christmas day bombing we saw.
    If you are talking about a domestic attack, the attack that 
was stopped when Zazi, who was born overseas, educated in New 
York, went back to Afghanistan to be trained and come back 
here, he and 3 others were planning a liquid explosive attack 
that came within hours of succeeding in 2009. That would have 
made 9/11 look--look less than it was. There would have been 
hundreds, maybe thousands of people that would have been 
killed.
    Then we observed about what was happening overseas. We saw 
the bombings on the London subways. We had to then try to adapt 
here in this county how we would counter that. We saw the 
Mumbai attack where we saw using fire as a weapon. These are 
all things we were doing. No one at that time was minimizing 
any attack by domestic terrorists.
    We had to, I believe, answer the message that was sent to 
us by the Congress, by the President of both administrations of 
combating terrorism. We had Secretary Napolitano coming up to 
brief us and Secretary Jeh Johnson coming up. Ninety-nine 
percent of what they told us was about Islamist fundamentalist 
terrorism from overseas being directed here.
    Now, one of the reasons why when people say in the last 
several years, there has been more people killed by domestic 
terrorists rather than by international terrorists, one of the 
reasons for that is we have been successful. We have set up 
defenses. We do have them on the run. It is under both 
administrations. I am not trying to make this a partisan issue 
at all. We worked together. I think it does injustice to this 
committee, and it does injustice to what we are trying to do, 
but somehow saying because this committee didn't work on and 
did not have hearings exclusively on domestic terrorism that we 
didn't care about it, that is like saying somebody who is in 
the burglary squad doesn't care about rape. Somebody on the 
homicide squad doesn't care about bank robberies.
    We had our own lane and we were told what we had to do. It 
was the Judiciary Committee which had prime jurisdiction over 
the issue of domestic terrorism, and then there was prime 
jurisdiction over the FBI. We actually had no real jurisdiction 
over the FBI. We had to fight hard enough to get what we had.
    So, Mr. Chairman, all I am saying is listen. I fully 
support these hearings. We are at the stage now where this is a 
new threat, an evolving threat, a more sophisticated threat, 
and this is a very important hearing to have on domestic 
terrorism. But somehow to say that people didn't care about it 
before and didn't care about the loss of human life and didn't 
care about the victims of that and their families is wrong. It 
is an injustice to this committee, and I take strong exception 
to it, Mr. Chairman, especially when you were Chairman and did 
nothing on it yourself.
    Chairman Thompson. Is the gentleman from New York finished?
    Mr. King. I am finished.
    Chairman Thompson. Well, let me just for the record 
indicate that the briefings we started, we started under my 
committee. I assure you that we will continue to address any 
form of terrorism, international or domestic. The hearing today 
is to talk about domestic terrorism, how it looks, what the 
departments are doing to combat it, and that is why our 
witnesses are presenting their testimony here today.
    So at this point, we will go forward, and we will ask the 
questions, but the goal is to find out what domestic terrorism 
in the United States looks like today. Our witnesses are trying 
to share that with us, and this is just part of what our 
responsibility as a committee is to do. As long as I am Chair, 
we will do just that.
    Mr. King. Mr. Chairman would you yield on that?
    Chairman Thompson. We will get back to you.
    I will now recognize the gentlelady from Illinois, Ms. 
Underwood.
    Ms. Underwood. Thank you, Mr. Chairman, and thank you for 
holding this hearing today. One of the biggest challenges that 
we face, as we confront domestic terrorism, is the ease and 
speed with which the racists, misogynists, and other extremists 
ideologies that can fuel terrorism are spread on-line.
    In March, representatives from social media companies 
briefed Members of this committee on on-line extremism. While I 
appreciated their willingness to join the conversation, I was, 
frankly, really disappointed by how unprepared they were to 
provide sufficient answers in that briefing.
    On-line extremism is not a new issue by any means, and yet 
many social media companies have been slow to respond to the 
serious threat that it poses to American lives. They may not 
have uniform community standards or adequate content reviewing 
processes or good information sharing with law enforcement.
    So my first questions are to the whole panel. How can 
social media companies like YouTube, Facebook, and Twitter 
improve their efforts to work with your agencies to counter 
domestic terrorism, and what are they doing right, and what 
needs to get better?
    We can start with Mr. Murphy. Thank you.
    Mr. Murphy. Thank you for the question.
    The Department over the last few years has engaged with 
social media companies to encourage the social media companies 
to continue to police their websites. I think we have seen some 
fruit of that by working them, and I think those efforts are 
on-going, and we welcome a continuing dialog with the social 
media companies to improve on that process.
    Ms. Underwood. So you think that the level of engagement is 
sufficient?
    Mr. Murphy. Ma'am, so the Department is engaging with the 
social media companies. It is a coalition of the willing. We 
are making strides, and we would like to continue to make those 
strides.
    Ms. Underwood. Thank you.
    Mr. McGarrity.
    Mr. McGarrity. Sure. So we obviously have a very robust 
engagement with the social media companies, both as a training 
platform where we will go out and we will give briefings on 
international terrorism and domestic terrorism as we do with 
many of our private-sector partners, banks, on-line companies, 
shippers, anything that there could be tripwire that could help 
really to inform people for the see something, say something 
strategy. So we certainly do that, and we are very robust with 
that.
    Then when we do have an interest in something on social 
media or on the internet through a company, we obviously have 
judicial process that we will go through the U.S. Attorney's 
Office or through a National security letter on the 
international terrorism side to do a process, a legal process 
to request records and content, whether it is a search warrant 
or a subpoena.
    Ms. Underwood. Thank you.
    Mr. Wiegmann.
    Mr. Wiegmann. I guess the only thing I would add is just to 
note that when you are talking about extremist content on-line, 
the First Amendment does impose some significant constraints. 
We can't initiate--even if a social media company was to report 
to us this terrorist has put a manifesto or this person has put 
up a thing criticizing various ethnic groups or whatever, on-
line, that is not something that we can initiate an 
investigation solely on the basis of that information. So it is 
not as if just knowledge, in other words, if social media 
companies report to us extremist content on-line doesn't 
necessarily give us the basis to initiate investigative 
activity.
    Ms. Underwood. In your perspective, how would you compare a 
social media company's ability to respond to foreign terrorist 
threats to their ability to respond domestically? Would you say 
they are equal, more, or less?
    Mr. McGarrity. I have been in this role 15 months. I will 
say when I got here, even on the international terrorism side, 
the self-regulation of their term of use agreements, they have 
gotten much better. I will say on the domestic terrorism side, 
I will say that there is likely going to be an increase. There 
is a learning curve there as to what the social media companies 
have to do. I can tell you it appears, and this is open source, 
that they are hiring a lot of retired analysts, agents, and 
detectives to do that, and so that is a good thing that they 
are doing it.
    But I can tell you just a few years ago, you did not see 
the social media companies self-identifying content. They are 
doing that now, and it will just take time, I think, with this 
evolving threat on both on the home-grown violent extremist 
threat and the domestic terrorism threat here in the United 
States, that they will do the same on that.
    Ms. Underwood. Thank you.
    Facebook recently announced that it would begin redirecting 
users who search for White supremacist terms to an anti-
extremism organization called Life After Hate based in my home 
State of Illinois. Life After Hate is one of the only 
organizations in the country dedicated to helping people leave 
White supremacist ideologies, but the Trump administration 
canceled critical grant funding for the organization in 2017, 
and it has never replaced it.
    Facebook alone has over 2 billion users, and Life After 
Hate is one of the relatively small organizations, and so with 
this cut in funding, this organization cannot be expected to 
neutralize every neo-Nazi on the internet.
    Did any of your agencies or departments engage with Life 
After Hate following Facebook's announcement to ensure they 
have the resources to make this partner successful?
    Do you know?
    Mr. McGarrity. I am not aware that we did.
    Ms. Underwood. Others?
    Mr. Murphy. Ma'am, I will have to get back to you. I am not 
sure.
    Ms. Underwood. OK. We know that domestic terror incidents 
related to White supremacists are on the rise. We know that 
Congress is willing to fully resource DHS. I have only been 
here a few months, and I have already voted to increase funding 
for the agency. Resources are important, but so is directing 
them appropriately. DHS and other agencies need to ensure that 
these issues are being taken seriously and doing so in an open 
and transparent way. American lives depend on it.
    Mr. Chairman, I am looking forward to working with you and 
other colleagues on this committee to make sure that happens. 
Thank you.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes the gentleman from North Carolina, 
Mr. Walker.
    Mr. Walker. Thank you, Mr. Chairman. I want to get away 
from my notes just for a second and speak freely.
    I understand what this hearing is about, and there was a 
time when our Government, specifically even the DOJ, and as a 
pastor for 16 years, even the church looked the other way at 
some of the atrocities from some of these hate crimes and the 
terrorist activity that we saw in our communities. I was raised 
in the deep south, and I saw it myself at times.
    However, I do want to acknowledge that this country has 
made great strides in stepping out this bigotry and these 
racist thugs and the damage that they would try and do, and I 
would hope that you know and fellow Members that we will stand 
arm-in-arm with you when we see this, whether there is a 17 
percent increase or a 17 percent decrease.
    I do believe that we also have to make sure that we don't 
infringe on the free speech component as well, and that is a 
concern, so my first question for Mr. Wiegmann is how does your 
agency define a hate crime when prosecuting one of these cases?
    Mr. Wiegmann. Thank you for that question. I actually have 
the definition of hate crime here that Congress has provided in 
the Federal code.
    Mr. Walker. If it is less than 15 or 20 seconds, I would 
like to hear it.
    Mr. Wiegmann. OK. I will try to read it quickly. This is in 
Section 249. Whoever willfully causes bodily injury, and I am 
paraphrasing a little bit here, to any person through the use 
of fire or firearm, dangerous weapon, et cetera, to any person 
because of the actual or perceived race, color, religion, or 
national origin of any person.
    Mr. Walker. Thank you.
    Mr. Wiegmann. So causing violence to people on the basis of 
race, color, religion, national origin is essentially what a 
hate crime is.
    Mr. Walker. Based on the definition that you just gave, I 
want to give you an example from this week. Brian Sims, a 
Pennsylvania State representative, verbally attacked three 
teenage girls, threatening to dox them which means to basically 
go after them on social media or on the internet, even offered 
$100 if somebody would give up their names to be able to 
embarrass them, to trash them. Would you say that that would 
fall under a hate crime?
    Mr. Wiegmann. I would have to have all the facts. I am just 
really reluctant to comment on any particular----
    Mr. Walker. OK. So even the facts I gave you just there, 
you don't want to comment on them today?
    Mr. Wiegmann. I am just really reluctant, particularly if 
there an investigation which I don't know of that particular 
matter, to comment on it and get out in front of what----
    Mr. Walker. I understand. OK. Well, then let me ask you 
this. How does the Department of Justice draw the line between 
the right to assemble protected by the U.S. Constitution and 
investigation and prosecution of a case as domestic terrorism?
    Mr. Wiegmann. So people have the right to assemble, 
petition, march in support of a particular cause, whether it is 
one that people generally find popular or not. That is 
something they can do. What they can't do is cross the line 
over into violence. So the line that we draw and the FBI draws 
is you are free to assemble. You are free to petition.
    Mr. Walker. So you can say pretty much anything. In the 
case of Mr. Sims, he said, ``Bring it, Bible Bullies!'' On-line 
he tweeted this: ``You are bigots, sexists, and misogynists, 
and I see right through your fake morals and your broken 
values.'' So he has got clear lanes to be able to say anything 
he wants to in that aspect, is what you are saying?
    Mr. Wiegmann. You can say a lot of things that most people 
in this room would find repulsive and inappropriate, repugnant. 
But unless you are crossing that line over into either a 
threat--if it is a threat, that can be prosecuted, we have a 
number of threat statutes--or unless you are intending to 
incite violence, as the Supreme Court has defined the line on 
that.
    Mr. Walker. Basically people are OK to say something 
stupid, and check our Facebook pages if you need any evidence 
of that.
    What I would like to transition is for a couple questions 
for Mr. Murphy.
    How would you define the DHS's role in combatting domestic 
terrorism?
    Mr. Murphy. Thank you for that question, sir.
    So we have several roles in the Department. One of them is 
to work with our State and local colleagues to make sure that 
they have all the information they need at that level. They are 
the closest ones to the fight against domestic terrorism, and 
we work every day to provide them that information.
    Mr. Walker. OK. Have you seen an increase, decrease, or 
about the same number of resources from your agency being 
devoted to domestic terrorism over, say, the last decade?
    Mr. Murphy. So I would say, within the last 2 years we have 
approximately doubled that number of people that are in my 
office that work on the domestic terrorism aspect of things.
    Mr. Walker. What is the process like for your agency to be 
able to share that information?
    Mr. Murphy. So right now one of the ways which we do it--
there is not just one way--we work with all our partners here 
at this table. But for the Department we look at what I 
described earlier, HSIN-Intel, which is an intelligence-sharing 
platform for law enforcement. We take the metrics we put on 
there very seriously. We continue to evaluate those numbers.
    As I stated earlier, our number of products we are sharing 
is up by 64 percent, and the quality of the products has far 
increased. One of the metrics we use is how often they get 
looked at and the return that we see.
    So those numbers are soaring, quite frankly, around 325 
percent increase, and 90 percent approval rating of the 
products we put out there.
    Mr. Walker. Mr. Chairman, my time has expired. I yield 
back.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes the gentlelady from Michigan, Ms. 
Slotkin.
    Ms. Slotkin. OK. Thank you for being here.
    Thank you, Mr. Chairman, for having this hearing.
    Can you tell me, Mr. Murphy, on the intelligence side, we 
are seeing an increase in domestic terrorism, can you explain 
to me why, based on your analysis?
    Mr. Murphy. So, ma'am, I think I would answer the question 
this way. We look continually for threats of violence. We 
continue to readjust how the threats of violence manifest 
themselves in the homeland.
    Part of our efforts have looked at that agile nature of 
which home-grown violent extremists, regardless of ideology, 
pick up a reason to perform acts of violence against others and 
how quickly that manifests.
    So as we have been more targeted in the way we do it, we 
have seen our numbers in terms of those that could be acting on 
violence increase. We refer those leads over for investigation 
to State and local law enforcement and the FBI.
    Ms. Slotkin. So just so I understand, then your answer is 
you are looking harder so you are finding more cases? That is 
the reason we have had an increase in domestic terrorism cases?
    Mr. Murphy. So, ma'am, as I think we said before, we have 
adjusted to a 24/7 cycle. Part of that has been explained by 
myself and others here in terms of how the internet has been a 
major factor in all threats of violence and the ability of 
adversaries to talk to each other over the internet, 
anonymously sometimes, and avoid those face-to-face meetings. 
As that has changed in society writ large, we have adjusted to 
that.
    Ms. Slotkin. So for both Mr. Murphy and Mr. McGarrity, so 
you are referencing the use of social media. So then we should 
see a straight line increasing in domestic terrorism from the 
advent of the internet to today. Do we see a straight line in 
an increase in domestic terrorism?
    Mr. McGarrity, why don't you take this one.
    Or has it been--I mean, I am just trying to be honest here 
about the nature of the threat. I think you guys have done a 
phenomenal job on preventing another foreign terrorist attack. 
I think we have to give you guys a ton of credit for the fact 
that we haven't had another large-scale attack in the United 
States.
    But I want to be honest about the way the increase has 
happened. Has it been continuous since the advent of the 
internet, or are there other factors? Has it been precipitous 
in the past few years?
    Mr. McGarrity. I can't speak back to the internet, but I 
think that is a good question to look at.
    What I can speak to, if you look at points in time as far 
as our case numbers now, I gave the number of 850. If you just 
look 6 months ago, we are actually down in cases.
    But cases are a point in time. We can literally open and 
close cases every day. So it is two data points, but certainly 
worth looking at.
    What I can tell you of what we are seeing is the velocity 
in which our subjects and the velocity in which we are working 
our cases, both on the domestic terrorism side and the 
international terrorism side with home-grown violent 
extremists, that velocity is much quicker than it has ever been 
before.
    Now, Mr. Murphy and I spoke before about the insular nature 
and the internet. When you can go on the internet and find 
content that justifies what you want to do, your specific 
ideology, whatever that ideology is, that and the ability not 
to have to travel to meet someone, not to have to go into a 
group setting, first, it makes it harder for us to detect you 
from a law enforcement perspective because you are finding; but 
second, less conspiratorial.
    So you are less engaged with other people to conspire to 
commit attacks. You are finding the ideology. You are 
radicalizing fairly quickly, quicker than we have seen before, 
certainly years ago, even before 9/11 or after when we saw the 
foreign fighters. Now, on the domestic terrorism side that 
mobilization of violence is much quicker.
    Ms. Slotkin. So you said you had 850 cases that were open. 
I understand they are just a spot check at a moment in time. 
How many of those cases are White supremacist cases?
    Mr. McGarrity. So from our racially-motivated violent 
extremism, the term we use, of the 850, approximately half are 
anti-government, anti-authority. Another 40 percent are 
racially-motivated violent extremism cases, so 40 percent of 
the 850. Within that, a majority, but it is a significant 
majority, are racially-motivated extremists who support the 
superiority of the White race.
    Ms. Slotkin. OK. Thank you for that.
    I have seen a report, but please correct me, that out of 
2,000 counterterrorism analysts or specialists that you have--
agents, excuse me--that you have 350 of those 2,000 are focused 
on domestic terrorism. Is that figure right, wrong? Please 
correct me if I have that wrong.
    Mr. McGarrity. So, again, I am going to put it in a 
different way, but I think it answers your question.
    If you look at the way we are set up on our 
counterterrorism, our agents in the field and our agents at 
headquarters, our agents in the field, it is about an 80/20 
split as far as the number of cases in international terrorism. 
So 80 percent of those cases we work are international 
terrorism cases, which includes home-grown violent extremists, 
which are about 1,000, and I gave you a number of 850.
    If you look, the agents in the field marry up about 80 
percent, 20 percent as to our case ratios and then the agents 
working. So we have about 20 percent of our counterterrorism 
agents working domestic terrorism in the field and about 80 
percent international terrorism. But that marries up almost 
exactly to the number of cases we have in the field as 
international terrorism and domestic terrorism.
    Back at headquarters we have an entire section, Domestic 
Terrorism Operations Section, just like we do an International 
Terrorism Operations Section, in the homeland. They are both 
sections, equal sections. We have analysts and then we have--we 
use our HUMINT section and everything else to augment that.
    But we are set up--we are mirrored right now in our 
Domestic Terrorism Operations Section to do the same work we do 
as our International Terrorism Operations Section absent the 
laws that we are allowed to do different things for 
international terrorism, but the way we are structured within 
the Counterterrorism Division is the same.
    Ms. Slotkin. OK. I think my time has expired. Is that 
correct? Sorry. I am happy to go by the clock if you want me to 
go by the clock, but I think it has expired.
    So thank you, gentlemen.
    Chairman Thompson. Thank you.
    The Chair will recognize the gentleman from Louisiana, Mr. 
Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    I would like to commend the Chairman and the Ranking Member 
for the tone I am witnessing of this hearing. This is an 
important hearing, and I am finding the questions very fair and 
bipartisan and focused on the issue at hand, and that certainly 
comes from the example set by leadership here. So I thank you, 
Mr. Chairman, Mr. Ranking Member.
    Gentlemen, thank you for your service to your country and 
your testimony today.
    Mr. McGarrity, our research shows that the FBI currently 
has approximately 900 domestic terrorism investigations on-
going. Is that correct?
    Mr. McGarrity. Five hundred eight was our current number, 
but like I said----
    Mr. Higgins. Round number.
    Mr. McGarrity. It can hover, 850. Right now it could be 
850.
    Mr. Higgins. Just for perspective for the American people 
and for this committee, how does that number compare to 
investigations past, let's say a decade ago?
    Mr. McGarrity. That I can't speak to, but we certainly can 
get that number and get it back to you.
    Mr. Higgins. Would you agree that the investigations into 
domestic terror have grown though at the FBI over the course of 
the last decade?
    Mr. McGarrity. Let's see, what----
    Mr. Higgins. Investigations into domestic terror.
    Mr. McGarrity. We have always been set up to work domestic 
terrorism. We have always, obviously, the history we show, we 
have worked it.
    Mr. Higgins. Do you believe there is a heightened awareness 
within the investigative community of the FBI?
    Mr. McGarrity. I would say it is a very heightened 
awareness.
    Mr. Higgins. OK. That is a fair statement. Would you agree?
    Mr. McGarrity. Yes.
    Mr. Higgins. Of course, all of us here need to ensure that 
these investigations are conducted thoroughly. It is critical 
for the safety of all Americans. I am concerned regarding some 
exit from the Joint Terrorism Task Forces Nation-wide--in my 
opinion, that is the front line of this mission to combat 
domestic terror--working with and sharing critical information 
with local law enforcement agencies as they conduct criminal 
investigations, which can lead ultimately to the reveal of 
domestic terror intent. Recently certain jurisdictions have 
withdrawn from the Joint Terrorism Task Forces.
    Mr. McGarrity, to what extent, in your opinion, does 
withdrawal from Joint Terrorism Task Force, how would that 
impact our ability as a Nation, considering the relationship 
between local law enforcement, where these investigations 
commonly begin, and Federal law enforcement? What is your 
opinion on how important the Joint Terrorism Task Forces are, 
sir?
    Mr. McGarrity. I would say that our Joint Terrorism Task 
Force, as stated before, is really the recipe for our success 
in what we have done over the last year since 9/11. Nothing the 
FBI does in the counterterrorism world we do alone. We do with 
partners.
    Those cases, I spoke about the referrals that we get, 50 
percent of our referrals for our cases come in not only from 
State and local partners, so whether on the JTTF or not, but 
from the public. There is no one better than a State and local 
law enforcement officer that knows the public.
    So that information intake into the Joint Terrorism Task 
Force is crucial, having membership there. Nothing beats two 
people sitting side-by-side working a case together for a 
disruption as far as how we will be successful in that case.
    Mr. Higgins. Yes. I concur with that assessment, and thank 
you for clarifying for us all.
    In my home State of Louisiana, actually in my neighborhood, 
recently 3 Christian, predominantly African American churches 
were burned to the ground. That investigation was conducted 
with incredible professionalism by the Louisiana State Fire 
Marshal and his team, working with local law enforcement and 
ultimately Federal law enforcement. Fire Marshal Butch Browning 
did an amazing job leading the investigation.
    This initially began as an arson investigation. Then, when 
a second church burned, of course, the team was on the ground. 
The sharing of data at the local, State, and Federal level was 
just an uplifting thing to behold. Ultimately the arrest was 
made and the suspect was found to be involved in following 
pagan religion rituals of burning old steeples, which were 
found in rural areas.
    My question to you again, Mr. McGarrity, are there 
additional investigative or prosecutorial authorities needed to 
better address--is there a piece of this puzzle that we are 
missing that this body can help you fill?
    Mr. McGarrity. As far as any certain legislation from this 
body, certainly I will defer to the Department of Justice, and 
I know they are committed to working through possibilities.
    From my perspective, whether I am working gangs, MS-13, or 
terrorism, any tool in the toolbox helps me when I am looking 
at that threat every day as to what my options are and how I 
can disrupt that threat before an attack.
    Mr. Higgins. Thank you, gentlemen, for your service and 
your testimony today.
    Mr. Chairman, I yield.
    Chairman Thompson. Thank you.
    The Chair now recognizes the gentleman from Missouri, Mr. 
Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Ms. Holland, my teacher, she taught us, you know, oh, be 
some other name. What is in a name? That which we call a rose 
by any other name smells as sweet.
    We learned that out of ``Romeo and Juliet'' because we were 
studying semantics. Semantics. That is where I would like for 
this conversation to go, if you will.
    In the FBI, in your report, there is a category of domestic 
terrorism called racially motivated violent extremism. Then in 
the 2017 FBI Counterterrorism Division a report was distributed 
called ``Black Identity Extremists Likely Motivated to Target 
Law Enforcement Officers.''
    Semantics. I don't understand.
    First of all, can you tell me what ``Black identity 
extremists'' is, Mr. McGarrity?
    Mr. McGarrity. So it is a term that we don't use and I 
haven't used in how we look at the threats since I have been 
here for the past 15 months. What it was is, it is a term that 
came out from an effort to better define the threat that we saw 
specifically 2015, but specifically in July 2016, the July 7 
two attacks against law enforcement and then the July 17 attack 
as well, and then the follow-on attack.
    So you had attacks in Tennessee, Baton Rouge, as well as 
Dallas, and then a follow-on attack in the fall. It was a 
perspective, something where they saw a change, and the 
analysts' attempt to highlight that change and analyze it.
    I can tell you, since I am here and I think your next part 
of that, why are we calling it racially motivated violent 
extremism? Because that is what we are focused on, is the 
violence.
    You know, everything is First Amendment-protected right. 
You could be a White supremacist. I am not going to investigate 
you because you have an ideology. I am going to investigate you 
because you have an ideology that you are pursuing violence to 
attack others. That is where I am going to investigate.
    Mr. Cleaver. Good. I can appreciate that, because I think 
one of my--I have got a little 3-year-old grandson, and I am 
wanting desperately for him to grow up in a Nation where we are 
not bitterly divided by partisan politics and race and so 
forth.
    So I appreciate your response and that you don't use that 
term. But it is out in the world. I am hoping that we can, if 
we are going to use race--for example, we don't say White 
supremacist extremism. We say racially motivated.
    So do you think it would be more helpful if we are just 
going to put everything in one category, and that is racially 
motivated violent extremism? I mean, in other words, and here 
we say racially motivated violent extremism, and so we leave 
out White supremacy. But then in 2017 we have Black identity 
supremacists, you know----
    Ms. Clarke. Identity extremists.
    Mr. Cleaver. Yes, identity extremists. I don't know why we 
are separating it.
    Mr. McGarrity. So right now I can tell you, the way we are 
set up, the way we look at it, racially motivated violent 
extremism, and that is a term that when we were doing----
    Mr. Cleaver. No. No. No. You said racially motivated 
violent extremism.
    Mr. McGarrity. Violent extremism.
    Mr. Cleaver. I am talking about the 2017 says Black 
identity.
    Mr. McGarrity. That was a report that was done, as I said, 
based upon the acts in 2016 to analyze a set of circumstances 
and events. I can tell you we don't use that term since I have 
been here.
    Mr. Cleaver. OK.
    Mr. McGarrity. We use the term racially motivated violent 
extremism.
    Mr. Cleaver. Which would include everything?
    Mr. McGarrity. Well, it includes everything, but it allows 
us also to track if there is an ideology where someone is 
looking to push forward the supremity of the White race or if 
someone has a perceived injustice because of something to use 
violence.
    So if we need to track numbers, we can do that because we 
do need to understand the threat. But what I need to do is I 
need to train my task force officers, my analysts, my agents, 
that it is the violence we are focused on. It is the violence, 
it is not the ideology. The ideology will likely get you to the 
violence and the hate. But we need to focus on the violence, 
and that is why we use the term we use now.
    We have been using it for 15 months. I have had a 
conversation with members of NOBLE, on the Black Law 
Enforcement Executive Committee. We have reached out, 
obviously, to Black congressional Caucus offering to speak to 
them, and we have also had one of our senior executives in 
charge of domestic terrorism speak at the NOBLE conference.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from Pennsylvania, Mr. 
Joyce.
    Mr. Joyce. Thank you, Mr. Chairman.
    Thank you, Ranking Member Rogers.
    I would like to thank the witnesses for being here today to 
continue this on-going dialog.
    Recently, Members of this committee had the opportunity to 
hear representatives from social media. Their concerns were our 
concerns as well.
    Regarding this, what level of cooperation do you receive 
from the major social media companies when they identify 
threats or acts of violence that are on their platforms that 
are being actively discussed? Do they proactively share this 
information with you? What steps do you then take?
    Mr. McGarrity, I will ask you to address first, please.
    Mr. McGarrity. I can't speak to every company, but 
certainly many of the major companies do give us leads, tips, 
when they see something.
    Now, when we get that information that doesn't mean we can 
do something if it is strictly First Amendment activity. But we 
can run checks. We might be able to take an assessment and 
predicate a full investigation or a preliminary investigation.
    I can't say they all do that. Now, there are certainly 
companies out there that don't. But we are seeing a tide change 
in social media companies being more proactive policing their 
own. When they see something, partly because they have retired 
law enforcement analysts in there, when they see something that 
is noteworthy and alarming beyond First Amendment they will 
give us leads.
    Mr. Joyce. Can you quantitate that, Mr. McGarrity? Can you 
see trends that you can share with us?
    Mr. McGarrity. As to leads coming in?
    Mr. Joyce. Yes, sir.
    Mr. McGarrity. We can look--I mean, we haven't looked at 
that, whether it is--I can tell you from where I sit, on the 
threats we are working at, we do get leads coming in from some 
of the major social media companies. I haven't looked at the 
statistical analysis or trends, but it is certainly more than I 
am sure we got in years past.
    Mr. Joyce. Is this something that will be easily 
quantitated? Is that something that you have the resources to 
do and provide?
    Mr. McGarrity. It is certainly something we could do. It is 
resources, obviously you are taking people off to do different 
things. But it is certainly something we can look at to see if 
it is possible, to see if it is something that is worth 
tracking.
    Mr. Joyce. Are there additional measures that you think the 
social media platforms should be dialoguing with you regarding 
that?
    Mr. McGarrity. We are certainly training them on what the 
threats are when we talk about the international terrorism and 
domestic terrorism threats. As far as what they do on their own 
use agreements and with their lawyers, that is what they do 
internally.
    We certainly educate people to the threat, whether they are 
a social media company or a bank or shipping company.
    Mr. Joyce. You talked earlier about the radicalization and 
how easily that is to be obtained, that information on the 
internet. Do you think they are taking the appropriate response 
from the social media platforms in addressing this with the 
education that you provide them?
    Mr. McGarrity. I can't speak to--I mean, there is a lot of 
hate out there on the internet. I can't speak to exactly how 
much of their efforts that they are doing.
    I can tell you in open source different companies have been 
more forthcoming in what they are producing as far as self-
identifying content that is unacceptable. But I can't tell you 
exactly what they are doing inside the companies.
    Mr. Joyce. Mr. Murphy and Mr. Wiegmann, would you be 
interested in commenting to this as well?
    Mr. Murphy. I would say that the Department in the last few 
years has looked at working with the major social media 
companies, and through a coalition of the willing and others, 
which is largely known as the Global Internet Forum to Counter 
Terrorism, we do see that those efforts are bearing some fruit. 
I think we have a long way to go with it, and we look forward 
to continuing to engage with the social media companies in that 
environment.
    Mr. Joyce. Mr. Wiegmann.
    Mr. Wiegmann. I don't have anything further to add.
    Mr. Joyce. Thank you. Thank you for your comments.
    Mr. Chairman, I yield.
    Chairman Thompson. Thank you.
    The Chair now recognizes the gentlelady from New York, Ms. 
Clarke.
    Ms. Clarke. Thank you so much, Mr. Chairman.
    I thank our Ranking Member, Mr. Rogers.
    I thank our panelists for bringing their expertise to the 
panel today.
    Mr. Wiegmann, you mentioned something that has not sat well 
with me, and I wanted to give you an opportunity to explain, 
because I understand the delicate balance between First 
Amendment rights and operationalizing things. But if it was 
brought to your knowledge that there was a manifesto on-line, 
is there a process that you have to sort-of vet that?
    You made it sound as though, oh, anyone can print the 
manifesto and this is like a common practice. But we are 
finding that these manifestos are sort-of a precursor to 
operationalizing events. So can you give me a sense of exactly 
what you were saying?
    Mr. Wiegmann. Yes. So I totally get your concern because 
these on-line statements, as Mr. McGarrity has explained, are 
exactly the kind of things that can lead people to radicalize 
and turn to violence.
    The challenge really lies in--and I will just talk briefly 
about the First Amendment jurisprudence here. There is a famous 
Supreme Court case----
    Ms. Clarke. No, I don't want to go that far. I don't want 
you to go that deep.
    Mr. Wiegmann. OK.
    Ms. Clarke. I am saying, you mentioned that if you saw a 
manifesto on-line it is commonly viewed as freedom of speech.
    Mr. Wiegmann. Yes.
    Ms. Clarke. What I am saying is that what we have found the 
trend has been that as these manifestos appear something--or we 
usually find out after the fact that someone operationalized 
the use of a manifesto, right?
    So what I am asking is, have there been new protocols put 
in place? Because I don't want it to be said out there that, 
oh, manifestos can pop up on-line, we have nothing in terms of 
vetting or there is no process when it is brought to our 
knowledge.
    Mr. Wiegmann. Yes. My point is just that we are going to 
need more than just a statement, depending on what the 
statement says. If it is a statement that indicates threats of 
violence, we can investigate that. If we have additional 
information about the individual--yes, it is a manifesto, but 
we know the person is out buying a gun or we have a source 
inside that says this person we think is turning to violence--
--
    Ms. Clarke. So there is a process?
    Mr. Wiegmann. So there is a process that the FBI is doing 
in an individual case to evaluate do we have that, enough 
evidence to predicate an investigation and open it. We are 
pushing up against that line, in other words, in every case to 
say, OK, do we have enough, do we not have enough?
    Ms. Clarke. It is not as though the FBI hasn't done it 
before, so----
    Mr. Wiegmann. That is right. So they are going to be 
looking in those cases to see whether they have enough 
information and material to, consistent with the policy of----
    Ms. Clarke. So why don't I switch over to Mr. McGarrity 
because we don't have a whole lot of time, and sort-of get your 
opinion on that.
    Mr. McGarrity. I think if you look at some of the 
manifestos that we have seen more recently in the last year, a 
lot of those manifestos will actually have the intent to 
violence in there as well. So when we get that, that is a clue, 
that is a lead that we can look at and start.
    It is still going to come in under a guardian to look at. 
There are very few things we can do. But as we build upon that 
and certain predications are met, we can then likely take it 
into----
    Ms. Clarke. Because I want to just sort-of do a comparison 
between when you find that type or you are giving that type of 
intelligence from an international perspective. Your job then 
is to mobilize, to disrupt any act of violence that may--that 
you believe can be operationalized from that type of chatter, 
that type of material.
    Is that the same type of, sort of intelligence that you use 
when one comes across these types of materials?
    Mr. McGarrity. So if I am looking at a threat, whether it 
is IT, international terrorism, or domestic terrorism, I am 
looking at that threat the same way to stop it.
    Ms. Clarke. OK.
    Mr. McGarrity. But the difference on the international 
terrorism side is the foreign terrorism organizations, those 
that are designated foreign terrorist organizations, whether it 
is al-Qaeda or ISIS, that does give us more latitude because 
you are actually saying: I am going to do something for ISIS or 
I am with ISIS. That does give us more latitude to look at----
    Ms. Clarke. How does it give you more latitude?
    Mr. McGarrity. Because they are actually designated as a 
terrorist organization.
    Ms. Clarke. So we don't designate White supremacist 
organizations as terrorist organizations?
    Mr. McGarrity. So a White supremacist organization is an 
ideology. It is a belief. But it is not----
    Ms. Clarke. But they are not designated as a terrorist 
organization?
    Mr. McGarrity. We don't have designated terrorist 
organizations----
    Ms. Clarke. That are domestic?
    Mr. McGarrity. Correct.
    Ms. Clarke. That is good to know.
    Mr. McGarrity, I am concerned about the FBI not having 
dedicated sufficient personnel and resources to combatting 
domestic terrorism, along with the fact that we don't even 
label our organizations as domestic terrorists.
    What is the breakdown of FBI agents, analysts, 
headquarters, and analysts in the field dedicated to White 
supremacists, militia threats, or other forms of domestic 
terrorism versus forms of Islamic extremism?
    Mr. McGarrity. Good question, ma'am. I alluded to it 
before. We are set up--we have actually looked at that. Those 
agents in the field that work domestic terrorism, about 20 
percent, and we have about 80 percent working international 
terrorism.
    But if you look at our case numbers, so if you look at 
those things that come in that we can predicate into an 
investigation, they line up about 20 percent domestic 
terrorism, 80 percent international terrorism.
    We have domestic terrorism squads in major field offices. 
We at least have one counterterrorism squad in every field 
office, 56. We have single domestic terrorism squads in the 
larger ones.
    But if you are working in a rural area, say you are in an 
area where it is 5 agents in that area, covering that area, and 
that threat comes in, whether it is domestic terrorism, 
international terrorism, public corruption, or white collar, 
and that is a threat, that is taking priority.
    So as much as we are set up that way with cases, we are 
certainly set up to deal with the threats as they come in.
    At headquarters we have done a realignment within the 
Counterterrorism Division. We have always had a Domestic 
Terrorism Operations Section the last couple years, but we are 
lined up as how we work at our HUMINT, our source, our 
collection, our analysis, and our ops, mirrors up between 
Domestic Terrorism Operations Section and our International 
Terrorism Operations Section.
    The only difference is we also have another section that is 
overseas for those cases, investigations that take us 
extraterritorial.
    Ms. Clarke. Very well.
    I yield back, Mr. Chairman. Thank you.
    Chairman Thompson. Thank you.
    The Chair now recognizes the gentleman from New York, Mr. 
Katko.
    Mr. Katko. Thank you, Mr. Chairman. Thank you for convening 
this hearing. It is very important that we give the domestic 
terrorism its due as a problem in this country that is 
escalating, and I will get to more of that in a moment.
    I want to pause for a few seconds to thank someone from my 
office, Tim Wang. Today is his last day. Since he has been with 
me, he spent every day working to help keep our country safe 
and keeping me ready for these hearings.
    So thank you, Tim, and good luck.
    Mr. McGarrity, I want to talk to you briefly about--you 
said about 80 percent versus 20 percent international/domestic 
split as far as resources in these investigations. Is that true 
for the JTTFs as well?
    Mr. McGarrity. Yes. So the JTTFs are the components that 
work these cases in the field, so it would marry up.
    What it doesn't count is our task force officers assigned 
to both domestic terrorism and international. I don't know the 
numbers on that, but I would assume that would line up pretty 
much the same as well, because that is our field component.
    Mr. Katko. OK. Fine. Thank you very much.
    Mr. Murphy, I want to talk to you a little more about the 
social media component. To me, one of the biggest problems we 
have had with domestic terrorism and the spread of 
international terrorism in the United States is the ability of 
the internet to unlock the latent tendencies of somewhat 
dormant people that are angry.
    They can scratch their itch by going to a certain site or 
talking to a certain person, and next thing you know you go 
from someone with some feelings to someone with actions, and it 
is very, very hard to detect.
    I think social media companies need to be held accountable 
more and be more active. I know from what I have seen with 
cybersecurity issues, I am Ranking Member on Cybersecurity, 
different performances based on companies. Some companies are 
much more diligent about it and some people care a lot less 
about it.
    So is there anything we should or could be doing in 
Congress to hold those social media companies' feet to the fire 
more about being better stewards of what is being posted and 
how it is being posted?
    Mr. Murphy. Sir, thank you for the question.
    So the Department continues to work with the social media 
companies. I had brought up before the larger social media 
companies seem to be more engaged. I can't explain the exact 
reasons for that. I know we will----
    Mr. Katko. Self-preservation probably, but that is OK. I 
mean, whatever the motivation, it is good that they are 
engaged. Some just aren't though, you know.
    Mr. Murphy. We will look to continue to expand those 
relationships to include all social media companies if possible 
and working with our partners here to educate those social 
media companies about the threats. Then what they do with that 
information, as my colleague said, it does vary from social 
media company to social media company.
    Mr. Katko. OK. Thank you.
    I am going to switch gears one more time, and that is with 
``if you see something, say something'' campaigns that are 
throughout the country.
    An outgrowth of that, something I have pushed very hard 
for, is red flag bills--my bill has due process considerations 
in it--to keep firearms out of the hands of people that are 
about to go into a school and do a shooting, and try and find 
those needles in a haystack, listen to the concerns, listen to 
the warnings, and then try and act upon them before they 
actually happen.
    Is a red flag concept something that might be advisable in 
a domestic terrorism realm?
    Mr. McGarrity. Red flag as to training people to understand 
what the indicators are?
    Mr. Katko. Right. But also intervening with these people 
before they act if they are exhibiting sufficient signs of 
about ready to commit acts of violence or that they have mental 
health issues and they are talking about and engaged in this 
extreme language. They are exhibiting signs that they might be 
ready to pop off.
    Is there something we can do to intervene with them and 
perhaps get the firearms out of their hands before they 
actually act?
    Mr. McGarrity. So certainly that is a possibility. What we 
want to do is we want to train people to see what those 
indicators are. So NCTC, the FBI, and DHS put out the 
indicators of mobilization to violence. It is a couple years 
old, but it is specific to the home-grown violent extremist 
threat, which mirrors the domestic terrorism threat as to these 
lone offenders, once they have access to a firearm, can do an 
attack.
    So what we want, we want our schools, our teachers, our 
communities to know that. The bystander effect that we talk 
about, many times when you look back, and we have studied this 
on the home-grown violent extremist side and the attacker side, 
you look back, there is at least one person who sees that 
radicalization change, who sees that mobilization, likely one 
indicator or a grievance that----
    Mr. Katko. Like San Bernardino, for example.
    Mr. McGarrity. Yes. We want to get that.
    So this is what is out there. We can throw that out to 
State, locals, as well as schools. But that is what we want to 
do, is get them to know what those indicators are and what 
behavior changes could be there.
    I am all for if someone can get to someone before I see 
them and stop something, that is great.
    Mr. Katko. Or get the information to you so you can do it.
    Mr. McGarrity. Absolutely.
    Mr. Katko. Yes.
    Mr. McGarrity. I will tell you, if you look at our tips 
that come in, obviously 50 percent come from State, local, or 
public tips. So when I look at a State or local tip through the 
Joint Terrorism Task Force, many of those secondarily, 
collaterally are from the local community.
    We have seen an increase in community tips coming in. That 
is a good news story from years of ``see something, say 
something,'' but it is also getting it out that there is likely 
one person who saw this or saw the change.
    Mr. Katko. Thank you very much.
    I yield back, Mr. Chairman. Thank you.
    Chairman Thompson. Thank you.
    The Chair now recognizes the gentlelady from New York, Miss 
Rice.
    Miss Rice. Thank you, Mr. Chairman and Mr. Ranking Member.
    I would just like to start by saying that I would ask every 
one of my colleagues on this committee to take the bold step, 
and I hope our other colleagues from both sides of the aisle 
will join us, in being willing to be courageous enough to 
condemn any kind of incendiary rhetoric coming from either side 
of the aisle.
    That is what the public expects, and yet what we do time 
and time again is R's pick on D's and D's pick on R's, and they 
make a distinction where there is no difference.
    I think that in the positions that we are in we owe it to 
the public to be courageous enough to stand up and say, yes, 
you are from my party, but what you said is wrong. I hope that 
we can do that and set the tone, because if we are doing that, 
I think the influence we will have over the general public will 
be much more positive in nature.
    This question is to everyone on the panel. On April 16 a 
militia group called United Constitutional Patriots was 
videotaped on the Southern Border holding migrants in their 
custody at gunpoint. These men were shown wearing military-
style uniforms, surrounding migrants with rifles, and issuing 
commands to stop or sit. Needless to say, this is extremely 
disturbing, private citizens acting in the role of law 
enforcement.
    Shortly afterward, the leader of the group was arrested by 
the FBI for illegal firearms possession.
    We know that unauthorized militias pose a problem to law 
enforcement across the country, and the militia movement has 
resurged in the past decade.
    Recently, in separate incidents, in Nevada in 2014 and 
Oregon in 2015-2016, Cliven Bundy and his sons--I guess that is 
how you say his first name--and his sons Ammon and Ryan engaged 
in large armed stand-offs with Federal law enforcement 
officials.
    In 2016 three White men, members of a militia called the 
Crusaders, were arrested for a plot to bomb an apartment 
complex in Garden City, Kansas, that was home to many Somali 
immigrants.
    To the extent possible in a public setting, could all three 
of you summarize the current domestic terrorist threat posed by 
militias across the country and on the Southern Border 
specifically? What are your respective agencies doing to 
confront the threat posed by unauthorized armed militias?
    I will just stop there and ask all three of you to opine if 
you have anything to say.
    Mr. McGarrity. Sure. Thank you, Representative.
    So certainly on militia extremism the folks on paramilitary 
training and acquisition of weapons, food supplies in 
preparation for criminal confrontations with the Government is 
concerning. Again, though, we have the First Amendment. So if 
it is a militia that is training but there is no direction 
toward violence, we are prohibited from looking at that.
    Where we do see them move into the violence, and you have 
seen those in those arrests, we will go out and investigate 
those that are using militias to pursue violent ends to meet 
their ideology or, of course, the Government to do something. 
So we have seen that.
    We have actually seen a decrease in militia extremism in 
the last couple years, partly because we think of some of the 
prosecutions, notable prosecutions that we have done. So it is 
a slight decrease in the last couple years.
    Miss Rice. OK.
    Mr. Murphy. Ma'am, we actively look out at those groups out 
there that are threatening both citizens as well as members of 
the Department. So you referenced the Southern Border. We, as a 
Department, receive threats from a variety of people that have 
certain passionate feelings about the Department of Homeland 
Security.
    We take all of that. We will immediately provide it State 
and local law enforcement as well as the Joint Terrorism Task 
Force, which the Department has a number of folks on that 
supporting the FBI's efforts.
    Any investigation then I would yield back, as Mr. McGarrity 
has already talked about.
    Mr. Wiegmann. Then just to add from our perspective, we are 
prepared, working with the FBI, to prosecute those cases. A 
number of the ones you mentioned in your statement are ones 
that the Department of Justice has pursued successfully and 
prosecuted in the militia context. There have been older cases. 
So we work closely with the FBI in terms of pursuing charges in 
such cases.
    Miss Rice. Thank you.
    Since 2014 at least four mass murders leading to 45 deaths 
have been committed by men who have identified or sympathized 
with the Incel movement, which is, I am sure you are all aware, 
an on-line subculture of misogynists who blame women for their 
involuntary celibacy.
    There is often overlap between this group of misogynist 
extremists and other violent hate groups. John Ernest, the 
self-identified White supremacist and anti-Semite who has been 
charged with last month's horrific shooting in a southern 
California synagogue, also referenced misogynist beliefs in his 
manifesto on the website 8chan.
    You have spoken at length today about working with these 
platforms in terms of identifying this kind of speech. But it 
seems to me that there have been a number of incidents where 
these killers have given us a roadmap very clearly. These are 
not even on the dark web. It is on Facebook. It is on these 
platforms that are well-known to everyone and reach enormous 
numbers of people.
    I just think that we have to figure out a way to hold them 
accountable and work more closely with them, because we are 
getting a big red flag waving, and we are not able to act on 
that information in a timely fashion.
    So I am encouraged about the work that you are doing with a 
lot of these social media platforms, but obviously we have to 
continue to do more.
    Thank you all very much.
    I yield back, Mr. Chairman.
    Chairman Thompson. Thank you.
    I would like to just comment that the Ranking Member of the 
subcommittee and the Ranking Member of the full committee, 
along with a number of us, are concerned about the very same 
thing. We have tried to engage the social media companies to 
talk to us on what they are doing, best practices, other 
things. Some have, some haven't. But there are some challenges 
that we will have to overcome, and we look forward.
    Mr. Katko. Mr. Chairman, just briefly, if I may.
    I would strongly encourage the committee to have another 
hearing on this and dig deeper into this area, because I think 
they need to get a kick in the butt to understand how serious 
this is.
    Chairman Thompson. Yes. I can assure you it is on the way.
    The Chair now recognizes the gentleman from Texas, Mr. 
Crenshaw.
    Mr. Crenshaw. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    Thank you all for being here. This is a very important 
subject. I will jump right into some questions.
    After I was injured I worked primarily in the intelligence 
community, and we have ways of classifying different types of 
attacks, most deadly and most likely courses of action. Could 
Mr. McGarrity and Mr. Murphy briefly comment on what you 
believe to be the most deadly courses of action or possible 
domestic terror attacks as well as the most likely?
    Mr. McGarrity. Well, I would say most deadly and most 
likely are both the lone offender who self-radicalized on-line 
who has access to a weapon.
    Mr. Murphy. I concur fully with Mr. McGarrity's statements.
    Mr. Crenshaw. OK. That is the trend we are seeing then. I 
mean, this is the concern. This is why we are having this 
hearing. There is this tendency to self-radicalize where we 
can't connect them with a broader network. We can't trace that 
back the way we used to do in the past.
    Now, a question I have as well. As we have effectively, not 
quite totally, but effectively and geographically defeated the 
caliphate, the ISIS caliphate in Syria, prior to this we were 
seeing quite a few of these self-radicalized attacks because of 
their ability to radicalize people internally.
    Have we seen a downward trend in that specifically from 
ISIS in the recent past because of military efforts abroad or 
has it remained the same? Can we track those things?
    Mr. McGarrity. I would say we have not. Certainly not seen 
a decrease, I mean, and that is the problem set we have. As the 
ISIS caliphate shrinks, it is on-line.
    So what you saw from AQAP with Inspire magazine and ISIS 
with the social media platforms that they pushed out, you can 
recycle that. So if you are sitting in a basement anywhere in 
the United States, you can get on-line and see that, and that 
is what is alarming.
    We did see that. I mean, just the arrest we just did a week 
ago in Los Angeles, that was a self-radicalized, but certainly 
on the internet, that was alarming.
    So from our vantage point, the home-grown violent extremist 
threat is certainly a priority threat for us because they are 
still being radicalized. It almost doesn't matter whether the 
caliphate is physically there or not.
    Mr. Crenshaw. The content has to come from somewhere, 
though. Are you able to track where that content is coming 
from?
    Mr. McGarrity. Content is coming from all over the world at 
this point, as the caliphate shrunk and those safe havens no 
longer exist. Like we saw with AQAP in Yemen, you could be 
anywhere in the world right now and put this together. 
Certainly with anonymizers, the Tor, and other things, you can 
push that out. So geographically it is dispersed.
    Mr. Crenshaw. Do you have anything to add to that before I 
go on to the next one?
    Mr. Murphy. No, sir. Thank you.
    Mr. Crenshaw. I want to talk about collection efforts. You 
mentioned there is open source and more targeted collection 
efforts coming out of DHS and a movement away from the analysis 
side of things.
    I want to ask real fast about how recruitment is going and 
personnel recruitment for these jobs. Do we need to increase 
recruitment? How is morale among these folks?
    Mr. Murphy. Sir, speaking for DHS, I mean, we have dozens 
and dozens of people putting in for every job up and down our 
kind of tree in for the various jobs.
    So we are fortunate to get a large pool of talent. We have 
no problem in terms of numbers of people applying for jobs.
    Mr. Crenshaw. OK. What about enough billets? I mean, trying 
to do open-source analysis for such an enormous problem, which 
is you are trying to analyze the entire internet on who might 
be self-radicalized. Do you need more?
    Mr. Murphy. Sir, we are always willing to, of course, get 
more resources, and happy to work with you and Congress to get 
you a more concise explanation of that.
    But there is always more, as you described, that could be 
done on the internet. I mean, it is an endless issue.
    Mr. Crenshaw. Yes. On JTTFs in particular, so in my past I 
worked a lot in the interagency, and in my experience the 
interagency really only works because of personal 
relationships. The problem I always saw was that there is not 
an institutionalized reason to cooperate. There is not an 
institutionalized requirement to share information.
    Has that improved at all? Are there ways to improve that?
    Mr. McGarrity. I would say from the operational side on the 
Joint Terrorism Task Force, as I served on the one in New York 
City, and I have been stationed to the CIA as a detailee, I 
would say right now within the USIC and our State and local 
partners the partnerships are the best we have ever seen.
    Mr. Murphy. Sir, as a member of DHS now, the previous 20 
years I was in the FBI and led and was a part of multiple 
JTTFs, I would agree with that. I know from the departmental 
perspective now, through the FBI's leadership on these task 
forces, it continues to just be, for the most part, a few 
people I am sure out there really well led, and it is a good 
process.
    Mr. Crenshaw. Thank you.
    I am out of time. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you.
    The Chair now recognizes the gentleman from Rhode Island, 
Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank our witnesses for being here today and your 
testimony.
    If I could, for Mr. Wiegmann and Mr. McGarrity, based on 
the testimony that you all have given today, it is clear that 
the Justice, FBI, and DHS all consider domestic terrorism a 
threat. So therefore I want to talk about prioritization.
    Mr. Wiegmann, you state that only 2 of the more than 40 
National Security Division attorneys assigned to 
counterterrorism focus on domestic terrorism. So is this 
reflective of the threat?
    Mr. Wiegmann. No. Just to be clear, all 40-plus attorneys 
in our Counterterrorism Section are available to work on both 
domestic and international terrorism matters. We don't have 
kind of dedicated, like, split-up between domestic terrorism 
prosecutors and international terrorism prosecutors.
    We do have a domestic terrorism counsel who focuses 
exclusively kind-of on our National program and two attorneys 
who support him and work on that work. But they are also 
available to do international terrorism matters as well.
    So the way we do it at Department of Justice is all of our 
attorneys who are specialized in counterterrorism can work 
either international or domestic terrorism cases. So all 40-
plus attorneys are available for both, and what they work on 
depends on what threats are coming in the door and what cases 
are coming in.
    Mr. Langevin. So in terms of cases that you charge, do you 
charge 20 times as many foreign terrorist cases as domestic 
terrorism-related cases?
    Mr. Wiegmann. I couldn't give you an exact number on that 
in terms of how many we charge. You have to remember also that 
a lot of domestic terrorism cases are charged at the State 
level as well, more so than probably on the IT side. So you 
have to take those into account.
    Then the domestic terrorism side, some of them are charged 
as hate crimes under the Civil Rights Division, could even be a 
tax offense, tax protestors are anti-government. So in 
comparing the numbers you really would have to look across the 
broader spectrum.
    Mr. Langevin. Mr. McGarrity, a November 2018 New York Times 
Magazine article reports that the FBI counterterrorism agents 
candidly admitted that domestic terrorism is seen as a 
backwater and that the only path to advancement was through 
international terrorism cases.
    Is that true? How do you and the FBI leadership balance 
international terrorism and domestic terrorism?
    Mr. McGarrity. Well, first let me go back to where--as far 
as the prioritization, from the FBI perspective, 
counterterrorism, preventing a counterterrorism attack in the 
United States, was, still, and will be, as far as I can see, 
the No. 1 priority of the FBI. So that is still our No. 1 
priority.
    We don't differentiate between a domestic terrorism attack 
we are trying to stop or an international terrorism attack. It 
is a terrorism attack we are looking to stop. So as far as our 
priorities, it is our No. 1 priority in the FBI.
    As far as domestic terrorism being sleepy, I don't know who 
the source of that article was. I can tell you the passion and 
the way we run our day from early in the morning to late at 
night, through phone calls at night, no one asks whether it is 
domestic terrorism or international terrorism when the threat 
comes in. We work the threat.
    I would also argue that if you look at our leaders, a good 
example, former deputy director of the FBI, Mark Giuliano, 
actually came in, he was the Domestic Terrorism Operations 
Section chief. He was in charge of domestic terrorism 
operations, moved into my position as the assistant director of 
counterterrorism, moved into the executive assistant director 
of the National Security Branch, until he became the deputy 
director of the FBI.
    So I would argue whoever made that comment, maybe that was 
the case years ago. I can tell you, it is certainly not the 
case now, in this FBI right now, and certainly not the case in 
the Counterterrorism Division.
    Mr. Langevin. OK. Thank you for clarifying.
    Mr. McGarrity, in your testimony you reference the fact 
that firearms remain a weapon of choice for domestic 
terrorists. Like many of my colleagues here, I believe that we 
need to do more for gun violence prevention. However, I am also 
worried about the emerging avenues of attack, such as through 
the use of cyber tools.
    Does the FBI currently evaluate domestic terrorist cyber 
threat actors through its responsibilities under PPD-14? How 
are terrorist capabilities to conduct disruptive or destructive 
cyber incidents evolving?
    Mr. McGarrity. So within the FBI we certainly have a 
Counterterrorism Division and Cyber Division. I will tell you, 
though, most criminal violations the FBI works have some form 
of cyber to it. That is just the way we are working now.
    As far as a threat, I have not seen domestic terrorism 
using cyber per se to do an attack, but certainly if we saw it, 
we would be working it like any other threat, and we would 
certainly be leveraging the expertise of our Cyber Division.
    Mr. Langevin. I see my time has expired. Thank you for your 
testimony.
    Mr. Chairman, thanks for holding this hearing. I yield 
back.
    Chairman Thompson. Thank you.
    The Chair now recognizes the gentleman from Texas, Mr. 
McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    I thank the witnesses.
    I, chairing this committee for 6 years, we saw this come up 
multiple times, one time in my home town of Austin, Texas, the 
Austin bomber. When asked, is this an act of terrorism, of 
course it is. It was random. I want to commend the FBI for the 
great work you all did in bringing that chapter to a close and 
saving lives. It was a great joint effort on the JTTF and with 
Austin police.
    But as that unfolded, we looked at the issue of domestic 
terrorism. I know as a former Federal prosecutor there is a 
definition and cases can be opened as domestic terrorism cases, 
but there is no charge of domestic terrorism.
    There is international terrorism, and we see that many 
times in the cases we prosecuted against ISIS and al-Qaeda and 
other extremist groups, but there is no charge for domestic 
terrorism. I think that is kind-of getting to the heart of this 
hearing.
    I was just curious what your thoughts would be on Congress 
enacting a domestic terrorism charge. What would be the 
benefits or risks of doing that? If I could just go down the 
panel.
    Mr. Wiegmann. I can take that.
    So we are always looking to improve our authorities, and so 
I think we are certainly open to having a discussion with the 
Congress if there is interest in the Congress in pursuing a 
domestic terrorism statute. We are certainly open to having 
that discussion.
    I think you have to think about exactly what issue you are 
trying to fix. As I have talked about in my opening testimony, 
we do have a number of statutes that we use in these domestic 
terrorism cases. So the question is, what gap would it fill 
exactly?
    We probably would not want, the one thing I would say, 
something that is similar to what we have on the international 
side, which is designating foreign terrorist organizations. We 
are not going to want to for good policy reasons that I think 
the committee on both sides of the aisle would share.
    Designating domestic groups as domestic terrorist 
organizations and picking out particular groups that you say 
you disagree with their views and so forth is going to be 
highly problematic in a way that is not when you are 
designating al-Qaeda or ISIS or an international terrorist 
organization.
    So there is not going to be a precise analog on the 
domestic side, but that is not to say that there aren't other 
ways we could do, maybe analogizing to our current hate crime 
statutes, that would be something that we could do that would 
be broader on domestic terrorism.
    Mr. McCaul. Under a hate crime?
    Mr. Wiegmann. Kind-of like hate crimes except focused on 
domestic terrorism and the definition that we have in the code. 
So it is certainly a discussion that we are open to having with 
the Congress if there is interest.
    Mr. McCaul. I tend to agree. I think that is a better 
approach than labeling domestic terror organizations within the 
United States. It gets sort-of problematic.
    Can you tell me how many domestic terrorism charges we have 
brought, like, last year, for instance?
    Mr. Wiegmann. So I don't have an exact figure on that. I 
would imagine it is somewhere between zero and 100, but I don't 
know the--I don't have an exact number.
    Mr. McCaul. OK. How many international terrorism cases did 
we bring last year?
    Mr. Wiegmann. I just don't have that handy with me either 
today, unfortunately. We could try to get you that number.
    Mr. McCaul. OK.
    Yes, I think this is the issue the Chairman and I talked a 
lot a lot about. We would like to get to a place, you know, 
bipartisan to resolve some of this, because I think when you 
look at cases like the Austin bomber, it is hard for me to say 
that wasn't an act of terrorism. It certainly was.
    So how do you go beyond just the definition of domestic 
terrorism? Perhaps it is under a hate crime-type law. Of 
course, in that case I think he would have been charged with 
capital murder under Texas law and that is the ultimate 
punishment. A hate crime doesn't have that sort of penalty 
provision to it.
    Mr. Wiegmann. No, it does. If death results, the death 
penalty is available.
    Mr. McCaul. So under the hate crime?
    Mr. Wiegmann. It can be, yes.
    Mr. McCaul. OK.
    Mr. Wiegmann. I think Dylann Roof, for example.
    Mr. McCaul. Then perhaps, Mr. Chairman, that could be a way 
to look at this perhaps under the hate crimes statute. I think 
that is a good answer.
    I yield back.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes the gentleman from Staten Island, 
New York, Mr. Rose.
    Mr. Rose. Mr. Chairman, thank you so much for the 
opportunity.
    Mr. Murphy, you mentioned earlier the Global Internet Forum 
to Counter Terrorism, GIFCT. Is that correct?
    Mr. Murphy. Yes, sir.
    Mr. Rose. So the social media companies recently came 
before us and they humble-bragged about this forum, that they 
had established it.
    So my first question is, to each of you, were you aware of 
this forum? Have you had any direct communication with this 
forum? If so, how often? That is both you as well as your 
office.
    Let's start with Mr. Murphy.
    Mr. Murphy. Sir, thank you for the question.
    Under the offices that I manage, I don't have direct 
engagement with that forum. Rather, our intelligence 
professionals provide background information and other things 
to the rest of the Department that does engage. So we kind of 
serve as that node by which we help our officials that are 
going to be there understand what the issues are and be best 
informed to talk about them.
    Mr. Rose. OK.
    Mr. McGarrity. From the FBI perspective, we are absolutely 
involved in that process.
    Mr. Rose. But, Mr. McGarrity, were you aware of this actual 
organization, is my question.
    Mr. McGarrity. Yes. In fact, part of that is the Aqaba 
Process. There was a recent meeting just here in California, I 
was present there, with members of DHS, Secretary Nielsen, and 
others, with the social media companies. I was actually at that 
meeting.
    Mr. Rose. Good.
    Mr. Wiegmann. So, yes, I am aware of the organization. We 
have had at least some contact with companies that are part of 
the forum, the Counterterrorism Forum. So we are aware of it 
and have tried to, working principally through the FBI, to 
encourage them to address terrorists' use of the internet.
    Mr. Rose. You know, one thing that I think we are seeing 
here is that there isn't an institution in place for strong 
public-private partnerships as it pertains to social media, as 
far as we can see.
    Do you see any established public-private partnerships with 
social media? In other words, is there an institutionalized way 
for law enforcement to quickly and efficiently share 
information with social media companies or vice versa?
    Mr. McGarrity, we will start with you.
    Mr. McGarrity. Well, there is absolutely a way to do it, 
and we do do it, as far as sharing information when we see 
threats. We will absolutely go through our private-sector 
engagement offices within the FBI to do that.
    Specifically with the Aqaba Process, what the social media 
companies are wrestling with are different countries. So you 
have Europol who is looking to put forth legislation from a 
European Union mindset, you have the United States, and the 
First Amendment, and you have other countries.
    So they are trying to wrestle with different terms of 
service in different parts of the world and what that means as 
they go through that.
    But we certainly, when we see something, we have within the 
Counterterrorism Division, we stood up an entire section. We 
call it strategic partnerships. That is to work with the banks, 
to work with the shippers, and to work with the social media 
companies.
    Mr. Rose. OK.
    Does anyone else have anything to add on that?
    Mr. Murphy. I would just say, from under my office as well 
as my knowledge of the process, we have a similar effort that 
we work in tandem with our partners here in terms of outreach. 
We work every day to try to educate them on the threats and 
make sure that they have the information they need to make 
their private company decisions off of that.
    Mr. Rose. Let's talk about 8chan. Is anyone aware of any 
direct outreach or communication with the owners of 8chan or 
the administrators? Have they contacted you?
    Mr. McGarrity, we will start with you.
    Mr. McGarrity. I am not aware of specific contact between 
the FBI and 8chan, but I can follow up and see.
    Mr. Rose. Yes. I mean, I am especially concerned about this 
because all of this is based off relationships. We know that 
much of this is happening on 8chan, and if we have not had any 
direct contact with the administrators of 8chan, then I am not 
sure what protocols we have in place to make sure that 
materials are taken off 8chan as quickly as possible.
    Mr. McGarrity. Well, so certainly First Amendment, we are 
prohibited from reviewing, looking at First Amendment activity. 
So if it is speech, if it is ideology, and it might be alarming 
as it is, we are prohibited from that.
    But our contact with 8chan on an operational side, if we 
are seeking something through judicial process or legal 
authority, I can get back to you on how much interaction there 
has been.
    Mr. Rose. That would be great. Thank you.
    Mr. Murphy, do you have anything to add?
    Mr. Murphy. Sir, I am not aware of--I will have to get back 
to you to determine whether there has been contact or not.
    Mr. Rose. Thank you.
    Last, ghost guns. None of you mentioned it directly in your 
testimonies. Is there anything you would like to note 
particularly about ghost guns? Do you view this as a threat for 
the future?
    Mr. McGarrity.
    Mr. McGarrity. Ghost guns are certainly something we 
briefed up within the Counterterrorism Division, as well as the 
Criminal Division within the FBI, as something that is 
concerning, that you could have a weapon out there that is not 
traceable, absolutely.
    Mr. Murphy. I would say from the Department's perspective, 
we are tracking it, and we have concerns about it both from an 
infrastructure protection side. The Department is continually 
trying to refine its efforts to stay abreast of technology so 
that we don't have an adversary's ability to get, whether it is 
a ghost gun or whatever the weaponry is, into infrastructure.
    Mr. Rose. Fantastic.
    Mr. Wiegmann, is there anything else?
    Mr. Wiegmann. No.
    Mr. Rose. Mr. Chairman, thank you.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentlelady from Nevada, Ms. Titus.
    Ms. Titus. Thank you very much, Mr. Chairman.
    When you are just about the end of the line, you get to 
hear everybody ask your questions. But I made a few points I 
want to go back over, if you don't mind.
    I have heard repeatedly that this is a collaborative 
effort, and I know that is the case with Federal agencies, 
local law enforcement. I visited a fusion center in Las Vegas. 
It is so good not only at trying to prevent incidences, but 
reacting to instances like the shooting that occurred in my 
district. So I appreciate that.
    I also heard you talking about collaborating with the 
private sector. I would say that nobody does security in terms 
of expertise and technology better than the people in my 
district. The eye in the sky sees just about everything that 
goes on there. So I would encourage you to work with them as 
well, and I suspect you probably do.
    Going back to Mr. Katko's comments about ``see something, 
say something,'' I know when that first came out there was a 
lot of emphasis on it, a lot of excitement about it, but you 
admitted that that book was out of date, and we haven't seen 
much about it recently. I think we need to maybe revisit that.
    I heard about a test not long ago where in Israel they put 
a backpack under a seat in an airport, and within 2 minutes 
somebody had seen it and reported it. They did the same thing 
under a seat in an airport in the United States, and within 2 
minutes somebody had seen it and stolen it. So that is kind-of 
what we are up against, so maybe we need a little more emphasis 
on this.
    One other thing that was mentioned about the militia. I 
have heard the term ``sovereign citizens.'' They are anti-
government. In fact, our attorney general, Aaron Ford, said 
that they are probably the largest threat, domestic violence 
threat in Nevada. In my district alone, in Clark County, there 
are 500 identified people who belong to this kind of movement.
    I just wondered if you would address them, or if it is the 
same as militia, or do you deal with them a little differently.
    One other thing is, I haven't heard mentioned animal 
cruelty. So often when you track people who have aberrant 
behavior and you see them on the internet, you see some 
evidence of real animal cruelty in their past.
    Do you have any way of overlaying this kind of information 
as you look for those red flags that have been mentioned?
    Finally, one form of domestic terrorism that hasn't been 
addressed is against abortion clinics and abortion doctors, and 
that seems to have been stepped up with the President's 
rhetoric that has just been very inflammatory and some outright 
lies.
    But a recent report said that providers have experienced 
823 acts of trespassing, 1,700 acts of obstruction, 62 death 
threats, and 104 clinic blockades. Maybe you could address what 
you all are doing in that area as well.
    Thank you.
    Mr. McGarrity. So I think I can certainly start.
    So obviously sovereign citizens, environmental rights, as 
well as animal right-type cases, those extremist cases in that 
category, as well as abortion rights extremists, they are 
categories for us in how we look at domestic terrorism. So to 
have that category, we absolutely are working those type cases.
    As far as the sovereign citizen extremist cases, obviously 
the harassment and targeting of law enforcement and Government 
personnel is a concern. We do see those cases. We have a fair 
amount of those cases.
    When you look at the 850 total, a fair amount of them are 
sovereign citizen cases, and those are cases that certainly, by 
differentiating themselves from the U.S. Government and not 
abiding to the laws, certainly could become violent when 
confronted with law enforcement, whether it is serving a 
subpoena, a lien, or any judicial process.
    So it is certainly of concern and certainly, from the 
numbers, certainly something we are looking at.
    As far as animal rights, environmental rights extremists, 
certainly less on that. That threat has gone down in the sense 
of what we saw in years past as far as organized groups doing 
things. We don't see as much from some of those groups you 
would think about from 15, 20 years ago, but from our sense, 
still a priority.
    In fact, we just did a transfer of custody of an 
environmental rights subject who has been on the lam for over 
15, I think almost 20 years. We tracked him around the world 
into South America, Central America, and we brought him back 
from Cuba, of all places, to stand trial in Portland. So those 
type of cases are very important for us.
    The abortion extremist cases, obviously whenever you are 
looking to, on either side of that issue, when you are looking 
to use violence to pursue your goal, it is of interest to us. 
We, again, may have less of those cases, but once you get into 
the violence, for us, you are into our realm, and that is where 
we are looking to disrupt you.
    So it doesn't matter on which side. If you are pushing 
violence to pursue your ideology, we are aggressively 
investigating you.
    Mr. Murphy. Very briefly. So, yes, I mentioned before, it 
is in my written testimony, which has been submitted as well, 
that we are looking to build upon the suspicious reporting 
system which started after 9/11. We have a new program. I have 
mentioned it before to the committee. We are happy to get with 
your staff and yourself and give you a full briefing on it.
    Specific to the Las Vegas fusion center, we have full-time 
folks there, and we look forward to continue supporting the Las 
Vegas fusion center and the work they are doing to look at 
violent behaviors. Any way we can support that fusion center as 
a best practice, we are taking a look at that right now.
    Ms. Titus. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes the gentleman from Texas, Mr. 
Taylor.
    Mr. Taylor. Thank you, Mr. Chairman. I appreciate you 
having this hearing.
    I wanted to go to a case that I know relatively well 
because it is close to my house. There was a Plano West High 
School student who was arrested last year. He had self-
radicalized into Islam and had made plans to conduct an attack 
on a Hindu mosque in my community and then go attack a mall 
where I like to take my daughter to go ice skating.
    He was arrested. He was caught by the FBI, arrested. But 
then he ended up being prosecuted not by the Department of 
Justice, but by the Collin County district attorney because 
Federal law does not allow prosecution of terrorists who are 
17.
    So he was actually sentenced, I believe, a few weeks ago in 
Collin County with such a prosecution, obviously it seems with 
the blessing of the FBI and the DOJ and their support in that 
prosecution.
    So my question, to take that specific case, which is very 
close to my house, I drove past Plano West High School on the 
way to get work here yesterday. Taking that personal or 
specific example to my community, what laws are getting in the 
way of you prosecuting terrorists that requires the State to 
step up and prosecute terrorists?
    Mr. Wiegmann. So without commenting on that specific case, 
juveniles under the Federal system can sometimes be transferred 
to adult status, is my understanding, and so it is really in 
every case we are going to depend--we are going to evaluate on 
the facts of the case, whether it is a DT case, or less often 
an IT case, whether the best means of neutralizing the threat 
is a State charge or a Federal charge.
    So it could be in the case you are talking about the 
decision was a discussion between the prosecutors at the State 
level and the Federal level, and they said the State charge is 
actually the most effective way of dealing with this threat 
because they are going to get the longest sentence, or they are 
going to have flexibility or, based on the evidence, whatever 
it might be, that the State charge is best.
    So that is a dialog that occurs between State prosecutors 
and Federal prosecutors, particularly on the domestic terrorism 
side. That is a frequent occurrence to have those discussions. 
So that is our overall approach. I don't know if that answered 
your question.
    Mr. Taylor. Sure. No. Let me just say, I have a lot of 
confidence in the district attorney in Collin County, Judge 
Willis. He does a great job. He has got a great team of 
prosecutors there. Obviously, justice was done in that case.
    But my broader question is, what frailties exist in Federal 
law now that make it so that you are literally looking to the 
State of Texas to prosecute a case rather than the Department 
of Justice?
    Mr. Wiegmann. So it really depends on the facts of the case 
as to whether an individual case is going to be prosecutable 
under Federal law. Not every case falls under the domestic 
terrorism side.
    As we have talked about, we can use gun charges. We use 
explosive charges. We use threat and hoax charges. We can use 
hate crimes. There is a whole array of charges, but there could 
be a fact pattern.
    I don't know if the case you mentioned is one of them. If 
it doesn't meet the standards for any of those cases, so it 
falls between the cracks, and it might be a garden-variety 
murder case, and it is easy to prove that murder offense under 
State law, but it doesn't qualify for any of the other things 
under Federal law, so they are going to bring that as a State 
case.
    Mr. Taylor. If you don't mind looking into this and seeing 
what frailties there are in Federal statute where we are trying 
to go after terrorists, and then end up, instead of doing it--
again, I think counterterrorism is truly a Federal 
responsibility. I appreciate that sometimes our State partners 
are the right people to go do these things, and I know Judge 
Willis was glad to serve justice in this case. If you could 
look at that and then circle back with my team. I would like to 
have a further conversation in this committee about making sure 
we bring terrorists to justice at the Federal level.
    I have a minute left. I just wanted to go into another. So 
hate crimes under the FBI, there was a 17 percent increase, 
2017 over 2016. I also noticed that we have a thousand more new 
law enforcement agencies reporting that kind of data to the 
FBI.
    So sometimes in an effort to be more holistic and collect 
more data, you increase your numbers. Then people say, ``Oh, 
there has been an increase.'' But really, have you looked at 
what it would have been if you hadn't added those thousand 
agencies?
    In other words, is it just how we are collecting it, or is 
it, because we are collecting more data, we have a bigger 
number, so it looks like there is an increase when actually 
there wasn't?
    Mr. McGarrity. So from my vantage point, sir, under the 
Counterterrorism Division, I don't own the civil rights hate 
crimes, but I do know from hearing about it that obviously it 
is something we are doing more of, and more departments and 
agencies are reporting it. So if they want to give some time to 
see if there are actual increases or not due to the new data 
that wasn't there before. Again, that doesn't fall under the 
Counterterrorism Division where I work.
    Mr. Taylor. Have you gone back and relooked at these 
numbers and excluded the thousand new agencies? Is that 
possible? Is that an ask?
    Mr. McGarrity. I don't know what they are doing on the 
criminal side of the FBI. I do know they are cognizant of the 
increase and determining whether it is just an increase in the 
data collection and the reporting or is there actually an 
increase in hate crimes. I can't answer that. I just know it is 
an issue they are looking at.
    Mr. Taylor. All right. Thank you, Mr. Chairman. I yield 
back.
    Chairman Thompson. Thank you.
    The Chair now recognizes the gentleman from New Jersey, Mr. 
Payne.
    Mr. Payne. Thank you, Mr. Chairman, and thank you for 
having this hearing.
    I am going to hold this up for a second so everybody can 
get an idea.
    Mr. Murphy, are you acting under secretary or are you the 
real deal?
    Mr. Murphy. I am the No. 2 in terms of the intelligence 
enterprise. Under Secretary Glawe is in place.
    Mr. Payne. But you are not acting?
    Mr. Murphy. I am not acting, no.
    Mr. Payne. That makes two of you in the entire 
administration that is not acting, but that is for another day.
    Mr. Murphy, in early 2017 we learned that personnel in your 
office sent several emails concerning a document referred to as 
the ``Race Paper.'' Over a year ago, racial justice 
organizations filed a lawsuit against DHS to release the 
contents of the agency's memo referred in the Government 
documents as the Race Paper. Thus far, only a completely 
redacted memo, which I just held up, of 9 pages has been 
released. Understandably, we are concerned that DHS has a 
document which we have not seen called the Race Paper.
    Can you please describe the contents of the Race Paper to 
the extent possible?
    Mr. Murphy. Sir, thank you for the question.
    I am aware of the paper that you are talking about, and we 
follow the Freedom of Information Act to the letter, so 
everything we provide goes through our Privacy and Civil 
Liberties Office for release.
    With respect to, I think, the paper you are holding up, I 
will say that it was--a draft of a paper was done by a very 
junior individual within our organization. The folks in the 
chain reviewed the paper, rightfully decided it did not meet 
the parameters for publication, and the project was terminated.
    That paper, along with a lot of other drafts that our 
analysts review and try to bring out, they go through a very 
rigorous process before we hit ``send'' on that product and put 
our seal on it. I would note that within the----
    Mr. Payne. Well, who requested the draft?
    Mr. Murphy. I am sorry, sir?
    Mr. Payne. How did the draft get created?
    Mr. Murphy. So all of our analysts look at the various 
threat lines that we are monitoring and have the latitude to 
help explain those threats.
    One of the issues I brought up in the beginning of this, of 
my testimony----
    Mr. Payne. So there is a need for a Race Paper?
    Mr. Murphy. One of the--I don't think that the email tag 
line that you are referring to is the way that I would 
characterize that draft paper.
    Mr. Payne. How would you characterize it?
    Mr. Murphy. I would characterize it as a draft paper that 
when it was reviewed by the first line supervisors was killed.
    Mr. Payne. Can DHS release an unredacted copy to Members of 
Congress?
    Mr. Murphy. Sir, so we will continue to follow the FOIA 
regulations with respects to that. With the oversight 
responsibilities of Congress, we were happy go back and I will 
work with staff to see what is possible.
    Mr. Payne. OK. Two years after we have learned that the DHS 
had a secret document, something known as the Race Paper, 
Congress and the public still haven't seen the contents of this 
document, but we do know some of the circumstances surrounding 
the release of the Race Paper, and they suggest that race is 
very concerning.
    For one thing, it was released in connection to a FOIA 
request related to the Black Lives Matter movement. Why would 
that be?
    Mr. Murphy. So, sir, the paper was never released.
    Mr. Payne. Does the Race Paper include information on 
targeting individuals who peacefully protest against police 
violence or other racial injustice?
    Mr. Murphy. Sir, any paper that, as a professional, that I 
put my name on and seal of the Department goes through a 
rigorous process.
    I would also advertise that in the 17 intelligence agencies 
of the U.S. Government, last year, and as well as the year 
before, we were either No. 1 or No. 2 in terms of the quality 
of the information that the men and women of my office put out. 
Part of that includes whether we reach the standards.
    Mr. Payne. OK. My time is coming to an end.
    Does the Race Paper suggest techniques for surveilling 
Black activists who protest against police violence?
    Mr. Murphy. So, sir, again, we don't have a Race Paper.
    Mr. Payne. Well, this thing exists to some degree. Whether 
it was a draft or whatever it was, somebody thought to do it.
    But my time is coming to an end.
    This is very troubling, you know. I pledge my allegiance to 
a flag every single day that says that we all are created equal 
and are allowed to be citizens and justice is meted out 
equally. This doesn't sound like this is the case.
    I yield back.
    Chairman Thompson. Thank you.
    The Chair now recognizes the gentlelady from Florida, Mrs. 
Demings.
    Mrs. Demings. Thank you so much, Mr. Chairman, and thank 
you for having this very important and timely hearing.
    Thank you to our witnesses for joining us today.
    Mr. Murphy, I am directing my questions to you. As a former 
law enforcement officer, I certainly understand the importance 
of timely and appropriate information sharing, how important 
those intelligence reports are to local, particularly local law 
enforcement, in terms of helping them to plan and strategize 
for an appropriate response.
    Information is so valuable. It can really be a force 
multiplier for law enforcement agencies having to deal with 
oftentimes the unknown in their community.
    So I, first of all, want to thank you for the work that you 
are doing in that area to help those on the front line be 
adequately prepared. But, however, there does, with the good 
work that you are doing, there still continues to appear to be 
some gaps in the process.
    I am particularly concerned that information regarding 
White nationalist gangs and violent fringe White movement 
groups is not being shared with State and local law enforcement 
even when they specifically seek it.
    I know I missed the earlier discussions about trying to 
balance First Amendment rights, but, of course, we are also 
trying to keep our communities safe every day.
    In November, The New York Times reported that the 
Gainesville Police Department, which is--Gainesville is a city 
in Florida--was not provided relevant information leading up to 
the speech of Richard Spencer, a White nationalist whose public 
comments often ended in bloodshed.
    Of course, Gainesville is a college town. It is a short 
drive from my district in Orlando. But a police commander with 
that Department said that--the person had 24 years of 
experience so knows the job very well--described the lack of 
information from the FBI and DHS as the Bermuda Triangle of 
intelligence.
    So unable to receive what he thought was appropriate or 
relevant information, useful information, he went on-line 
himself and did, indeed, find that the violent White 
nationalists, who ultimately descended on the campus, were not 
hiding. They were on social media networks, on message boards, 
talking about how they were going to test Florida's stand your 
ground law. Eventually descended upon the city, opened fire on 
protesters. Thank God no one was killed that day. They were 
ultimately arrested.
    But I would like to ask you, Mr. Murphy, as we balance 
First Amendment rights, and I certainly understand what the 
Constitution requires us to do, what are the lessons learned 
for you and your Department as it pertains to events like the 
one in Gainesville and even the one that we are all familiar 
with, Charlottesville? Could you talk a little bit about how 
the Department actively collects, reviews, and shares 
information specifically involving these type of groups?
    Mr. Murphy. Yes, ma'am. Thank you for the questions.
    So in my written statements and some of the charts I 
provided, we basically--one of the many things we do is run 
what is called the Homeland Security Network, or HSIN-Intel, 
and we have posted approximately 40,000 products on that site. 
They are not just DHS products, they are State and local 
products. They are also the products of virtually every Federal 
agency that does work in the domestic space.
    We continually improve that site. Since 2016, that site 
has--the quality of products we are putting on there has 
increased, and we know that by measuring it in a couple of 
different ways.
    One of the metrics is that we have increased the volume of 
products by 64 percent. We also look at how often and what 
actual products are reviewed. So we have seen an approximately 
325 percent increase in the number of views.
    Then we ask for metrics back from and qualitative and 
quantitative responses from our colleagues, which is 
exclusively State and local law enforcement, is do these 
products matter. We see the products get upwards of about a 90 
percent approval rating.
    All of that said, that is just one technical fix. We are 
also mindful that we have to continually advertise that this 
exists to State and local colleagues. As people change, they 
are coming out, they are busy, you know, we want to make sure 
it is as user-friendly and we provide it as often as we can.
    We have increased the number of our field----
    Ms. Demings. These were lessons learned in terms of sharing 
of information post-Gainesville, post-Charlottesville, or were 
these processes in place prior to those events but somehow 
failed?
    Mr. Murphy. I would say, ma'am, that they have been on-
going since 9/11 on forward. So we continue to learn from all 
information-sharing experiences that we have.
    We have increased the number of personnel that we are 
deploying to the field since 2016. They are not in response 
specifically to the two incidences that you described, but we 
certainly understand the importance of deploying our personnel 
so they have that first-hand experience in exposing and hearing 
back from our State and local colleagues what they need.
    In response to your question, there is not a day that goes 
by that I don't challenge my entire team to make sure that any 
Classified information reporting from other agencies--we 
encourage those agencies to get out that information to our 
State and local colleagues.
    We don't get pushback. I think it is just awareness, in my 
experience, with the interagency writ large.
    The last thing I will just say to this is it is a 
continuing effort that we need to make, and we strive every day 
to push that along. We engage in virtually every State and 
local organizational meeting that is out there, and we look 
forward to continuing those. I know most of the leadership on a 
first-name basis.
    I will continue to try to make myself, and I know my boss, 
the under secretary, will, and our staff, enjoys those 
experiences, and we learn quite a bit how we can help out our 
State and local colleagues.
    Ms. Demings. Thank you.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you.
    The Chair now recognizes the gentleman from California, Mr. 
Correa.
    Mr. Correa. Thank you, Mr. Chairman. I want to thank you 
very much for having this most important hearing.
    As you know, the increase in domestic terrorism is 
alarming. Last year I called for a hearing immediately after 
the Charlottesville and Pittsburgh domestic terrorism acts. 
None were held. That is why I thank you for doing this today.
    Gentlemen, this last week I was back home, and I held 
private townhalls with the Jewish community and the Muslim 
communities in my district. Since Poway was right down the 
street from us, so to speak, these issues hit home for all of 
us.
    Speaking to my local school district, constituents who live 
around my local high school that I attended, a lot of 
constituents were upset because the high school is building a 
fence around the school that makes it look like a prison. When 
I talked to the administrators, they said, ``Lou, this is about 
safety.'' Not only are they putting up a fence around most of 
our schools, we are also putting in hundreds of cameras, all of 
our schools.
    We have gotten into a bad situation in society where our 
fear for domestic terrorism, people that may live in our own 
communities, we are afraid of.
    The biggest challenge is going after the lone wolves, the 
folks that you just can't figure out what triggers that act of 
hate that leads to deaths. Of course my prayers go out to the 
families in Colorado that have suffered in the last few hours.
    My question to you, gentleman, is how are we working with 
the locals? In Orange County, Sheriff Barnes has a fusion 
center, always says: We are doing a great job, Lou, but we need 
more resources. We need more resources to track the lone 
wolves.
    What is it that we can do? What is it that we need to do to 
go after these domestic terrorists? Because I get a sense from 
everything that I hear that we are very focused on foreign 
terrorists and that our resources are going there, but yet, 
when you look at the carnage in our society today, it is the 
domestics that are really hurting us. Those domestic terrorists 
are the ones that are changing our lives, how we act, how we 
behave, and how we invest our resources.
    My school district, instead of going for books and 
teaching, a big chunk of that money is now going to building 
fences, putting in cameras, and trying to figure out where to 
put those security guards.
    Give me your thoughts. How do we harden our society? How do 
we go after these lone wolves?
    Mr. McGarrity. So, you know, I think you characterized the 
threat and the state that we are in.
    I will tell you, on the domestic terrorism side, we arrest 
more people per year, at least in the last 2 years that I have 
looked back, than international terrorism. More people arrested 
that are domestic terrorism subjects than international 
terrorism subjects.
    Mr. Correa. But are we putting enough resources 
domestically or are most of our resources still going to the 
foreign terrorism?
    Mr. McGarrity. No. I mean, if you look at our case numbers, 
and our case numbers rely on tips from the community, our law 
enforcement partners, our analysis from within to see if 
someone is talking to someone, all those things, 50 percent 
come from the community, State, or local as far as our----
    Mr. Correa. So does our investment, our expenditure reflect 
that? You talk about cases. You talk about arrests. How about 
dollars spent? Are we spending enough on local?
    Mr. McGarrity. I don't split the difference between 
international terrorism and domestic terrorism when we have 
agents in the field working their cases. There is no--there 
might be a budget line item somewhere within our books back 
here for travel and stuff, but it is the same. It is agents----
    Mr. Correa. I am glad to hear that, that you are not 
splitting it based on that, but clearly that has got to be a 
focus on where the danger is coming from.
    Mr. McGarrity. Well, I think you said it. The lone actor is 
the problem set that we are dealing with, insular in nature, 
nonconspiratorial, not necessarily being directed or engaging 
with others. So you have lone offenders, lone actors, very hard 
to detect from a law enforcement perspective whether you are 
State, local, or FBI.
    Certainly for the FBI. We rely on sources. We rely on 
working with our Joint Terrorism Task Force and our task force 
partners to do that. But we will, time and time again, we said 
it here before, see something, say something. It is likely an 
individual, maybe a family member, more specifically a 
religious leader, a teacher, that will see a change in 
behavior, see a triggering event where they see an individual 
become radicalized quickly and mobilized to violence. We need 
that person to speak up and tell us.
    Mr. Correa. Mr. Chair, I am out of time, but one quick 
follow-up.
    Off-line I would like to talk to you a little bit more 
about how we continue to refocus on those specific issues, work 
with the local fusion centers to make sure that we are able to 
track down some of those folks that may blow up in our society 
before they blow up.
    Mr. Chair, I yield.
    Chairman Thompson. Thank you very much. We join you in your 
interest in pursuing that, too.
    The Chair recognizes the gentlelady from Texas, Ms. Jackson 
Lee.
    Ms. Jackson Lee. Again, Mr. Chairman, let me thank you, 
along with the Ranking Member, for this important committee.
    If my recollection serves me well, under your leadership, 
certainly as Ranking Member and as Members of this committee, 
we have championed or cried out for help and relief from the 
growing proliferation of domestic terrorism. It breaks my heart 
on the amazing silence we have had to encounter and the loss of 
life.
    So let me, first of all, join Mr. Payne. I would like to 
ask whoever has the document, the Race Paper, to release it in 
its entirety. I know that we do have the Black identity 
extremist report.
    So let me pursue a line of questioning. First of all, let 
me thank you gentlemen for your commitment to the safety and 
security of the American people. We always are proud of those 
who offer themselves to serve.
    Let me ask you the question of your knowledge of the 
importance of a bully pulpit for good reasons. The importance 
of a bully pulpit, Mr. Murphy, is it yes or no, important, on 
good comments, that that can be far-reaching?
    Mr. Murphy. I believe so, yes, ma'am.
    Ms. Jackson Lee. Mr. McGarrity.
    Mr. McGarrity. I don't think I understand the question.
    Ms. Jackson Lee. The use of a bully pulpit for a good 
reason, is that a positive thing?
    Mr. McGarrity. Yes. Anyone advocating for something good I 
would say is positive.
    Ms. Jackson Lee. The next witness, Mr. Wiegmann.
    Mr. Wiegmann. I agree.
    Ms. Jackson Lee. Thank you.
    I agree as well.
    So let me be very clear. The President of the United States 
has not done enough to deal with quashing the rising 
acceleration of domestic terrorism and hate in this country.
    He has a very important responsibility. He heads the 
Government. He gives guidance to the Department of Justice 
under the Attorney General. There has not been enough done.
    In fact, we see in the last decade domestic terrorism 
become an increasing concern in the United States. In 2018, 
domestic extremists killed at least 50 people in the United 
States, a sharp increase from 37 extremist-related murders in 
2017. It goes on to show how many were in 2015 and 2016, 70 and 
72.
    Right-wing terrorists, between 2010 and 2017, committed a 
third of all acts of domestic terrorism in the United States, 
92 out of 263. The ACLU and the Southern Poverty leadership 
group have indicated that hate crimes have moved up 
exponentially.
    Let me correct the record. I understand that previously it 
was indicated that the individual who did the dastardly act in 
Baton Rouge was a Black identity extremist. I understand he was 
a separatist, but he was also a member of the sovereign nation.
    So the question is, are we still blaming and using the 
terminology Black identity extremist? Anybody have an answer 
for that?
    Mr. McGarrity. I can say from the FBI, we haven't used that 
term since I have been here in 15 months, other than to prep 
for the briefing----
    Ms. Jackson Lee. I thank you very much.
    I don't want to point specifically to the exclusion of 
other hate groups, but I do believe it is important to focus on 
the rising emphasis of White nationalism and Nazism. They are 
glaringly in the limelight, starting from Dylann in Mother 
Emanuel, who professed that ideology, going to the Coast Guard 
individual that is right in the mix right now that is, frankly, 
having attacked or at least attempted attack of various public 
figures, to the gentleman professing his love for Trump in 
Florida attacking Members of Congress, and to Charlottesville.
    My question is, when is the President to emphasize to the 
Attorney General and to each and every one of you that your 
major and chief responsibility, besides all the technical 
things that we have to do, is dealing with White nationalism 
and Nazism? I am asking all three of you that question.
    Mr. McGarrity. I can take the first part. I can just 
highlight as far as domestic terrorism, I can tell you----
    Ms. Jackson Lee. White nationalism and Nazism. Please use 
that terminology. I understand they are understandable.
    Mr. McGarrity. So from the National Security Strategy for 
Counterterrorism this year which was put out, obviously it 
highlights violent extremism, such as racially motivated 
extremism, and domestic terrorism in the United States is on 
the rise.
    That is a statement, but obviously that is a strategy. What 
is going to be done to implement it? I can tell you the 
National Security Council, with the National Counterterrorism 
Center and DHS and the FBI, are now working toward an 
implementation plan on that strategy, as well as the rest of 
the United States intelligence community.
    So it is actually in the strategy. First time in years that 
I know of that domestic terrorism is actually highlighted in 
the strategy.
    As far as what we are being directed to do, like anything, 
we are being directed to preempt violent attacks by people who 
have an ideology that are trying to pursue whatever that 
ideology is, and that has been our mandate.
    Ms. Jackson Lee. May I just make an inquiry of you, Mr. 
Chairman, because the other gentlemen were not able to answer. 
I would like to have their answers in writing if I am not able 
to hear it at this point.
    But I would ask the committee, if we could, to ask, secure 
a specific request. I know that Mr. McGarrity--I have great 
respect for all of them--a specific request for their plan to 
move quickly on the issues of White nationalism and Nazism, in 
terms of a response to those particular issues, keeping in mind 
everyone's right to the First Amendment. I would appreciate if 
these two gentlemen could either answer or they could provide 
it in writing, to the Chair.
    Mr. Wiegmann. I am happy to answer, which is from a DOJ 
perspective, absolutely we are committed.
    As I said in my opening testimony, it was made clear today, 
regardless of the motivation of the threat, if it is White 
supremacy, if it is White nationalism, if it is any other kind 
of threat, we are absolutely committed to working with the FBI 
and with our colleagues at DHS to investigate, prosecute those 
cases. Some of the ones you mentioned are cases that we have 
prosecuted, and those were mentioned in my opening testimony.
    So again, we are absolutely committed to addressing that 
threat.
    Mr. Murphy. Ma'am, I am happy to answer now as well, and it 
is in my statements as well.
    We don't base how we pursue individuals who are pursuing 
violence or pursuing groups solely based on ideology. That, as 
you noted, is First Amendment. But those that seek to harm 
citizens or anyone in the world based on whatever the 
motivation is and there is violence involved, we certainly go 
after that on a daily basis, and we will continue to do that.
    I think our numbers in the overall domestic terrorism space 
bear that out. Since 2016, the amount of reporting we have put 
out on it has sharply increased, approximately 40 percent, and 
we look forward to working with all of our partners here to 
continue that reporting.
    I would also add that we work aggressively with the faith-
based community and with our partners here to make sure, where 
they happen to be a target, we can give them those resources 
they need, as well as other community coalitions that are out 
there. We look forward to continuing to do that.
    Chairman Thompson. Thank you.
    Ms. Jackson Lee. Thank you for your courtesy.
    Chairman Thompson. Thank you.
    The Chair now recognizes the gentleman from Texas, Mr. 
Green.
    Mr. Green of Texas. Thank you, Mr. Chairman.
    I thank the Ranking Member.
    I thank the witnesses for appearing.
    Dear friends, as witnesses, if you are familiar with--and I 
believe you are, I just want to build the record--if you are 
familiar with the KKK, would you kindly extend a hand into the 
air? I believe you are.
    Let the record reflect that all are.
    Are you familiar with their cross burning? They call it 
cross lighting. If you are familiar with them, I am sure that 
you know that they do, would you kindly raise a hand?
    All hands are in the air, for the record.
    Is it true that--well, they use this as a means of 
symbolizing their faith. They claim to be Christians, the 
members of the Klan, and in burning or lighting the cross, they 
are exemplifying their faith.
    I believe as persons familiar with the Klan, doing the kind 
of work that you do, you probably know this, too, but let me 
just ask you to raise your hands if you know this. Raise your 
hands, please.
    OK. All hands.
    Now, have we ever called--have you any information wherein 
it has been widely said that when a Klansman commits an act of 
terrorism that this was Christian terrorism? Has that ever been 
widely used, Christian terrorism? If the answer is no, do not 
raise a hand.
    No hands are up, so it has not been widely used.
    We do know that if persons of the Islamic faith commit an 
act of terrorism, there is a commonly used term: Islamic 
terrorism. Have you heard this term, Islamic terrorism? If so, 
would you raise your hand, please?
    All have raised their hands.
    I am putting you through this exercise because it seems to 
me that there is a mindset that has to be dealt with. When 
White men calling themselves Christians commit acts of 
terrorism, we don't define it as such. We don't say Christian 
terrorism. But if a person who is of the Islamic faith does it, 
we connect the faith to the violence.
    I don't think that the Klan is a Christian organization. I 
am the grandson of a preacher. I know that they don't live up 
to the tenets of Christianity. I don't think that those persons 
who are of the Islamic faith who may commit some violent act or 
who claim they are, I don't really think that that is Islam.
    I am mentioning this to let you know that we have a problem 
in terms of our mindset that we have to deal with.
    Next point quickly, and I will tie it all together. If I 
said there were some very fine people who among the bigots, the 
racists, the Klansmen in Charlottesville, there were some very 
fine people among them, would that be an appropriate thing for 
a Member of Congress to say? If you think so, raise your hand.
    Let the record reflect that no one has raised their hand.
    However, if the President says that there are some very 
fine people among those who were preaching, ``Jews will not 
replace us,'' ``blood and soil,'' if the President says it, is 
it appropriate for the President to say such a thing? If you 
think that it is not appropriate, raise your hand.
    If you think it is not appropriate for the President to say 
what you just said would be inappropriate for a Member of 
Congress to say, if you think it is not appropriate for the 
President to say there were some fine people among those folks 
in Charlottesville where a person lost her life, raise your 
hand. If you think it is inappropriate for the President to say 
it, raise your hand.
    Mr. Murphy. Sir, if I may, at least from the DHS 
perspective, I think the way we look at it and the way we go 
after these things----
    Mr. Green of Texas. Excuse me, please. I greatly appreciate 
your perspective, but I am limited on time.
    So you were quick, you had no problem saying that Members 
of Congress should not use such language, but you refuse to 
acknowledge that the President should not use such language?
    Mr. Wiegmann. If I could just jump in?
    Mr. Green of Texas. Yes. Quickly, please.
    Mr. Wiegmann. I would say for me personally, it is just not 
of my place as a career Government official to comment on what 
either Members of Congress or the President should say.
    Mr. Green of Texas. But you already did. Too late now, see.
    Mr. Wiegmann. OK. Well----
    Mr. Green of Texas. You already did. You already said that 
it is inappropriate for Members of Congress, but when it gets 
to the President----
    Mr. Wiegmann. I don't think I commented one way or the 
other.
    Mr. Green of Texas. No, no, no. You did. You are on the 
record. You raised your hand. You are on the record.
    Here is the point. We who hold public trust have to have 
the same standard for everyone, same standard for the KKK that 
we have for persons who claim to be of the Islamic faith. Same 
standard for--and they are not--same standard for the President 
that we have for Members of Congress. If you can't uphold the 
same standard, you are doing your country a disservice, my 
friends.
    I yield back the balance of my time.
    Chairman Thompson. Thank you very much.
    Let me thank the witnesses for their valuable testimony 
today.
    I would like a couple of items inserted in the record. One 
is a compendium of letters from 2011 to 2018 asking for 
hearings before this committee on domestic terrorism, just for 
the record.
    [The information referred to follows:]
                                  February 1, 2011.
The Honorable Peter King,
Chairman, Committee on Homeland Security, U.S. House of 
        Representatives, Washington, DC 20515.
    Dear Chairman King: I write to request that you broaden the scope 
of your examination of ideological-based violence.
    Terrorists of all ideologies seek to do Americans harm. According 
to a polling of State law enforcement agencies conducted by the 
Department of Homeland Security's START Center of Excellence, there are 
a variety of domestic extremist groups more prevalent in the United 
States than Islamic extremists, including neo-Nazis, environmental 
extremists, anti-tax groups, and others.\1\ Islamic extremist groups 
were named a threat in 31 States, according to the poll; Neo-Nazi 
groups, by contrast, posed a serious threat in 46 States.
---------------------------------------------------------------------------
    \1\ ``Surveying State Police Agencies about Domestic Terrorism and 
Far-Right Extremists.'' Joseph Simone, Jr., Joshua Freilich, and Steven 
Chermak. University of Maryland Study of Terrorism and Responses to 
Terrorism (Feb. 2008). http://www.stm1.umd.edu/start/publications/
research_briefs/20080221_State_agency_survey.pdf.
---------------------------------------------------------------------------
    Ideological-based violence of all kinds has been on the rise, 
according to a variety of indicators. As the incident in Spokane, 
Washington, this past Martin Luther King Day has shown, Islamic 
extremists aren't the only ones willing and able to utilize 
sophisticated devices intended to kill many Americans. In fact, three 
of the five CBRNE plots since 2001 were planned by White supremacist 
groups; none of them were attributed to Muslim extremists.\2\
---------------------------------------------------------------------------
    \2\ ``Building on Clues: Examining Successes and Failures in 
Detecting US Terrorist Plots, 1999-2009.'' Strom, et al. The Institute 
for Homeland Security Solutions (Oct. 2010). https://www.ihssnc.org/
portals/0/Building_on_Clues_Strom.pdf.
---------------------------------------------------------------------------
    While I share your concern about the threat posed to our nation 
from violence borne of ideologically driven extremism, I believe that 
this committee's exploration of the current and emerging threat 
environment should be a broad-based examination of domestic extremist 
groups, regardless of their respective ideological underpinnings. I 
hope you share my belief that in the final analysis, the ideology of a 
bomb maker matters less than the lethal effects of his creation.
    I look forward to working with you to further this Committee's 
mission and safeguarding our nation from all enemies, foreign or 
domestic.
            Sincerely,
                                        Bennie G. Thompson,
                                                    Ranking Member.
                                 ______
                                 
                                  October 15, 2012.
The Honorable Peter King,
Chairman, Committee on Homeland Security, H2-176 Ford House Office 
        Building, U.S. House of Representatives, Washington, DC 20515.
    Dear Chairman King: We write to you regarding the recent state of 
domestic terrorism incidents throughout the country. During this 
Congress, the House Homeland Security Committee held five hearings 
examining radicalization in the Muslim American community.
    At the inception of this series of hearings and throughout their 
occurrence, we have expressed deep concern about the scope of this 
examination and have urged you to include other groups that pose 
threats.
    In September, a jury in Cleveland, Ohio convicted 16 people of 
Federal hate crimes arising out of a series of religiously motivated 
assaults on practitioners of the Amish religion. These convictions stem 
from a series of separate hate-crime assaults that occurred in four 
Ohio counties between September and November 2011.
    In August, four St. John Parish, Louisiana, sheriff deputies were 
ambushed by members of the Sovereign Citizens organization. According 
to the FBI, this group is ``an extremist antigovernment group.'' The 
gunman critically wounded two deputies and killed two others. The nexus 
between this group and violent acts is not new. According to the FBI, 
an accomplice in the 1995 Oklahoma City bombing was a Sovereign 
Citizen.
    On August 5th, a gunman entered a Sikh temple in Wisconsin and shot 
ten worshipers, killing six, before turning the gun on himself. Initial 
reports reveal that the gunman had strong ties to the neo-Nazi and 
White supremacy movements.
    These events illustrate the fact that domestic terrorism is varied 
and unpredictable. By maintaining a narrow focus on one group, the 
Committee is missing the opportunity to investigate threats from other 
groups and ideologies.
    Taking up the issue of violent domestic extremism, in September, 
the Senate Judiciary Committee held a hearing to examine this 
threat.\3\ According to testimony in this hearing:
---------------------------------------------------------------------------
    \3\ ``Hate Crimes and the Threat of Domestic Extremism,'' Senate 
Judiciary Committee, Subcommittee on Constitution, Civil Rights, and 
Human Rights. September 19, 2012.

``The rising threat of domestic terrorism within the United States 
should not diminish our focus on deterring threats from al-Qaeda and 
its affiliates. Rather, our nation's intelligence and law enforcement 
resources need to be flexible and resilient in their ability to combat 
terrorism from all sources of violent extremism, including domestic 
non-Islamic extremists. The threat from domestic terrorism motivated by 
extremist ideologies is often dismissed and overlooked in the national 
media and within the U.S. Government. Yet we are currently seeing an 
upsurge in domestic non-Islamic extremist activity, specifically from 
violet right-wing extremists.''\4\
---------------------------------------------------------------------------
    \4\ Testimony of Daryl Johnston, CEO DT Analytics. ``Hate Crimes 
and the Threat of Domestic Extremism,'' Senate Judiciary Committee, 
Subcommittee on Constitution, Civil Rights, and Human Rights, September 
19, 2012.

    Given the noted upsurge in domestic, non-Islamic activity and the 
risk such ideologically-based violence may present to this Nation, we 
write to request that you hold a hearing on the threats posed by 
domestic terrorists when the House reconvenes in November.
            Sincerely,
                                        Bennie G. Thompson,
                                                    Ranking Member.
                                        Cedric L. Richmond,
                            Member, Committee on Homeland Security.
                                 ______
                                 
                                     June 23, 2015.
The Honorable Michael McCaul,
Chairman, Committee on Homeland Security, H2-176 Ford House Office 
        Building, Washington, DC 20515.
    Dear Chairman McCaul:
    I am writing to request that the Committee hold hearings on the 
threat of domestic terrorism. According to the Committee on Homeland 
Security's Oversight Plan for the 114th Congress, the Committee will 
``examine existing and emerging terror threats from domestic 
terrorists.''\5\ In a survey conducted by the Triangle Center on 
Terrorism, in partnership with the Police Executive Research Forum, 74 
percent of State and local law enforcement agencies reported domestic 
terrorism as one of the top three terrorist threats in their 
jurisdictions.\6\
---------------------------------------------------------------------------
    \5\ Oversight Plan of the Committee on Homeland Security. 114th 
Congress (2015).
    \6\ Kurzman, Charles and David Schanzer. ``The Growing Right Wing 
Terror Threat''. The New York Times. June 16, 2015.
---------------------------------------------------------------------------
    As you know, the Department of Justice has opened a domestic 
terrorism investigation into events surrounding the deadly June 17, 
2015 attack on congregants of the historic Emanuel African Methodist 
Episcopal Church in Charleston, South Carolina. On June 20, a racist 
manifesto allegedly written by the alleged gunman surfaced online. In 
this manifesto, he admitted to gathering information from the Council 
of Conservative Citizens, a well-known extremist group that has roots 
within the White Citizens Council.
    To date, the Committee has had three oversight hearings on how 
overseas-based terrorist organizations spread extremist propaganda to 
radicalize and recruit. However, we have not, as a Committee, examined 
how the same channels are being exploited by groups intending to carry 
out domestic terrorism. At our most recent heating on terrorist use of 
social media, you stated that ``we are facing an enemy whose messages 
and calls to violence are posted and promoted in real time''.\7\ Just 
as this observation is true when it comes to the Islamic State in Iraq 
and the Levant and Al Qaeda, it is true when it comes to domestic 
terrorist groups and the lone wolves that are inspired by them. The 
carnage of June 17 did not occur in some far-off land. It occurred on 
American soil and was perpetrated by an American whom we have no reason 
to believe was influenced by a foreign terrorist organization.
---------------------------------------------------------------------------
    \7\ ``Terrorism Gone Viral: The Attack in Garland, Texas and 
Beyond''. Wednesday, June 3, 2015.
---------------------------------------------------------------------------
    As the Committee on Homeland Security, we have an interest in 
protecting our citizens from foreign and domestic terrorist threats. I 
strongly believe that we have a moral responsibility as well as a 
responsibility under our bipartisan Oversight Plan to ask the tough 
questions. We would benefit from hearing what the Federal Government is 
doing to identify, mitigate, and respond to such threats and the degree 
to which Federal efforts to counter violent extremism are focused on 
domestic terrmist threats. Therefore, I respectfully request that you 
hold a hearing where the Committee can receive testimony from the 
Department of Homeland Security and the Department of Justice on the 
subject of domestic terrorism. At this hearing, it would be beneficial 
to receive testimony from the Department of Homeland Security's 
Countering Violent Extremism Coordinator on the Department's Countering 
Violent Extremism strategy and the elements it includes to prevent 
domestic terrorism.
    Thank you for your timely attention to this matter. If you have any 
further questions, please contact Hope Goins, Chief Counsel for 
Oversight[.]
            Sincerely,
                                        Bennie G. Thompson,
                                                    Ranking Member.
                                 ______
                                 
                                     June 17, 2016.
The Honorable Michael McCaul,
Chairman, Committee on Homeland Security, H2-176 Ford House Office 
        Building, Washington, DC 20515.
    Dear Chairman McCaul: Today, on the 1-year anniversary of the 
deadly, domestic terrorist attack on congregants of the historic 
Emanuel African Methodist Episcopal Church in Charleston, South 
Carolina, I am writing to request that the Committee hold hearings on 
the threat of domestic terrorism.
    According to the Committee on Homeland Security's Oversight plan 
for the 114th Congress, the Committee will ``examine existing and 
emerging terror threats from domestic terrorists.''\8\ Over the last 
year, I have repeatedly requested that you convene a domestic terrorism 
hearing. On June 23, 2015, days after the Charleston attacks, I sent 
you a letter requesting a hearing with Federal Government officials on 
the threat of domestic terrorist organizations. More than a year later, 
you have not scheduled such a hearing.
---------------------------------------------------------------------------
    \8\ Oversight Plan of the Committee on Homeland Security. 114th 
Congress (2015).
---------------------------------------------------------------------------
    You acknowledged in July 2015 that the violent extremist ideology 
that motivated the attack on Emanuel African Methodist Episcopal Church 
was of concern by saying, ``[a]s we've seen recently in France, 
Tunisia, Kuwait, and even right here at home in places like Garland, 
TX, and Charleston, SC, violent extremism comes in many forms.''\9\ 
Since that time, I have been disappointed to see that those words have 
not translated into action and that you have not prioritized a hearing 
on domestic terrorist threats. However, you have convened five hearings 
since June 2015 examining the threats posed by foreign terrorist 
organizations.\10\
---------------------------------------------------------------------------
    \9\ House Committee on Homeland Security website, Majority Staff, 
https://homeland.house.gov/press/mccaul-leads-government-efforts-
counter-violent-extremism/ (last visited June 17, 2016).
    \10\ Full Committee hearing, ``Rise of Radicalization: Is the U.S. 
Government Failing to Counter International and Domestic Terrorism.'' 
(July 2015); Full Committee hearing, ``Beyond Bin Laden's Caves and 
Couriers to A New Generation of Terrorists: Confronting the Challenges 
in a Post-9/11 World.'' (September 2015); Full Committee hearing, 
``Worldwide Threats and Homeland Security Challenges.'' (October 2015); 
Full Committee hearing, ``The Rise of Radicalism: Growing Terrorist 
Sanctuaries and the Threat to the U.S. Homeland.'' (November 2015); 
Full Committee hearing, ``DHS in Today's Dangerous World: Examining the 
Department's Budget and Readiness to Counter Homeland Threats.'' (March 
2016).
---------------------------------------------------------------------------
    On June 9, Speaker Paul Ryan released the House Republican agenda 
and ideas on national security. One of the ideas articulated is that, 
``we must make sure our country is ready to tackle the threats of our 
time and beyond.''\11\ Domestic terrorism is a threat of our time and 
beyond. As we remember Charleston today, details continue to emerge 
about a British lawmaker who was gunned down by someone that is 
believed to have been radicalized by a U.S. domestic extremist group. 
Additionally, over the past year, anti-government groups grew by one-
third, and the violent threat they pose was underscored by a 41-day 
aimed occupation by anti-government extremists Oregon earlier this 
year.
---------------------------------------------------------------------------
    \11\ www.abetterway.speaker.gov (Last visited June 16, 2016).
---------------------------------------------------------------------------
    This Committee's failure to examine the events of June 2015 
terrorist attacks is not only a dereliction of our responsibilities in 
the House to tackle all homeland security matters but also inconsistent 
with the terms of our Committee-approved oversight plan. It is well 
known that this Committee has held timely hearings in the aftermath of 
terrorist attacks. Last year, within a month of the Garland, Texas 
attack, you convened a hearing to ``examine the increasing threat from 
violent Islamist extremists groups.''\12\ Understandably, you also are 
planning to hold a hearing in July to examine the circumstances 
surrounding the June 2016 Orlando, Florida terrorist attack. However, 
there has not been a single hearing to examine any of the events, 
methods, or threats posed by the domestic terrorist that attacked 
Charleston or the domestic terrorists that occupied the Malheur refuge 
in Oregon.
---------------------------------------------------------------------------
    \12\ House Committee on Homeland Security website, Majority Staff, 
https://homeland.house.gov/press/hearing-terrorism-gone-viral/ (Last 
visited June 16, 2016).
---------------------------------------------------------------------------
    Yesterday, I was appalled to hear you say on the House floor during 
debate of H.R. 5471, ``What keeps me up at night? Boston, Chattanooga, 
San Bernardino, and now Orlando.''\13\ The victims of Charleston do not 
deserve to be omitted from such a list, and the attack that caused 
their demise must be on the agenda of this Committee.
---------------------------------------------------------------------------
    \13\ Representative McCaul (TX). ``Countering Terrorist 
Radicalization Act.'' (June 15, 2016) Available from: http://www.c-
span.org/video/?411263-1/us-house-debates-defense-appropriations-bill. 
Assessed 6/17/16.
---------------------------------------------------------------------------
    I look forward to your timely attention and response to this 
matter. If you have any further questions please contact Hope Goins, 
Chief Counsel for Oversight[.]
            Sincerely,
                                        Bennie G. Thompson,
                                                    Ranking Member.
                                 ______
                                 
                                    March 15, 2017.
The Honorable Michael McCaul,
Chairman, Committee on Homeland Security, H2-176 Ford House Office 
        Building, Washington, DC 20515.
    Dear Chairman McCaul: I am pleased to learn of our Committee's 
plans to address the growing domestic threats to our Nation's religious 
facilities by holding a ``compelling'' oversight hearing.\14\ I am 
writing to request that the Committee immediately take action to 
address these ongoing domestic terrorist threats to American religious 
institutions and facilities by not only scheduling an oversight hearing 
but also by conducting briefings, site visits, and a legislative markup 
of H.R. 1486, ``Securing American Non-Profit Organizations Against 
Terrorism Act of 2017''. As you know, the Committee on Homeland 
Security's bipartisan Oversight plan for the 115th Congress calls for 
the Committee to ``continue to conduct rigorous oversight of the 
Federal Government's counterterrorism efforts, including monitoring 
ongoing and emerging terror threats to the United States. . . .''.\15\
---------------------------------------------------------------------------
    \14\ Tilove, Jonathan, McCaul fears ISIS encouraging attacks on 
Jewish communities in West, Statesman, (March 8, 2017), http://
www.statesman.com/news/state_regional-govt_politics/mccaul-fears-isis-
encouraging-attacks-jewish-communities-west/aIFM8QskSocLBVhS8dxReP/.
    \15\ House Committee on Homeland Security. 115th Congress. 
Authorization and Oversight Plan. Submitted to the Committee on 
Oversight and Government Reform and the Committee on the Budget on 
March 3, 2017.
---------------------------------------------------------------------------
    Last Congress, in the wake of the Emanuel African Methodist 
Episcopal Church massacre in Charleston, South Carolina, in which nine 
victims were killed while exercising their religious freedoms, I wrote 
to you requesting a hearing on the threat of domestic terrorism. 
Unfortunately, your response and the Committee's oversight activities 
showed a lack of willingness to address all forms of violent 
extremists, especially from terrorist groups founded on racist, anti-
semetic, and anti-Muslim principals who have all targeted our Nation's 
religious facilities. Nevertheless, your announcement that the 
Committee will take action in the wake of the threats and attacks 
against Jewish Community Centers is welcomed, and I look forward to 
working with you to conduct necessary oversight and consider 
legislation.
    Furthermore, an issue that must also be addressed is the 
availability of grant funding to harden non-profit organizations 
against terrorist threats. As you may know, I recently introduced H.R. 
1486, the ``Securing American Non-Profit Organizations Against 
Terrorism Act of 2017.'' The legislation would authorize the Non-Profit 
Security Grant Program at the Federal Emergency Management Agency at a 
level of $30 million a year from Fiscal Year 2018 through Fiscal Year 
2022. To ensure that non-profits across America are eligible for 
funding, the program would not exclude non-profit organizations outside 
Urban Area Security Initiative jurisdictions from eligibility. I hope 
you will join me in this effort to secure non-profit organizations in 
our communities.
    In recent years, many domestic terrorist attacks and threats to 
United States have targeted our religious facilities and institutions 
and have extended to churches, mosques, and other religious centers. 
For example:
  <bullet> In February and January 2017, a series of bomb threats were 
        called into Jewish Community Centers across the country in 26 
        States;\16\
---------------------------------------------------------------------------
    \16\ Camila Domonoske, ``Wave of Bomb Threats Targets Jewish 
Centers, Again,'' National Public Radio: The Two-Way (Jan. 19, 2017), 
http://www.npr.org/sections/thetwo-way/2017/01/19/510548864/wave-of-
bomb-threats-targets-jewish-centers-again.
---------------------------------------------------------------------------
  <bullet> In January 2017, a mosque burning in Victoria, TX. The 
        current suspect reportedly has an apparent hatred of 
        Muslims;\17\
---------------------------------------------------------------------------
    \17\ Wilcox, Jon, ``Victoria man, 25, accused of burning mosque,'' 
Victoria Advocate, (March 10, 2017), https://www.victoriaadvocate.com/
news/2017/mar/10/victoria-man-25-accused-of-burning-mosque/.
---------------------------------------------------------------------------
  <bullet> In January 2017, an armed masked man was arrested after 
        protesting outside a Bozeman Islamic Center;\18\
---------------------------------------------------------------------------
    \18\ Chronicle Staff, ``Armed Masked Man Detained While Protesting 
In Front of Bozeman Islamic Center,'' Bozeman Daily Chronicle (Jan. 9, 
2017), http://www.bozemandailychronicle.com/news/crime/armed-masked-
man-detained-while-protesting-in-front-of-bozeman/article_f598a364-
906e-540c-aa23-30e08e16d9cf.html.
---------------------------------------------------------------------------
  <bullet> In October 2016, Wooddale United Methodist Church in Monroe 
        Co., PA saw their church damaged by vandals with displays of 
        anti-Semitic, political, and sexually explicit messages;\19\
---------------------------------------------------------------------------
    \19\ Allen Vickers, ``Church Vandalized with Racist, Obscene 
Symbols,'' WNEP 16 (30 October 2016), http://wnep.com/2016/10/30/
church-vandalized-with-racist-obscene-symbols/.
---------------------------------------------------------------------------
  <bullet> In October 2016, authorities in California arrested an 
        individual with an arsenal of firearms who had previously made 
        terror threats against the Islamic Center of Southern 
        California;\20\
---------------------------------------------------------------------------
    \20\ Jovana Lara, `` `Man with arsenal threatens Islamic Center of 
Southern California,' LAPD says,'' ABC 7 (25 October 2016), http://
abc7.com/news/man-with-arsenal-threatens-islamic-center-of-socal-lapd-
says/1573493/.
---------------------------------------------------------------------------
  <bullet> In October 2016, Trinity Lutheran Church and St. Rose 
        Catholic Church in Longview, WA saw their properties damaged 
        with images of swastikas and other anti-Semitic and racist 
        graffiti;\21\
---------------------------------------------------------------------------
    \21\ Denver Pratt, ``Two suspects sought in racial vandalism of 
local churches,'' The Daily News (1 November 2016), http://tdn.com/
news/local/two-suspects-sought-in-racial-vandalism-of-local-churches/
article_3be75760-8561-57b3-964d-bI0b082c9c65.html.
---------------------------------------------------------------------------
  <bullet> In August 2016, a Charleston, South Carolina woman received 
        a letter that said ``Charleston--The Sequel--coming soon to a 
        mosque near you [u]nless Roff [sic] is released,'';\22\
---------------------------------------------------------------------------
    \22\ Associated Press, ``Charleston Police Investigate Suspicious 
Letter with Apparent Threat to Mosque,'' Live5News (Aug. 4, 2016), 
http://www.live5news.com/story/32689930/charleston-police-investigate-
suspicious-letter-with-apparent-threat-to-mosque (last visited Feb. 15, 
2017).
---------------------------------------------------------------------------
  <bullet> In July 2016, the Islamic Community of Bryan-College mosque 
        in Station, TX was targeted and hit with repeated gunfire;\23\
---------------------------------------------------------------------------
    \23\ Christopher Mathias, ``Someone Shot At A Texas Mosque In The 
Latest Attempt To Terrorize the Muslim Community,'' The Huffington Post 
(7 July 2016), http://www.huffingtonpost.com/entry/gunshots-texas-
mosque-college-station_us_577ea92le4b0c590f7- e87eef.
---------------------------------------------------------------------------
  <bullet> In December 2016, individuals dropped a dead pig at the 
        Islamic Center of Lawton, Oklahoma; \24\
---------------------------------------------------------------------------
    \24\ Dallas Franklin, ``Police Investigating Possible Hate Crime 
After Dead Pig Was Dumped at Oklahoma Mosque,'' KFOR.com (Dec. 9, 
2016), http://kfor.com/2016/12/09/police-investigating-possible-hate-
crime-after-dead-pig-was-dumped-at-oklahoma-mosque/ (last visited Feb. 
15, 2017).
---------------------------------------------------------------------------
  <bullet> In October 2016, a Tucson man inspired by ISIS pled guilty 
        to charges related to a conspiracy targeting the Tucson Jewish 
        Community Center;\25\
---------------------------------------------------------------------------
    \25\ ADI News Services, ``Phoenix Man Hoped to Attack Midnight 
Mass, Jewish Community Center for ISIS,'' Arizona Daily Independent 
(Dec. 31, 2016), https://arizonadailyindependent.com/2016/12/31/
phoenix-man-hoped-to-attack-midnight-mass-jewish-community-center-for-
isis/.
---------------------------------------------------------------------------
  <bullet> In November 2016, ``Heil Trump,'' a swastika, and a gay slur 
        were spray-painted on a wall of St. David's Episcopal Church in 
        Bean Blossom, Indiana;\26\
---------------------------------------------------------------------------
    \26\ Fox59 Web Staff, ``Vandals Spray Paint `Heil Trump,' Swastika, 
Gay Slur on Brown Country Church,'' FOX59Web (Nov. 13, 2016), http://
fox59.com/2016/11/13/vandals-spray-paint-heil-trump-swastika-gay-slur-
on-brown-county-church/ (last visited Feb. 15, 2017).
---------------------------------------------------------------------------
  <bullet> May 2016 bombing plot on an Aventura, Florida synagogue;\27\
---------------------------------------------------------------------------
    \27\ McMcMahon, Paula, Hollywood man accused of plot to blow up 
Aventura synagogue,'' Sun Sentinel (May 2, 2016), http://www.sun-
sentinel.com/news/crime/fl-aventura-synagogue-attack-medina-20160502-
story.html.
---------------------------------------------------------------------------
  <bullet> In 2015, there was a record number of threats, harassment, 
        and vandalism at mosques, including three incidents of 
        vandalism in Omaha, Nebraska, two incidents of vandalism in 
        Spokane, Washington, two incidents of vandalism and one 
        incident of harassment in Oklahoma, and one incident of 
        vandalism in Rochester, New York, among many others.\28\
---------------------------------------------------------------------------
    \28\ Daniel Burke, ``Threats, Harassment, Vandalism at Mosques 
Reach Record High,'' CNN.com (Dec. 11, 2015), http://www.cnn.com/2015/
12/10/living/mosques-attack-study-2015/ (last visited Feb. 15, 2017). 
See Bob Glissmann, ``Islamic Center of Omaha Targeted By Vandals,'' 
Omaha World-Herald (Nov. 16, 2016), http://www.omaha.com/news/crime/
islamic-center-of-omaha-targeted-by-vandals/article_7a69970a-8c8e-11e5-
93eb-332b5764083f.html (a man sent white powder and threatening 
articles to a mosque in Oklahoma City, Oklahoma).
---------------------------------------------------------------------------
  <bullet> In November 2015, a White supremacist plotted to attack 
        synagogues and Black churches in the Richmond, VA area before 
        being arrested;\29\
---------------------------------------------------------------------------
    \29\ Zapotosky, Matt, ``Feds: White Supremacists plotted to attack 
synagogues, black churches,'' Washington Post (November 10, 2015), 
https://www.washingtonpost.com/local/public-safety/feds-white-
supremacists-plotted-to-shoot-or-bomb-black-churches-jewish-synagogues/
2015/11/10/2a0abbcc-87cf-11e5-be39-
0034bb576eee_story.html?utm_term=.df1ce705d1cb.
---------------------------------------------------------------------------
  <bullet> In July 2015, the New Shiloh Christian Church was set on 
        fire and vandalized in Melbourne, Florida;\30\
---------------------------------------------------------------------------
    \30\ J.D. Gallop, ``Police: Church Vandalism is a Hate Crime,'' 
Florida Today (July 12, 2015), http://www.floridatoday.com/story/news/
local/2015/07/12/police-investigate-church-vandalism/30047199/.
---------------------------------------------------------------------------
  <bullet> In June 2015, a 21-year-old White gunman hoping to start a 
        ``race war'' shot and killed 9 Black churchgoers at Emanuel 
        African Methodist Episcopal (AME) Church in Charleston, South 
        Carolina;\31\
---------------------------------------------------------------------------
    \31\ Polly Mendoza, ``Dylann Roof Confesses, Says He Wanted to 
Start a Race War,'' Newsweek (June 19, 2015), http://www.newsweek.com/
dylann-roof-confesses-church-shooting-says-he-wanted-start-race-war-
344797.
---------------------------------------------------------------------------
  <bullet> In April 2014, a White supremacist in Overland Park, Kansas 
        targeted and murdered 3 individuals at the Jewish Community 
        Center of Greater Kansas City;\32\
---------------------------------------------------------------------------
    \32\ Matthew Stucker & Catherine E. Shoichet, ``3 Killed in 
shootings at Kansas area Jewish centers,'' CNN (14 April 2014), http://
www.cnn.com/2014/04/13/us/kansas-jewish-center-shooting/.
---------------------------------------------------------------------------
  <bullet> In August 2012, a White supremacist murdered 6 individuals 
        and wounded others at a Sikh temple in Oak Creek, 
        Wisconsin;\33\ and
---------------------------------------------------------------------------
    \33\ Steven Yaccino & Michael Schwirtz & Marc Santora, ``Gunman 
Kills 6 at a Sikh Temple Near Milwaukee,'' New York Times (5 August 
2012), http://www.nytimes.com/2012/08/06/us/shooting-reported-at-
temple-in-wisconsin.html.
---------------------------------------------------------------------------
  <bullet> In July 2009, a pipe-bomb was thrown inside the 
        predominantly African American Redeeming Fire Fellowship Church 
        in Buffalo, New York,\34\ among others.
---------------------------------------------------------------------------
    \34\ Press Release, Federal Bureau of Investigation: Buffalo 
Division, U.S. Attorney's Office, Man Pleads Guilty to Manufacturing a 
Pipe Bomb and Placing the Lit Pipe Bomb in a Church, (Mar. 29, 2010), 
https://archives.fbi.gov/archives/buffalo/press-releases/2010/
bffo032910.htm.
---------------------------------------------------------------------------
    Rigorous oversight of the threat to our nation's religious 
institutions and swift consideration of H.R. 1486 are imperative. 
According to the Southern Poverty Law Center, the number of hate groups 
in the United States rose in 2016, bringing the number of active hate 
groups in the United States to 917.\35\ That number includes 514 anti-
Semitic groups, 547 White Nationalist Groups, and 605 anti-Muslim 
groups that foster ideologies that inspire violence toward religions, 
races, and ethnicities.
---------------------------------------------------------------------------
    \35\ ``Hate Map,'' Southern Poverty Law Center. Web. March 10 2017. 
https://www.splcenter.org/hate-map.
---------------------------------------------------------------------------
    The threat posed by violent extremism is not limited to a single 
ideology and that groups and individuals inspired by a wide range of 
religious, political, or other ideological beliefs have promoted and 
used violence against the United States. There are no easy solutions to 
this security challenge, as the paths to terrorism are as diverse as 
the perpetrators. Nonetheless, our committee has a moral obligation and 
a congressional responsibility to ask the tough questions and move 
forward legislation in an effort to protect our Nation from terrorism--
no matter the source. I look forward to our upcoming hearing and to 
working with you to address the growing threats to our religious 
facilities.
    Thank you for your timely attention to this matter. If you have any 
further questions, please contact Hope Goins, Staff Director [.]
            Sincerely,
                                        Bennie G. Thompson,
                                                    Ranking Member.
                                 ______
                                 
                                      June 1, 2017.
The Honorable Michael McCaul,
Chairman, Committee on Homeland Security, H2-176 Ford House Office 
        Building, Washington, DC 20515.
    Dear Chairman McCaul: In March, I wrote to you requesting the 
Committee on Homeland Security take immediate action to address the 
ongoing threat of domestic terrorists through our oversight and 
legislative activities during the 115th Congress. Unfortunately, the 
Committee has not yet held any activities to examine or respond to the 
growing threat of domestic terrorism, nor have I received a reply to my 
letter.
    Tragically, just last week our Nation suffered another domestic 
terrorist attack. Jeremy Christian, a domestic terrorist, stabbed three 
people, killing two and seriously injuring a third. The killed and 
injured had been attempting to subdue Christian as he shouted religious 
hate speech at two girls believed to be Muslim on a Portland, Oregon 
train. It has been reported there is security footage of Christian 
yelling both racial and religious hate speech before and during the 
attack. This week, when Christian appeared in court, he shouted,`` . . 
. You call it terrorism. I call it patriotism! You hear? Die.''\36\
---------------------------------------------------------------------------
    \36\ Nate Hanson, Portland suspect in courtroom rant: ``You call it 
terrorism. I call it patriotism!'' (May 30, 2017), https://
www.usatoday.com/storv/news/nation-now/2017/05/30/portland-train-
stabbing-suspect/353963001/.
---------------------------------------------------------------------------
    These types of terrorist acts can no longer be ignored by this 
Committee for the sake of those who do not want to acknowledge that all 
forms of terrorism, no matter the ideology or the inspiration, are a 
threat to our safety, rights, and our homeland. Terrorist acts are 
carried out by individuals with various racial, religious, and 
political backgrounds, but they all have a common goal--to use violence 
and intimidation to advance their beliefs. Time and time again I have 
requested that our Committee fulfill its responsibility and commitment 
to ``continue to conduct rigorous oversight of the Federal government's 
counterterrorism efforts including monitoring ongoing and emerging 
terror threats to the United States.''\37\
---------------------------------------------------------------------------
    \37\ House Committee on Homeland Security. 115th Congress. 
Authorization and Oversight Plan. Submitted to the Committee on 
Oversight and Government Reform and the Committee on the Budget on 
March 3, 2017.
---------------------------------------------------------------------------
    It is time for our Committee to act. I look forward to a hearing on 
this important issue in the near future. Thank you for your timely 
attention to this matter.
            Sincerely,
                                        Bennie G. Thompson,
                                                    Ranking Member.
                                 ______
                                 
                                   August 15, 2017.
The Honorable Michael McCaul,
Chairman, Committee on Homeland Security, H2-176 Ford House Office 
        Building, Washington, DC 20515.
    Dear Chairman McCaul and Republican Committee Members: In March and 
June of this year, Ranking Member Thompson wrote to Chairman McCaul 
requesting the Committee on Homeland Security address the ongoing 
threat of domestic terrorism through our oversight and legislative 
activities during the 115th Congress. Now, as our country has suffered 
yet another tragic and deadly domestic terrorist attack, we as 
Democratic Members of the Committee write to you, our Republican 
colleagues, to urge you to join with us to hold hearings to examine the 
troubling rise in domestic terrorism in our Nation.
    This weekend, the ``Unite the Right'' rally in Charlottesville, 
Virginia attracted hundreds of self-identified White supremacists, neo-
Nazis, and other members of alt-right groups. This rally was founded 
and fueled by hate. Despicable violence toward counter-protesters 
caused the death of a Charlottesville-area woman, Heather Heyer, and 
injuries to more than 20 others. This heinous, cowardly act was 
terrorism, plain and simple. Terrorism is not confined to a single 
ideology or inspiration.
    Unfortunately, it has become clear we cannot count on President 
Trump for action. Even before he was elected, many of us were concerned 
that his unwillingness to denounce and distance himself from White 
nationalists would be taken as tacit support by those ready to use 
violence to advance their racist ideology. As leaders of the 
legislative branch of government, we must stand up to all ideologically 
motivated violence. Failure to act as innocent people continue to be 
terrorized, harmed, and killed by domestic terrorists puts American 
lives in peril.
    It is past time for this Committee on Homeland Security to act. As 
Democratic Members, we stand ready to work in bipartisan manner to help 
stop acts of domestic terror and uphold the ideals that truly make 
America great. We look forward to a hearing on this critical issue when 
we return in September.
    Thank you for your timely attention to this matter.
            Sincerely,
                                        Bennie G. Thompson,
              Ranking Member, House Committee on Homeland Security.
                                        Sheila Jackson Lee,
                      Member, House Committee on Homeland Security.
                                         James R. Langevin,
                      Member, House Committee on Homeland Security.
                                        Cedric L. Richmond,
                      Member, House Committee on Homeland Security.
                                        William R. Keating,
                      Member, House Committee on Homeland Security.
                                      Donald M. Payne, Jr.,
                      Member, House Committee on Homeland Security.
                                              Filemon Vela,
                      Member, House Committee on Homeland Security.
                                     Bonnie Watson Coleman,
                      Member, House Committee on Homeland Security.
                                          Kathleen M. Rice,
                      Member, House Committee on Homeland Security.
                                            J. Luis Correa,
                      Member, House Committee on Homeland Security.
                                            Val B. Demings,
                      Member, House Committee on Homeland Security.
                                       Nanette D. Barragan,
                      Member, House Committee on Homeland Security.
                                 ______
                                 
                                    March 19, 2018.
The Honorable Michael T. McCaul,
Chairman, Committee on Homeland Security, H2-176 Ford House Office 
        Building, Washington, DC 20515.
    Dear Chairman McCaul: I write to request that the Committee on 
Homeland Security hold an oversight hearing to address the recent 
series of bomb attacks in Austin, Texas.
    Over the past month, Austin residents have been terrorized by a 
wave of bomb attacks, resulting in the death of two individuals and 
injury to at least four others.\38\ The explosions include package 
bombs detonated on March 2, 2017, and on two separate occasions on 
March 12, 2017, as well as a bomb believed to have been detonated by a 
tripwire just last night.\39\
---------------------------------------------------------------------------
    \38\ Eva Ruth Moravec, ``After fourth Austin explosion, police warn 
of sophisticated `serial bomber,' '' Washington Post (March 19, 2018), 
https://www.washingtonpost.com/news/morning-mix/wp/2018/03/18/two-
injured-in-explosion-in-austin-police-say/
?utm_term=.16eb801fa0dS&wpisrc=a l_news?alert-national&wpmk=1.
    \39\ Dave Montgomery, Manny Fernandez, and Matthew Haag, ``Austin 
Struck by Fourth Explosion Only Hours After Televised Appeal to 
Bomber,'' New York Times (March 18, 2018), https://www.nytimes.com/
2018/03/18/us/austin-bombings-police-motive.html.
---------------------------------------------------------------------------
    While an investigation is ongoing, victims of three of the four 
bombings were racial and ethnic minorities, raising troubling questions 
about whether the individuals were targeted for that reason.\40\ No 
matter the motive or ideology behind these heinous attacks, the fact 
that Americans are being targeted and killed by deadly bombs, within 
our homeland and in your own backyard, demands attention from this 
Committee.
---------------------------------------------------------------------------
    \40\ Tina Burnside, ``3 deadly package explosions in Austin appear 
connected, police say,'' CNN (March 12, 2018), https://www.cnn.com/
2018/03/12/us/texas-austin-blasts/index.html.
---------------------------------------------------------------------------
    After previous terrorist attacks, you have scheduled hearings 
expeditiously, particularly when there was believed to be a nexus to 
Islamic terrorism. For example, on June 3, 2015, just two congressional 
work weeks after the attack in Garland, Texas, you convened a Full 
Committee hearing entitled ``Terrorism Gone Viral: The Attack in 
Garland, Texas and Beyond.'' Though an investigation was ongoing, the 
Committee received testimony on the case from Federal law enforcement 
agencies, including top officials from the Federal Bureau of 
Investigation and the Department of Homeland Security. The hearing was 
followed by classified briefings on the case on June 11, 2015, and June 
17, 2015.
    In stark contrast, you have failed to notice a hearing or briefings 
on the Austin bombings even weeks after the initial attack. I urge you 
to do so without further delay.
    Thank you for your attention to this matter. If you or your staff 
have any questions regarding this request, please contact Alison 
Northrop, Chief Director for Oversight[.]
            Sincerely,
                                        Bennie G. Thompson,
                                                    Ranking Member.

    Chairman Thompson. Mr. McGarrity, we have been made aware 
that on March 19 a number of civil rights groups, NAACP, 
Leadership Conference, a number have requested a meeting with 
the FBI Director. Some--well, up until this date, the letter 
has not even been acknowledged. I think part of their interest 
is around this whole effort of domestic terrorism.
    We want to instill confidence in all our law enforcement 
people, but we also recognize the fact that organizations who 
are interested in this issue should not be ignored.
    So I would like to provide you with a copy of this letter 
for you to share with the director and ask him to engage those 
organizations who wrote him in good faith for an opportunity to 
discuss this issue of domestic terrorism with him.
    I would also like to include a copy of the letter for this 
hearing. Without objection.
    [The information referred to follows:]
                                    March 19, 2018.
The Honorable Christopher Wray,
Federal Bureau of Investigation, 935 Pennsylvania Avenue, N.W., 
        Washington, DC 20535.
    Dear Director Wray:
    We, the undersigned national civil rights and faith-based leaders, 
write to express our deep concern regarding recent attacks against our 
houses of worship and communities. We request an urgent meeting with 
you to discuss the role of the Federal Bureau of Investigation (FBI) in 
addressing the threat to public safety and our communities by White 
nationalist violence.
    Attacks against houses of worship in the United States have been 
far too common in recent years. For example, in 2012 White supremacist 
Wade Michael Page murdered six and injured four, when he stormed a Sikh 
gurdwara in Oak Creek, Wisconsin. In 2015, Dylann Roof, who spewed deep 
racial hatred and espoused White nationalist ideals, entered the 
Emanuel AME Church in Charleston, South Carolina, killing nine 
individuals. In 2018, Robert D. Bowers burst into the Tree of Life 
Synagogue in Pittsburgh, Pennsylvania and shouted anti-Semitic slurs, 
killing 11 worshippers. This hate manifested itself again last week in 
New Zealand, when Brenton Harrison Tarrant live-streamed his attacks 
against Masjid al-Noor and the Linwood Mosque in Christchurch where he 
murdered over 50 people and injured many more. Tarrant too, was a 
virulent White nationalist, and even cited Roof as an inspiration in 
his manifesto.
    Last year, the FBI reported a 17 percent increase in hate crimes 
overall since 2016, marking an increase for the third consecutive year 
in a row. Given the enormous threat of hate violence to our communities 
and our nation, we request that you meet with us along with our 
partners in the civil rights and faith communities to discuss the FBI's 
role in protecting houses of worship, our communities, and all 
Americans.
    Please contact Muslim Advocates deputy director Naheed Qureshi [ . 
. . ] to discuss details for scheduling this meeting.
    We look forward to meeting with you to discuss our concerns 
further.
            Sincerely,
                                             Farhana Khera,
                  President & Executive Director, Muslim Advocates.
                                        Rabbi Jonah Pesner,
Director, Religious Action Center and Senior V.P., Union for Reform 
                                                           Judaism.
                                           Sherrilyn Ifill,
 President & Director-Counsel, NAACP Legal Defense and Educational 
                                                              Fund.
                                              Vanita Gupta,
     President & CEO, The Leadership Conference on Civil and Human 
                                                            Rights.
                                              Satjeet Kaur,
                            Executive Director, The Sikh Coalition.

    Chairman Thompson. Again, let me thank you for your 
participation and the Members who actually, overall, most of 
them came and had questions.
    The Members of the committee may have additional questions 
for the witnesses, and we ask that you respond expeditiously in 
writing to those questions. Without objection, the committee 
record shall be kept open for 10 days.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 12:51 p.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

        Questions From Honorable Peter T. King for Brad Wiegmann
    Question 1a. Many domestic terrorism cases are prosecuted at the 
State level.
    How much guidance and support does the Department of Justice 
provide on handling these cases?
    Answer. Response was not received at the time of publication.
    Question 1b. Is DOJ able to track data on State prosecutions in 
order to provide a Nation-wide statistics on domestic terror cases?
    Answer. Response was not received at the time of publication.
          Question From Honorable Van Taylor for Brad Wiegmann
    Question. Last year, a 17-year-old by the name of Matin Azizi-
Yarand was arrested for plotting to attack the Stonebriar Centre Mall 
which is located in Frisco, Texas in my District. However, because Mr. 
Azizi-Yarand was a minor, Federal authorities were unable to prosecute 
this individual at the Federal level. An AP News article from earlier 
this month highlighted how a 2018 Supreme Court decision has made 
prosecution of minors for terrorism cases significantly more difficult. 
The result is that Federal prosecutors have had to hand off terrorism 
cases involving a minor over State or local authorities. The case in my 
district was brought before the 296th District Court in Collin County, 
Texas where Mr. Azizi-Yarand was sentenced to 20 years. While I am 
pleased that Mr. Azizi-Yarand ultimately received justice, I am 
concerned by the inability of Federal prosecutors to go after 
terrorists in these instances and fear that if left unchanged, this 
policy could lead to terrible consequences. I would like to request 
that the Department of Justice identify the specific deficiency or 
deficiencies in Federal law that are hampering the prosecution of 
terrorists who are minors. I would also like to request that the 
Department of Justice work with me to craft a legislative solution that 
will adequately address this issue.
    Beyond the specific instance above, are there other frailties in 
Federal law that hamper the prosecution of terrorists that Congress 
should address?
    Link to AP Article: https://www.apnews.com/
69a0da9349364db094066f83- b4517d8b.
    Answer. Response was not received at the time of publication.
    Questions From Chairman Bennie G. Thompson for Michael McGarrity
    Question 1a. In your testimony you discuss a category of domestic 
terrorism called ``racially motivated violent extremism.''\1\ I am 
concerned that this category, with a neutral-sounding name, conceals 
the fact that White supremacist extremism--not any other form of 
``racially motivated violent extremism''--is the most pressing threat 
facing our homeland.
---------------------------------------------------------------------------
    \1\ Democrats accuse Trump administration of trying to `obfuscate 
the white supremacist threat' with new categories for domestic 
terrorism, Washington Post, May 2, 2019, https://
www.washingtonpost.com/politics/democrats-accuse-trump-administration-
of-trying-to-obfuscate-the-white-supremacist-threat-with-new-
categories-for-domestic-terrorism/2019/05/02/831cf86e-6d23-11e9-a66d-
a82d3f3d96d5_story.html.
---------------------------------------------------------------------------
    What ideologies, crimes, or other activities fall under this 
category?
    Answer. Response was not received at the time of publication.
    Question 1b. Why was it necessary to create a new category when 
using precise terms--such as ``White supremacist extremism''--is more 
accurate and precise?
    Answer. Response was not received at the time of publication.
    Question 1c. What are some examples of ``racially motivated violent 
extremist'' crimes that have occurred recently, that are not tied to 
White supremacist extremism?
    Answer. Response was not received at the time of publication.
    Question 2. A team of researchers at the University of North 
Carolina at Chapel Hill found that ``in 2008 and 2009 fewer than 350 of 
the F.B.I.'s 2,000 counterterrorism agents were assigned to domestic 
terrorism.''\2\ Today, how many counterterrorism agents are assigned to 
domestic terrorism?
---------------------------------------------------------------------------
    \2\ Janet Reitman, U.S. Law Enforcement Failed to See the Threat of 
White Nationalism. Now They Don't Know How to Stop It., New York Times 
Magazine, November 3, 2018, https://www.nytimes.com/2018/11/03/
magazine/FBI-charlottesville-white-nationalism-far-right.html.
---------------------------------------------------------------------------
    Answer. Response was not received at the time of publication.
    Question 3a. How does a particular ideology or movement come to be 
described by DOJ and the FBI as driving a ``domestic terrorism'' 
threat?
    What analytical criteria are involved in this process?
    Answer. Response was not received at the time of publication.
    Question 3b. How many crimes or plots attributed to a specific 
ideology have to occur to lead to the identification of a new extremist 
threat?
    Answer. Response was not received at the time of publication.
    Question 3c. Will you commit to continuously updating this 
committee on emerging domestic terrorism threats?
    Answer. Response was not received at the time of publication.
    Question 4. To what extent are you investigating potential emerging 
domestic terrorist movements, including ``incels''--members of an on-
line subculture who self-describe themselves as ``involuntarily 
celibate''? As you know, at least 4 mass murders, leading to 45 deaths, 
have been committed by men who have identified or sympathized with the 
``incel'' movement since 2014.\3\
---------------------------------------------------------------------------
    \3\ Phil Brandel, I joined an incel group and what I found was 
surprising, NEWS.COM.AU, Mar. 19, 2019, https://www.news.com.au/
technology/online/social/i-joined-an-incel-group-and-what-i-found-was-
surprising/news-story/9fd5647427e3e1750468dd39ed2bebe3.
---------------------------------------------------------------------------
    Answer. Response was not received at the time of publication.
    Question 5a. 8chan has played a pivotal role in recent acts of 
terror. For example, the alleged killer at the Congregation Chabad in 
Poway, California stated on the site ``[w]hat I've learned here is 
priceless,'' referring to what one can only imagine as the extremist, 
racist, and violent views he must have embraced. The suspect also 
announced his killing spree by advertising on 8chan that ``a livestream 
will begin shortly.'' Similarly, the suspect of the mosque attacks in 
Christchurch, New Zealand found a home on 8chan. After the killing 
spree, 8chan users disseminated the suspect's propaganda video of his 
attack.\4\ Given this information:
---------------------------------------------------------------------------
    \4\ 8chan looks like a terrorist recruiting site after the New 
Zealand shootings. Should the government treat it like one? Washington 
Post, March 22, 2019, https://www.washingtonpost.com/technology/2019/
03/22/chan-looks-like-terrorist-recruiting-site-after-new-zealand-
shooting-should-government-treat-it-like-one/?utm_term=.79eac64cfb90.
---------------------------------------------------------------------------
    What steps are you taking to prevent the use of 8chan as a tool to 
plan, recruit, encourage copycat violence, and announce intentions to 
kill?
    Answer. Response was not received at the time of publication.
    Question 5b. We understand that you have close working 
relationships with social media companies that have been dealing with 
the issue of terrorist content finding a home on their platforms. Do 
you have a similar line of communication or established working 
relationship with 8chan? Please explain.
    Answer. Response was not received at the time of publication.
    Question 5c. What training does staff at your agency receive in 
understanding how on-line vehicles like 8chan have been used by 
domestic and international terrorists?
    Answer. Response was not received at the time of publication.
      Questions From Honorable Peter T. King for Michael McGarrity
    Question 1a. I am concerned about trends on the West Coast where 
cities and States are pulling out of Federal law enforcement task 
forces. It is my understanding that San Francisco and Portland have 
both pulled out of the Joint Terrorism Task Force (JTTF).
    Does it have an impact on counterterrorism cooperation when local 
partners pull out?
    Answer. Response was not received at the time of publication.
    Question 1b. One justification San Francisco and Portland have 
given for pulling out of the JTTF is their opposition to immigration 
enforcement as a counterterrorism tool. How important is immigration 
enforcement as one tool in the toolbox to help disrupt a terrorism 
investigation?
    Answer. Response was not received at the time of publication.
    Question 1c. There have been a number of reports of Antifa protests 
particularly in Portland. Is the city's withdrawal from the JTTF 
impacting the FBI's ability to investigate Antifa members based in the 
area?
    Answer. Response was not received at the time of publication.
    Question 2. What level of cooperation do you receive from the major 
social media companies when they identify threats or acts of violence 
on their platforms? Do they proactively share this information with 
you?
    Answer. Response was not received at the time of publication.
      Questions From Chairman Bennie G. Thompson for Brian Murphy
    Question 1. During a phone call with staff in early March and after 
a Member-level briefing, you were asked to supply additional 
information to the committee. One of the requests was to provide the 
number of intelligence reports on domestic terrorism DHS I&A has 
produced since 2009 and the other requested the amount of finished 
intelligence products on domestic terrorism DHS I&A has produced since 
2009. The night before the hearing, the committee received incomplete 
information. Again, please provide the committee with:
    a. the number of intelligence reports I&A has produced on domestic 
        terrorism since 2009;
    b. the number of finished intelligence products I&A has produced on 
        domestic terrorism since 2009; and
    c. a copy of the I&A org chart pre-reorganization and post-
        reorganization, including a breakdown of positions including 
        full-time analysts dedicated to domestic terrorism among other 
        portfolios.
    Answer. Response was not received at the time of publication.
    Question 2a. Recent reports indicate that last summer, DHS received 
a spreadsheet from a private intelligence company detailing over 600 
planned ``Family Separation Day Protests'' across the United States on 
June 30, 2018.\1\ Your office then reportedly disseminated this 
information to U.S. Immigration and Customs Enforcement and the 
National network of fusion centers. How are you ensuring that the 
Federal Government is protecting First Amendment rights in its efforts 
to address and prevent domestic terrorism?
---------------------------------------------------------------------------
    \1\ Ryan Devereaux, Homeland Security Used a Private Intelligence 
Firm to Monitor Family Separation Protests, The Intercept, Apr. 29, 
2019, https://theintercept.com/2019/04/29/family-separation-protests-
surveillance.
---------------------------------------------------------------------------
    Specifically, why are gatherings protected by the First Amendment 
being tracked and/or circulated throughout the Department's 
Intelligence Enterprise?
    Answer. Response was not received at the time of publication.
    Question 2b. What policies do you have in place to prevent 
infringing on these First Amendment rights?
    Answer. Response was not received at the time of publication.
    Question 3a. How does a particular ideology or movement come to be 
described by DOJ and the FBI as driving a ``domestic terrorism'' 
threat?
    Answer. Response was not received at the time of publication.
    Question 3b. What analytical criteria are involved in this process?
    Answer. Response was not received at the time of publication.
    Question 3c. How many crimes or plots attributed to a specific 
ideology have to occur to lead to the identification of a new extremist 
threat?
    Answer. Response was not received at the time of publication.
    Question 3d. Will you commit to continuously updating this 
committee on emerging domestic terrorism threats?
    Answer. Response was not received at the time of publication.
    Question 4. To what extent are you investigating potential emerging 
domestic terrorist movements, including ``incels''--members of an on-
line subculture who self-describe themselves as ``involuntarily 
celibate''? As you know, at least 4 mass murders, leading to 45 deaths, 
have been committed by men who have identified or sympathized with the 
``incel'' movement since 2014.\2\
---------------------------------------------------------------------------
    \2\ Phil Brandel, I joined an incel group and what I found was 
surprising, NEWS.COM.AU, Mar. 19, 2019, https://www.news.com.au/
technology/online/social/i-joined-an-incel-group-and-what-i-found-was-
surprising/news-story/9fd5647427e3e1750468dd39ed2bebe3.
---------------------------------------------------------------------------
    Answer. Response was not received at the time of publication.
    Question 5. 8chan has played a pivotal role in recent acts of 
terror. For example, the alleged killer at the Congregation Chabad in 
Poway, California stated on the site ``[w]hat I've learned here is 
priceless,'' referring to what one can only imagine as the extremist, 
racist, and violent views he must have embraced. The suspect also 
announced his killing spree by advertising on 8chan that ``a livestream 
will begin shortly.'' Similarly, the suspect of the mosque attacks in 
Christchurch, New Zealand found a home on 8chan. After the killing 
spree, 8chan users disseminated the suspect's propaganda video of his 
attack.\3\ Given this information:
---------------------------------------------------------------------------
    \3\ 8chan looks like a terrorist recruiting site after the New 
Zealand shootings. Should the government treat it like one? Washington 
Post, March 22, 2019, https://www.washingtonpost.com/technology/2019/
03/22/chan-looks-like-terrorist-recruiting-site-after-new-zealand-
shooting-should-government-treat-it-like-one/?utm_term=.79eac64cfb90.
---------------------------------------------------------------------------
  <bullet> What steps are you taking to prevent the use of 8chan as a 
        tool to plan, recruit, encourage copycat violence, and announce 
        intentions to kill?
  <bullet> We understand that you have close working relationships with 
        social media companies that have been dealing with the issue of 
        terrorist content finding a home on their platforms. Do you 
        have a similar line of communication or established working 
        relationship with 8chan? Please explain.
  <bullet> What training does staff at your agency receive in 
        understanding how on-line vehicles like 8chan have been used by 
        domestic and international terrorists?
    Answer. Response was not received at the time of publication.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
